<html>
<title> - UNITED STATES POLICY TOWARD AFGHANISTAN AND PAKISTAN</title>
<body><pre>[Senate Hearing 111-216]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-216
 
          UNITED STATES POLICY TOWARD AFGHANISTAN AND PAKISTAN

=======================================================================



                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 7, 2009

                               __________

         Printed for the use of the Committee on Armed Services





                  U.S. GOVERNMENT PRINTING OFFICE
54-355                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JEFF SESSIONS, Alabama
JACK REED, Rhode Island              SAXBY CHAMBLISS, Georgia
DANIEL K. AKAKA, Hawaii              LINDSEY GRAHAM, South Carolina
BILL NELSON, Florida                 JOHN THUNE, South Dakota
E. BENJAMIN NELSON, Nebraska         MEL MARTINEZ, Florida
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   RICHARD BURR, North Carolina
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
MARK UDALL, Colorado                 SUSAN M. COLLINS, Maine
KAY R. HAGAN, North Carolina
MARK BEGICH, Alaska
ROLAND W. BURRIS, Illinois

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

          United States Policy Toward Afghanistan and Pakistan

                             april 7, 2009

                                                                   Page

Flournoy, Hon. Michele A., Under Secretary Of Defense For Policy.     5
Petraeus, GEN David H. USA, Commander, United States Central 
  Command........................................................    12
Olson, ADM Eric T., USN, Commander, United States Special 
  Operations Command.............................................    34

                                 (iii)


          UNITED STATES POLICY TOWARD AFGHANISTAN AND PAKISTAN

                              ----------                              


                        WEDNESDAY, APRIL 1, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:27 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Bill Nelson, E. Benjamin Nelson, Bayh, Webb, McCaskill, Udall, 
Hagan, Begich, Burris, McCain, Inhofe, Sessions, Chambliss, 
Graham, Thune, Martinez, and Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Richard W. Fieldhouse, 
professional staff member; Michael J. Kuiken, professional 
staff member; Gerald J. Leeling, counsel; Peter K. Levine, 
general counsel; William G.P. Monahan, counsel; Michael J. 
Noblet, professional staff member; John H. Quirk V, 
professional staff member; Russell L. Shaffer, counsel; and 
William K. Sutey, professional staff member.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; William M. Caniano, professional staff member; 
Richard H. Fontaine, Jr., deputy Republican staff director; 
Paul C. Hutton IV, professional staff member; Michael V. 
Kostiw, professional staff member; Daniel A. Lerner, 
professional staff member; David M. Morriss, minority counsel; 
Lucian L. Niemeyer, professional staff member; Richard F. 
Walsh, minority counsel; and Dana W. White, professional staff 
member.
    Staff assistants present: Kevin A. Cronin, Jessica L. 
Kingston, Brian F. Sebold, and Breon N. Wells.
    Committee members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; James Tuite, assistant to Senator 
Byrd; Vance Serchuk, assistant to Senator Lieberman; Elizabeth 
King, assistant to Senator Reed; Christopher Caple, assistant 
to Senator Bill Nelson; Ann Premer, assistant to Senator Ben 
Nelson; Jon Davey, assistant to Senator Bayh; Gordon I. 
Peterson, assistant to Senator Webb; Stephen C. Hedger, 
assistant to Senator McCaskill; Jennifer Barrett, assistant to 
Senator Udall; Anthony J. Lazarski, assistant to Senator 
Inhofe; Lenwood Landrum and Sandra Luff, assistants to Senator 
Sessions; Clyde A. Taylor IV, assistant to Senator Chambliss; 
Adam G. Brake, assistant to Senator Graham; Jason Van Beek, 
assistant to Senator Thune; Brian W. Walsh, assistant to 
Senator Martinez; Erskine W. Wells III, assistant to Senator 
Burr; and Rob Epplin and Chip Kennett, assistants to Senator 
Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
receives testimony this morning on the new strategy for 
Afghanistan and Pakistan announced by President Obama last 
Friday. Our witnesses this morning each have contributed to 
developing that strategy. Under Secretary of Defense for 
Policy, Michele Flournoy, who will be with us in a few minutes, 
was one of three administration officials who led the 
interagency panel that examined U.S. policy towards Afghanistan 
and Pakistan. Their review drew on and benefited from a number 
of earlier policy reviews, including one by U.S. Central 
Command (CENTCOM) led by Commander General David Petraeus, who 
also joins us this morning. We have with us Admiral Eric Olson, 
Commander, Special Operations Command (SOCOM).
    Ms. Flournoy, General Petraeus, and Admiral Olson will play 
a central role in implementing the President's new strategy for 
Afghanistan and Pakistan. Our thanks go to each of them for 
their service and for their being with us this morning. On 
behalf of the committee, please thank the soldiers, sailors, 
airmen, and marines serving in the CENTCOM area of 
responsibility (AOR). America owes them a debt of gratitude for 
their willingness to serve in harm's way and for the sacrifices 
which they and their families make on a daily basis. General 
and Admiral, I hope that you will pass along that appreciation 
to the troops.
    The President's strategy for Afghanistan and Pakistan is on 
the right track. The American people recognize that Afghanistan 
is the place where al Qaeda laid the plans for the attacks of 
September 11 on our homeland and where the training took place 
for those attacks. We must do all we can to make sure that this 
region never again provides a safe haven or a training ground 
for extremists plotting the next attack.
    In formulating this new strategy, the administration has 
consulted closely with our Afghanistan and Pakistan partners. 
Pakistan President Zardari has called the administration's new 
approach a positive change. Afghan President Karzai has 
welcomed the administration's plans, saying it is ``what the 
Afghan people were hoping for.'' This support and buy-in is 
important because ultimately it will be the people of 
Afghanistan and Pakistan who will be the ones who decide to 
reject and defeat the hopeless future that al Qaeda and the 
Taliban offer them and the world.
    I very much support the President's commitment to greatly 
accelerate the expansion of the Afghan National Army (ANA) and 
the Afghan National Police. It is important to build up the 
Afghan security forces far more quickly than has been the case 
up to now so Afghanistan can provide for its own security.
    As Afghan Defense Minister Wardak told me, Afghan soldiers 
want to provide for their country's security, and our 
commanders say that Afghan soldiers have the will to fight and 
are respected throughout Afghanistan and the Afghan army has 
the recruits to build their forces.
    For too long, as Admiral Mullen said some months ago, in 
Iraq we do what we must, while in Afghanistan we only do what 
we can. With the new strategy, this will no longer be the case.
    This committee has heard from witnesses over the last few 
weeks that the expansion of the Afghan army has been slowed by 
a lack of training teams to work with Afghan units and delays 
in getting the basic equipment that Afghan units need to train 
and to fight. The President's decision to deploy an additional 
brigade of 4,000 soldiers with the almost exclusive mission of 
training the Afghan security forces is a major step in the 
right direction to moving more quickly to building up the 
Afghan army. By helping the Afghan forces as they take the lead 
in the fight, we avoid the perception that we are occupiers. 
Instead, we'll be supporting them in their struggle for a 
better future for their country.
    I also welcome President Obama's decision to match this 
increase in military forces with an increase in our civilian 
resources in Afghanistan. The fielding of up to 500 additional 
civilian experts from the State Department, U.S. Agency for 
International Development (USAID), Agriculture, Justice, and 
other civilian government agencies will bring all instruments 
of U.S. power to the task of ensuring that Afghanistan doesn't 
serve again as a safe haven for terrorists.
    The large majority of these civilians will be posted at 
provincial reconstruction teams and elsewhere in the 
countryside to promote economic development and good governance 
at the provincial and district level. We need to support 
programs that empower Afghan communities to set their own 
priorities and to take ownership of local development projects.
    I hope our witnesses will comment on the Afghan National 
Solidarity Program. The National Solidarity Program has funded 
thousands of small development projects in nearly every corner 
of Afghanistan by providing modest grants of money directly to 
locally elected community development councils which plan, 
implement, and oversee development projects that they decide 
are the most beneficial for their local communities.
    The decision to establish benchmarks and metrics to assess 
progress towards meeting our objectives is a wise one. Some 
indicators of security, such as the number of violent 
incidents, roadside bombs, and suicide attacks, have gotten 
worse in 2008. At the same time, the Special Representative of 
the U.N. Secretary General recently told the Security Council 
that he is beginning to see positive trends emerging in 
Afghanistan in government competence, in police reform, private 
sector development, and counternarcotics. CENTCOM data on 
Defense Department-funded reconstruction efforts indicates that 
since October 2005 the Defense Department has constructed 96 
schools and other education centers throughout Afghanistan and 
roughly 6.2 million students were enrolled last year, up from 
800,000 students in 2001. Since January 2007, the Defense 
Department has completed almost 200 health care construction 
projects, funded almost 300 water and sanitation projects, and 
funded 115 electricity-related projects, including microhydro 
and other generators and solar lighting systems.
    We need metrics and we need benchmarks to measure progress 
to report to the American people and, importantly, to hold 
people accountable. It's about time the North Atlantic Treaty 
Organization (NATO) establishes some benchmarks for itself. 
Thus far NATO's performance has been woefully inadequate, 
except for some very notable exceptions of some countries. It 
is long past time for our NATO allies, friends, and other 
stakeholders in the region to step up and do their part. Our 
NATO allies need to provide the troops, equipment, and trainers 
that they agreed to provide for the NATO mission in Afghanistan 
and eliminate national caveats on the use of these forces. 
Those who can't provide military resources should contribute 
financially to Afghanistan's economic development or to help 
build the Afghan security forces, for example through fully 
funding the NATO Afghan Army Trust Fund. So far, the commitment 
to provide a billion Euros to that fund has fallen short by 90 
percent. In addition, countries can share their civilian 
expertise to promote good governance and the rule of law.
    I welcome President Obama's commitment to robustly fund the 
Special Inspector General for Afghanistan Reconstruction, to 
prevent waste and fraud in reconstruction programs.
    Relative to Pakistan, the United States should assist 
Pakistan in confronting terrorists within its borders and in 
building its democratic and economic institutions. Over the 
weekend, President Zardari stated that the conflict in the 
Afghan-Pakistan border region was Pakistan's fight, not 
America's. He said Pakistanis ``are fighting militancy and 
extremism for our own sake.'' I sincerely hope that that is the 
case.
    Pakistani leaders at all levels should need no convincing 
from us that extremist groups pose the greatest threat to 
Pakistan's survival. If Pakistan's goals are attacking 
militants and extremists for the sake of their own stability 
and the benefit of the Pakistani people, then we can and should 
support their goals. But we can't buy Pakistan's support for 
our goals, rather than supporting their goals. If we are 
perceived as trying to do that, it will send the wrong message 
to the Pakistani people and to the extremists, who will use it 
against the Pakistan leadership and against our interests.
    Finally, I do not agree with statements by some in the 
administration that we cannot make progress in Afghanistan 
without success on the Pakistan side of the border. We should 
not tie Afghanistan's future totally to the success of efforts 
in Pakistan or to Pakistan's governmental decisions. Obviously, 
progress in Afghanistan is impeded by the failure of Pakistan 
to stop the flow of violent extremists into Afghanistan. But I 
remain skeptical that Pakistan has either the will or the 
capability to secure their border, particularly between 
Baluchistan and southern Afghanistan.
    U.S. Brigadier General John Nicholson in Regional Command 
South said that that stretch of border is ``wide open'' for 
Afghan Taliban fighters streaming across to attack U.S. and 
NATO forces. Pakistan leaders have failed to date to take on 
the Afghan Taliban in Baluchistan, whose leadership, or shura, 
meets openly in the city of Quetta and from there commands 
attacks into Afghanistan. News articles reported last week that 
operatives in one wing of Pakistan's intelligence service have 
been providing direct support, in terms of money, military 
supplies, and strategic planning guidance, to the Taliban's 
campaign in southern Afghanistan. I hope our witnesses will 
address those news reports.
    But even though obviously far more difficult, unless 
Pakistan stops the flow of violent extremists coming across the 
border, an expanding Afghan army with our help can make 
progress in providing for Afghan security, including at the 
border.
    The road ahead is going to be long and costly. I believe we 
now have the right strategy. We all look forward to hearing 
from our witnesses about the challenges that lie ahead in 
implementing the administration's new approach.
    Senator McCain is going to join us a little bit later and 
he will have an opening statement at that time. So let me start 
with our witnesses. We welcome you, Secretary Flournoy. We know 
that you were very necessarily detained, as a matter of fact, 
at another very important function, and you have your 
priorities exactly right. You might just spend a few moments, 
if you would, telling us why you're late because I know you're 
very proud of the fact.

   STATEMENT OF HON. MICHELE A. FLOURNOY, UNDER SECRETARY OF 
                       DEFENSE FOR POLICY

    Ms. Flournoy. Sir, thank you very much for allowing me to 
do this. My husband is next door as the administration's 
nominee to be Deputy Secretary of the Veterans Administration 
and I wanted to be there at least for his introduction to that 
committee and show my support for him. But I also didn't want 
to let you all down and fail to appear here. So I appreciate 
you letting me be 15 minutes late so I could join you as well.
    Chairman Levin. Well, we thank you for getting here. We 
know how proud you are of your husband.
    Since a quorum is present, let me now interrupt the flow of 
the hearing to ask the committee to consider 3 civilian 
nominations and a list of 3,952 pending military nominations.
    First, I ask the committee to consider the nomination of 
Ashton Carter to be Under Secretary of Defense for Acquisition, 
Technology, and Logistics. Is there a motion to favorably 
report Dr. Carter's nomination to the Senate?
    Senator Lieberman. So moved.
    Chairman Levin. Is there a second?
    Senator Inhofe. Second.
    Chairman Levin. All in favor say aye?
    [A chorus of ayes.]
    Opposed, nay.
    [No response.]
    The motion carries.
    Second, I ask the committee to consider the nomination of 
Dr. James Miller, Jr., to be Deputy Under Secretary of Defense 
for Policy. Is there a motion to favorably report Dr. Miller's 
nomination?
    Senator Lieberman. So moved.
    Chairman Levin. Is there a second?
    Senator Reed. Second.
    Chairman Levin. All in favor say aye?
    [A chorus of ayes.]
    Opposed, nay.
    [No response.]
    The motion carries.
    Next, I ask the committee to consider the nomination of 
Ambassador Alexander Vershbow to be Assistant Secretary of 
Defense for International Security Affairs. Is there a motion 
to report?
    Senator Lieberman. So moved.
    Chairman Levin. Is there a second?
    Senator Inhofe. Second.
    Chairman Levin. All in favor say aye?
    [A chorus of ayes.]
    Any nays?
    [No response.]
    The motion carries.
    Finally, I ask the committee to consider a list of 3,952 
pending military nominations. Of these nominations, 289 are 1 
day short of our 7-day requirement. However, we've checked and 
there's no objection that has been raised to these nominations 
because of that technical shortfall, and I recommend to the 
committee that we waive the 7-day rule in order to permit the 
confirmation of the nominations of these 289 officers prior to 
the coming recess.
    Is there a motion to favorably report the 3,952 
nominations?
    Senator Lieberman. So moved.
    Chairman Levin. Is there a second?
    Senator Collins. Second.
    Chairman Levin. All in favor say aye?
    [A chorus of ayes.]
    Any nays?
    [No response.]
    The motion carries.
 Military Nominations Pending With the Senate Armed Services Committee 
 which are Proposed for the Committee's Consideration on April 1, 2009.
    1. In the Navy Reserve, there is one appointment to the grade of 
captain (Scott D. Shiver) (Reference No. 55).
    2. MG Michael C. Gould, USAF, to be lieutenant general and 
Superintendent, U.S. Air Force Academy (Reference No. 74).
    3. BG Vincent K. Brooks, USA, to be major general (Reference No. 
93).
    4. In the Air Force, there is one appointment to the grade of major 
(Kathy L. Fullerton) (Reference No. 94).
    5. In the Air Force, there are three appointments to the grade of 
colonel (list begins with Emil B. Kabban) (Reference No. 95).
    6. In the Air Force, there are 29 appointments to the grade of 
colonel (list begins with Brian D. Anderson) (Reference No. 96).
    7. In the Air Force, there are 21 appointments to the grade of 
colonel (list begins with Mark T. Allison) (Reference No. 97).
    8. In the Air Force, there are three appointments to the grade of 
lieutenant colonel (list begins with Tina M. Barbermatthew) (Reference 
No. 98).
    9. In the Air Force, there are 32 appointments to the grade of 
lieutenant colonel (list begins with James J. Baldock IV) (Reference 
No. 99).
    10. In the Air Force, there are 67 appointments to the grade of 
major (list begins with Lisa L. Adams) (Reference No. 100).
    11. In the Air Force, there are 1,179 appointments to the grade of 
lieutenant colonel (list begins with Ariel O. Acebal) (Reference No. 
101).
    12. In the Army Reserve, there is one appointment to the grade of 
colonel (Peter C. Gould) (Reference No. 102).
    13. In the Army Reserve, there is one appointment to the grade of 
colonel (Garrett S. Yee) (Reference No. 103).
    14. In the Army Reserve, there are six appointments to the grade of 
colonel (list begins with Roy L. Bourne) (Reference No. 104).
    15. In the Navy, there are two appointments to the grade of 
lieutenant commander (list begins with Steven A. Khalil) (Reference No. 
107).
    16. In the Navy, there is one appointment to the grade of captain 
(Miguel Gonzalez) (Reference No. 108).
    17. In the Navy, there is one appointment to the grade of commander 
(David M. Dromsky) (Reference No. 109).
    18. In the Navy, there is one appointment to the grade of 
lieutenant commander (list begins with Jed R. Espiritu) (Reference No. 
110).
    19. In the Navy, there are 27 appointments to the grade of 
lieutenant commander (list begins with Charles C. Adkison) (Reference 
No. 111).
    20. In the Marine Corps Reserve, there are five appointments to the 
grade of colonel (list begins with David G. Antonik) (Reference No. 
112).
    21. In the Marine Corps, there are 132 appointments to the grade of 
colonel (list begins with Kelly P. Alexander) (Reference No. 113).
    22. In the Air Force, there is one appointment to the grade of 
lieutenant colonel (Jonathon V. Lammers) (Reference No. 118).
    23. In the Air Force, there are two appointments to the grade of 
major (list begins with Gary A. Foskey) (Reference No. 119).
    24. In the Air Force, there are seven appointments to the grade of 
major (list begins with Bryson D. Borg) (Reference No. 120).
    25. In the Army Reserve, there is one appointment to the grade of 
colonel (Frank Rodriguez, Jr.) (Reference No. 121).
    26. In the Army Reserve, there is one appointment to the grade of 
colonel (Edward E. Turski) (Reference No. 122).
    27. In the Army, there is one appointment to the grade of major 
(Joseph R. Krupa) (Reference No. 123).
    28. In the Army, there is one appointment to the grade of major 
(Kathleen P. Naiman) (Reference No. 124).
    29. In the Army Reserve, there are two appointments to the grade of 
colonel (list begins with Juan G. Esteva) (Reference No. 125).
    30. In the Army Reserve, there are two appointments to the grade of 
colonel (list begins with Robert F. Donnelly) (Reference No. 126).
    31. In the Army Reserve, there are three appointments to the grade 
of colonel (list begins with Richard H. Dahlman) (Reference No. 127).
    32. In the Army, there are three appointments to the grade of 
lieutenant colonel and below (list begins with Julie S. Akiyama) 
(Reference No. 128).
    33. In the Army, there are three appointments to the grade of 
lieutenant colonel and below (list begins with Michael L. Nippert) 
(Reference No. 129).
    34. In the Army Reserve, there are three appointments to the grade 
of colonel (list begins with Martin L. Badegian) (Reference No. 130).
    35. In the Army Reserve, there are five appointments to the grade 
of colonel (list begins with Debra H. Burton) (Reference No. 131).
    36. In the Army Reserve, there are 10 appointments to the grade of 
colonel (list begins with Paul P. Bryant) (Reference No. 132).
    37. In the Army, there are 77 appointments to the grade of major 
(list begins with Robert J. Abbott) (Reference No. 133).
    38. In the Army, there are 22 appointments to the grade of colonel 
(list begins with Vanessa A. Berry) (Reference No. 134).
    39. In the Army, there are eight appointments to the grade of 
colonel and below (list begins with Efren E. Recto) (Reference No. 
135).
    40. In the Army Reserve, there are 14 appointments to the grade of 
colonel (list begins with Suzanne D. Adkinson) (Reference No. 136).
    41. In the Marine Corps, there are 773 appointments to the grade of 
major (list begins with Derek M. Abbey) (Reference No. 137).
    42. In the Marine Corps, there are 464 appointments to the grade of 
lieutenant colonel (list begins with Harald Aagaard) (Reference No. 
138).
    43. Col. Debra A. Scullary, USAFR, to be brigadier general 
(Reference No. 142).
    44. In the Air Force Reserve, there are six appointments to the 
grade of major general (list begins with Roger A. Binder) (Reference 
No. 143).
    45. In the Air Force Reserve, there are 14 appointments to the 
grade of brigadier general (list begins with William B. Binger) 
(Reference No. 144).
    46. In the Marine Corps Reserve, there are two appointments to the 
grade of brigadier general (list begins with Paul W. Brier) (Reference 
No. 145).
    47. In the Air Force, there are two appointments to the grade of 
lieutenant colonel and below (list begins with George B. Gosting) 
(Reference No. 155).
    48. In the Army Reserve, there are seven appointments to the grade 
of colonel (list begins with Thomas M. Carden, Jr.) (Reference No. 
156).
    49. In the Air Force, there are 51 appointments to the grade of 
colonel (list begins with Richard D. Baker) (Reference No. 158).
    50. In the Air Force, there are 15 appointments to the grade of 
colonel (list begins with Jeffrey L. Andrus) (Reference No. 159).
    51. In the Air Force, there are 16 appointments to the grade of 
lieutenant colonel (list begins with Federico C. Aquino, Jr.) 
(Reference No. 160).
    52. In the Air Force, there are 148 appointments to the grade of 
lieutenant colonel (list begins with Joselita M. Abeleda) (Reference 
No. 161).
    53. In the Air Force, there are 40 appointments to the grade of 
major (list begins with Thomas J. Bauer) (Reference No. 162).
    54. In the Air Force, there are 286 appointments to the grade of 
major (list begins with Amanda J. Adams) (Reference No. 163).
    55. In the Navy, there are two appointments to the grade of 
lieutenant commander (list begins with Gregory G. Galyo) (Reference No. 
164).
    56. In the Air Force, there are three appointments to the grade of 
major (list begins with Xavier A. Nguyen) (Reference No. 192).
    57. In the Air Force, there are three appointments to the grade of 
major (list begins with John M. Beene II) (Reference No. 193).
    58. In the Army, there is one appointment to the grade of major 
(Laura K. Lester) (Reference No. 194).
    59. In the Army, there is one appointment to the grade of major 
(Brigitte Belanger) (Reference No. 195).
    60. In the Army, there is one appointment to the grade of major 
(Mitzi A. Rivera) (Reference No. 196).
    61. In the Army, there is one appointment to the grade of major 
(Catherine B. Evans) (Reference No. 197).
    62. In the Army, there is one appointment to the grade of major 
(Victor G. Kelly) (Reference No. 198).
    63. In the Army, there is one appointment to the grade of major 
(Ryan T. Choate) (Reference No. 199).
    64. In the Army, there are nine appointments to the grade of 
lieutenant colonel and below (list begins with Rafael A. Cabrera) 
(Reference No. 200).
    65. In the Army, there are 43 appointments to the grade of 
lieutenant colonel (list begins with Robert A. Borcherding) (Reference 
No. 201).
    66. In the Army, there are two appointments to the grade of major 
general (list begins with James K. Gilman) (Reference No. 218).
    67. In the Army, there are two appointments to the grade of 
brigadier general (list begins with William B. Gamble) (Reference No. 
219).
    68. In the Air Force, there is one appointment to the grade of 
major (Ryan G. McPherson) (Reference No. 234).
    69. In the Air Force Reserve, there is one appointment to the grade 
of colonel (Mark J. Ivey) (Reference No. 235).
    70. In the Air Force, there are 37 appointments to the grade of 
lieutenant colonel (list begins with Christopher B. Bennett) (Reference 
No. 238).
    71. In the Army, there is one appointment to the grade of major 
(Victor J. Torres-Fernandez) (Reference No. 241).
    72. In the Army, there are 86 appointments to the grade of 
lieutenant colonel and below (list begins with Joseph Angerer) 
(Reference No. 242).
    73. In the Army Reserve, there are three appointments to the grade 
of colonel (list begins with Ted R. Bates) (Reference No. 243).
    74. In the Army Reserve, there are three appointments to the grade 
of colonel (list begins with John M. Diaz) (Reference No. 244).
    75. In the Army, there are two appointments to the grade of major 
(list begins with Luisa Santiago) (Reference No. 245).
    76. In the Army, there are 124 appointments to the grade of colonel 
and below (list begins with Randall W. Cowell) (Reference No. 246).
    77. In the Army Reserve, there are 16 appointments to the grade of 
colonel (list begins with Albert J. Adkinson) (Reference No. 247).
    78. In the Navy, there are 12 appointments to the grade of 
commander and below (list begins with Christopher G. Cunningham) 
(Reference No. 248).
    79. In the Navy, there are three appointments to the grade of 
lieutenant commander (list begins with Janet L. Jackson) (Reference No. 
249).
    Total: 3,952.

    Chairman Levin. Now we will start with you, Madam 
Secretary.
    Ms. Flournoy. Thank you very much, sir, and thank you to 
the committee for taking the----
    Chairman Levin. Let me interrupt you one more time.
    Let me remind everybody, since we do have a good attendance 
here, that we will mark up the bill tomorrow which is a very 
significant bill, Senate Bill 454, which is the Acquisition 
Reform Act. We're going to be marking this bill up. We need 
good attendance for that. It'll be at 9 o'clock in this room.
    Madam Secretary.
    Ms. Flournoy. Let me add my word of thanks to you for 
taking the time to have those committee votes. I know that 
Secretary Gates is very much looking forward to having some of 
his team arrive to help him.
    Mr. Chairman, Senator Inhofe, members of the committee, 
thank you very much for asking me and giving me the opportunity 
to testify before you today on the Obama administration's new 
strategy for Afghanistan and Pakistan. As the President stated 
last Friday, I think very eloquently, we have a very clear 
goal. This strategy really went back to first principles about 
our interests and our objectives, and we clarified our goal in 
this region as disrupting, dismantling, and defeating al Qaeda 
and its extremist allies. To do so, we must eliminate their 
safe haven in Pakistan and ensure that such a safe haven does 
not return to Afghanistan.
    Preventing future terrorist threats to the American people 
and on our allies is absolutely vital to our national 
interests. We have learned in the past, at too high a price, 
the danger of allowing al Qaeda and its extremist supporters to 
have safe havens and access to resources to plan their attacks. 
This is why we have troops in Afghanistan and why we are going 
to heavily engage and intensify our efforts in Pakistan.
    To achieve our goals, we need a smarter and more 
comprehensive strategy, one that uses all the instruments of 
our national power and those of our allies. We need to devote 
the necessary resources to implement it. A critical aspect of 
this new strategy is the recognition that Afghanistan and 
Pakistan, while two countries, are a single theater for our 
diplomacy. Al Qaeda and its extremist allies have moved across 
the border into Pakistan, where they are planning attacks and 
supporting operations that undermine the stability of both 
countries.
    Special Representative Holbrooke will lead a number of 
bilateral and trilateral and regional diplomatic efforts, and 
from the Defense side we will be working to build the 
counterterrorism and counterinsurgency capabilities of both 
countries, so that they can more effectively combat terrorists 
and insurgents.
    Pakistan's ability to dismantle the safe havens on its 
territory and defeat the terror and insurgent networks within 
its borders are absolutely critical to the security and 
stability of that nuclear-armed state. It is in America's long-
term interests to support Pakistan's restored democracy by 
investing in its people and in their economic wellbeing. We 
seek a strategic partnership with Pakistan that will encourage 
and enable it to shift its focus from conventional war 
preparations to counterinsurgency and counterterrorism 
preparations.
    So we will be urging Congress to support a forthcoming 
proposal such as the Kerry-Lugar legislation that will 
authorize civilian and economic assistance as well as the 
Pakistan Counterinsurgency Capability Fund to develop a more 
effective military that can defeat insurgent networks. This 
support, both military and economic, will be limited if we do 
not see improvements in Pakistani performance.
    We must also develop a lasting partnership with 
Afghanistan. Like Pakistan, Afghanistan suffers from severe 
socioeconomic crises that exacerbate its own political 
situation. These are the root causes of the insurgency that al 
Qaeda and the Taliban are seeking to exploit. Building Afghan 
capacity to address these causes, while simultaneously taking 
the fight to the enemy, are important components of our efforts 
going forward.
    So the U.S., along with our Afghan partners, and our 
international allies, is fully committed to resourcing an 
integrated counterinsurgency strategy. This strategy aims to do 
several things:
    First, to reverse Taliban gains and secure the population, 
the heart of counterinsurgency, in the troubled south and east 
of the country;
    Second, to build the capacity of the Afghan National 
Security Forces (ANSF), both the army and the police, to be 
able eventually to take the lead in providing the security for 
the population in the country. Building the ANSF should enable 
us over time to transition from an International Security 
Assistance Force (ISAF)-led effort to an Afghan-led 
counterinsurgency effort. To do so, we have to meet the 
requirements of our commanders on the ground, particularly for 
trainers, and the deployment that the President announced of an 
additional 4,000 troops focused as trainers will be the first 
time that this critical need has been addressed or fully met in 
several years.
    But beyond a strengthened military mission, we will 
intensify our civilian assistance and our efforts to better 
integrate that assistance to promote more effective governance 
and development. Working with the U.N. and our allies, we will 
seek to improve coordination and coherence in these efforts in 
support of Afghan development priorities. Ensuring a free and 
fair and secure election will also be an immediate and 
consequential task.
    We will also complement efforts at assistance at the 
national level focused on building capacities in the ministries 
with a much more bottom-up set of initiatives designed to build 
capacity at the district and provincial levels, where most 
Afghans have their direct experience with Afghan institutions 
and government. Combatting corruption will reinforce efforts to 
strengthen these institutions, and these methods will address, 
we hope, the root causes of the insurgency, build 
accountability, and ultimately give the Afghan people more 
reason to support their government.
    Defeating the insurgency will also require breaking links 
with the narcotics industry. We will work very hard to build 
more effective Afghan law enforcement, develop alternative 
livelihoods to deny the insurgency lucrative sources of 
funding, and reform the agricultural sector on which so much of 
the Afghan population depends.
    As we regain the initiative in Afghanistan, we will support 
an Afghan-led reconciliation process that's designed to 
essentially flip the foot soldiers, to bring low and mid-level 
leaders to the side of the government. If this process is 
successful, the senior leaders, the irreconcilables, should be 
more easily isolated and we should be better able to target 
them.
    Our men and women in uniform and our allies have fought 
bravely for several years now in Afghanistan. Nearly 700 of our 
soldiers and marines have made the ultimate sacrifice and over 
2,500 have been wounded. We believe that the best way to honor 
them is to improve our strategy and to commit the necessary 
resources to bring this war to a successful conclusion. I would 
urge all of you on this key committee to provide your full 
support.
    The strategy aims not to solve the problem with the U.S. 
and the international community alone, but, more importantly, 
to build a bridge to Afghan self-reliance. Even as our forces 
transition their responsibility to our Afghan partners, we will 
want to be continuing to help Afghanistan with security and 
economic assistance to build their nation over time. I would 
argue that our vital interests demand no less.
    Although we have not finalized our budget requests for the 
2009 supplemental or for the 2010 base budget, I can just tell 
you that we will be coming back to you to ask for your 
assistance in several areas, certainly funding our additional 
troop deployments, accelerating the growth of the ANSF, 
continuing to support counternarcotics funding, increasing the 
Commander's Emergency Response Program (CERP) funding available 
to our commanders, and continuing humanitarian assistance 
support in Afghanistan.
    In Pakistan, we will be coming to discuss with you in more 
detail the security development plan, which will include 
funding for the Pakistan Counterinsurgency Capabilities Fund, 
counternarcotics funding, continued coalition support funds, 
1206, et cetera. So this is the beginning of our work together 
and, while I don't have budgetary details today, we will 
definitely be coming back to you to work with you to provide 
the necessary resources for this strategy. I would also 
encourage you to urge your counterparts on other committees to 
support the civilian aspects of this strategy, which will be 
critical to its success.
    Let me just conclude by saying we understand that this 
cannot be an American-only effort. Defeating al Qaeda and its 
extremist allies is a goal and a responsibility for the 
international community. You will be seeing not only the 
President, but others in the administration, engaging our 
allies, as we already have been doing in The Hague, now in the 
coming days at the NATO summit, at future donors conferences, 
to make sure that our allies are alongside with us, putting on 
the table what they can provide to make this effort successful.
    We believe that keeping the American homeland and the 
American people safe is the bottom line goal of this effort and 
this is a challenge that we all must meet together.
    Thank you all very much for letting me have the opportunity 
to testify this morning.
    Chairman Levin. Thank you, Madam Secretary.
    General Petraeus.

  STATEMENT OF GEN DAVID H. PETRAEUS, USA, COMMANDER, UNITED 
                     STATES CENTRAL COMMAND

    General Petraeus. Mr. Chairman, Senator McCain, members of 
the committee, thank you for the opportunity to provide an 
update on the situation in the U.S. CENTCOM AOR and to discuss 
the way ahead in Afghanistan and Pakistan together with Under 
Secretary Flournoy and the Commander of the Special Operations 
Forces that are so critical to all that we do in our AOR, 
Admiral Eric Olson.
    As Under Secretary Flournoy noted in her statement and as 
President Obama explained this past Friday, the United States 
has vital national interests in Afghanistan and Pakistan. These 
countries contain the most pressing trans-national extremist 
threats in the world, and in view of that they pose the most 
urgent problem set in the CENTCOM AOR.
    Disrupting and ultimately defeating al Qaeda and the other 
extremist elements in Pakistan and Afghanistan and reversing 
the downward security spiral seen in key parts of these 
countries will require sustained, substantial commitment. The 
strategy described last Friday constitutes such commitment.
    Although the additional resources will be applied in 
different ways on either side of the Durand Line, Afghanistan 
and Pakistan comprise a single theater that requires 
comprehensive, whole of governments approaches that are closely 
coordinated. To achieve that level of coordination, Ambassador 
Holbrooke and I will work closely with our ambassadors and our 
counterparts from other countries and the host nations.
    This morning I'll briefly discuss the military aspects of 
the new strategy, noting, however, that while additional 
military forces clearly are necessary in Afghanistan, they will 
not by themselves be sufficient to achieve our objectives. It 
is important that the civilian requirements for Afghanistan and 
Pakistan be fully met as well. To that end, it is essential 
that the respective Departments, State, and USAID foremost 
among them, be provided the resources necessary to implement 
the strategy. I agree with you, Mr. Chairman, on the value of 
the Afghan National Solidarity Program as well.
    Achieving our objectives in Afghanistan requires a 
comprehensive counterinsurgency approach and that is what 
General David McKiernan and ISAF are endeavoring to execute 
with the additional resources being committed. The additional 
forces will provide an increased capability to secure and serve 
the people, to pursue the extremists, to support the 
development of host nation security forces, to reduce the 
illegal narcotics industry, and to help develop the Afghan 
capabilities needed to increase the legitimacy of national and 
local Afghan governance.
    These forces will also, together with the additional NATO 
elements committed for the election security force, work with 
Afghan elements to help secure the national elections in late 
August and to help ensure that those elections are seen as 
free, fair, and legitimate in the eyes of the Afghan people.
    As was the case in Iraq, the additional forces will only be 
of value if they are employed properly. It is vital that they 
be seen as good guests and partners, not as would-be conquerors 
or superiors, as formidable warriors who also do all possible 
to avoid civilian casualties in the course of combat 
operations. As additional elements deploy, it will also be 
essential that our commanders and elements strive for unity of 
effort at all levels and integrate our security efforts into 
the broader plans to promote Afghan political and economic 
development.
    We recognize the sacrifices of the Afghan people over the 
past decades and we will continue working with our Afghan 
partners to help them earn the trust of the people and with 
security to provide them with new opportunities.
    These concepts and others are captured in the 
counterinsurgency guidance recently issued by General 
McKiernan. I commend this guidance to the committee and have 
provided a copy for you.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Petraeus. The situation in Pakistan is, of course, 
closely linked to that in Afghanistan. Although there has been 
progress in some areas as Pakistan's newly established 
democracy has evolved, significant security challenges have 
also emerged. The extremists that have established sanctuaries 
in the rugged border areas not only contribute to the 
deterioration of security in eastern and southern Afghanistan, 
they also pose an ever more serious threat to Pakistan's very 
existence. In addition, they have carried out terrorist attacks 
in India and Afghanistan and in various other countries around 
the region, as well as in the United Kingdom, and they have 
continued efforts to carry out attacks in our homeland.
    Suicide bombings and other attacks have increased in 
Pakistan over the past 3 years, killing thousands of innocent 
Pakistani civilians, security personnel, and government 
officials, including of course former Prime Minister Benazir 
Bhutto, and damaging Pakistan's infrastructure and economy as 
well.
    To be sure, the extremists have sustained losses, and in 
response to the increased concern over extremist activity the 
Pakistan military has stepped up operations against militants 
in parts of the Tribal Areas. However, considerable further 
work is required. It is in Pakistan that al Qaeda senior 
leadership and other trans-national extremist elements are 
located. Thus operations there are imperative and we need to 
provide the support and assistance to the Pakistani military 
that can enable them to confront the extremists, who pose a 
truly existential threat to their country.
    Given our relationship with Pakistan and its military over 
the years, it is important that the United States be seen as a 
reliable ally. The Pakistani military has been fighting a tough 
battle against extremists for more than 7 years. They have 
sacrificed much in this campaign and they need our continued 
support.
    The U.S. military thus will focus on two main areas. First, 
we will expand our partnership with the Pakistani military and 
help build its counterinsurgency capabilities by providing 
training, equipment, and assistance. We will also expand our 
exchange programs to build stronger relationships with 
Pakistani leaders at all levels. Second, we will help promote 
closer cooperation across the Afghan-Pakistan border by 
providing, equipment, facilities, and intelligence 
capabilities, and by bringing together Afghan and Pakistani 
military officers to enable coordination between the forces on 
either side of the border. These efforts will support timely 
sharing of intelligence information and help to coordinate the 
operations of the two forces.
    Within the counterinsurgency construct we have laid out for 
Afghanistan and Pakistan, we will of course continue to support 
the targeting, disruption, and pursuit of the leadership bases 
and support networks of al Qaeda and other transnational 
extremist groups operating in the region. We will also work 
with our partners to challenge the legitimacy of the terrorist 
methods, practices, and ideologies, helping our partners 
address legitimate grievances to win over reconcilable elements 
of the population and supporting promotion of the broadbased 
economic and governmental development that is a necessary part 
of such an effort.
    As we increase our focus on and efforts in Afghanistan and 
Pakistan, we must not lose sight of other important missions in 
the CENTCOM AOR. There has, for example, been substantial 
progress in Iraq, but numerous challenges still confront its 
leaders and its people. Although al Qaeda and other extremist 
elements in Iraq have been reduced significantly, they pose a 
continued threat to security and stability. Beyond that, 
lingering ethnic and sectarian mistrust, tensions between 
political parties, the return of displaced persons, large 
detainee releases, new budget challenges, the integration of 
the Sons of Iraq, and other issues indicate that the progress 
there is still fragile and reversible, though less so than when 
I left Iraq last fall, especially given the successful conduct 
of provincial elections earlier this year.
    Despite the many challenges, the progress in Iraq, 
especially the steady development of the Iraqi security forces, 
has enabled the continued transition of security 
responsibilities to Iraqi elements, further reductions of 
coalition forces, and steady withdrawal of our units from urban 
areas. We are thus on track in implementing the security 
agreement with the Government of Iraq and in executing the 
strategy laid out by the President at Camp Lejeune.
    A vital element in our effort in Iraq has been 
Congressional support for a variety of equipment and resource 
needs, and I want to take this opportunity to thank you for 
that. In particular, your support for the rapid fielding of 
Mine-Resistant Ambush-Protected (MRAP) vehicles and various 
types of unmanned aerial vehicles, as well as for important 
individual equipment and the CERP has been of enormous 
importance to our troopers.
    With respect to CERP, we have taken a number of steps to 
ensure proper expenditure and oversight of the funds allocated 
through this important program, including procedural guides, 
instruction of leaders, and an audit by the Army Audit Agency 
at my request when I was the Multinational Force Iraq commander 
in 2008.
    Iran remains a major concern in the CENTCOM AOR. It 
continues to carry out destabilizing activities in the region, 
including the training, funding, and arming of militant proxies 
active in Lebanon, Gaza, and Iraq. It also continues its 
development of nuclear capabilities and missile systems that 
many assess are connected to the pursuit of nuclear weapons and 
delivery means.
    In response, we are working with partner states in the 
region to build their capabilities and to strengthen 
cooperative security arrangements, especially in the areas of 
shared early warning, air and missile defense, and 
establishment of a common operational picture. Iran's actions 
and rhetoric have in fact prompted our partners in the Gulf to 
seek closer relationships with us than we have had with them in 
some decades.
    We are also helping to bolster the capabilities of the 
security forces in Egypt, Lebanon, Jordan, Yemen, the Gulf 
States, and the Central Asian states, to help them deal with 
threats to their security, which range from al Qaeda to robust 
militia and organized criminal elements. In addition, we are 
working with partner nations to counter piracy, combat illegal 
narcotics production and trafficking, and interdict arms 
smuggling, activities that threaten stability and the rule of 
law and often provide funding for extremists.
    Much of this work is performed through an expanding network 
of bilateral and multilateral cooperative arrangements 
established to address common challenges and pursued shared 
objectives. As we strengthen this network, we strive to provide 
our partners responsive security assistance, technical 
expertise, and resources for training, educating and equipping 
their forces and improving security facilities and 
infrastructure. We believe significant gains result from these 
activities and we appreciate your support for them as well.
    Finally, in all of these endeavors we seek to foster 
comprehensive approaches by ensuring that military efforts are 
fully integrated with broader diplomatic, economic, and 
developmental efforts. We are working closely with former 
Senator Mitchell and Ambassador Ross as they undertake 
important responsibilities as special envoys, in the same way 
that we are working with Ambassador Holbrooke and the U.S. 
ambassadors in the region.
    In conclusion, there will be nothing easy about the way 
ahead in Afghanistan or Pakistan, or in many of the other tasks 
in the CENTCOM area. Much hard work lies before us. But it is 
clear that achieving the objectives of these missions is vital, 
and it is equally clear that these endeavors will require a 
sustained, substantial commitment and unity of effort among all 
involved.
    There are currently over 215,000 soldiers, sailors, airmen, 
marines, and coastguardsmen serving in the CENTCOM AOR. 
Together with our many civilian partners, they have been the 
central element in the progress we have made in Iraq and in 
several other areas, and they will be the key to achieving 
progress in Afghanistan and Pakistan and in the other locations 
where serious work is being done.
    These wonderful Americans and their fellow troopers around 
the world constitute the most capable military in the history 
of our Nation. They have soldiered magnificently against tough 
enemies during challenging operations, in punishing terrain, 
and extreme weather. They and their families have made great 
sacrifices since September 11.
    Nothing means more to these great Americans than the sense 
that those back home appreciate their service and sacrifice. In 
view of that, I want to conclude this morning by thanking the 
American people for their extraordinary support of our men and 
women and their families and by thanking the members of this 
committee for your unflagging support and abiding concern for 
our troopers and their families as well.
    Thank you very much.
    [The prepared statement of General Petraeus follows:]
            Prepared Statement by GEN David H. Petraeus, USA
    Chairman Levin, Senator McCain, and members of the committee, the 
United States Central Command (CENTCOM) is now in its eighth 
consecutive year of combat operations in an area of the world critical 
to the interests of the United States, its allies, and its partners. 
CENTCOM seeks to promote cooperation, to respond to crises, to deter 
aggression, and, when necessary, to defeat our adversaries in order to 
promote security, stability, and prosperity in the CENTCOM Area of 
Responsibility (AOR). Typically, achieving U.S. national goals and 
objectives in the CENTCOM AOR involves more than just the traditional 
application of military power. In many cases, a whole of government 
approach is required, one that integrates all tools available to 
international and interagency partners to secure host-nation 
populations, to conduct comprehensive counterinsurgency and security 
operations, to help reform, and in some cases build, governmental and 
institutional capacity, and to promote economic development.
    These are challenging missions, and the conditions and dynamics 
shaping the region's security environment are constantly evolving. 
Major changes in just this past year include: increased violence in 
Afghanistan and Pakistan; transition of authority to elected civilian 
leadership in Pakistan; progress against extremists in Iraq; expiration 
of U.N. Security Council Resolution 1790; damage to still resilient al 
Qaeda and other extremist elements; continued Iranian intransigence 
over its nuclear program and continued support to proxy extremist 
elements; increased piracy in the Gulf of Aden and off the coast of 
Somalia; and the global financial crisis and accompanying decline in 
oil prices. These developments, as well as recent events on the borders 
of our AOR, particularly in Gaza, India, and Somalia, demonstrate that 
the dynamics shaping regional security will continue to evolve, 
presenting both challenges and opportunities as we seek to address 
insecurity and extremism in the AOR.
    Following conversations with our coalition partners and a recent 
comprehensive review of our AOR by members of CENTCOM, interagency 
partners, and academic experts, we have identified the following 
priority tasks for the coming year:

        <bullet> Helping to reverse the downward cycles of violence in 
        Afghanistan and Pakistan;
        <bullet> Countering transnational terrorist and extremist 
        organizations that threaten the security of the United States 
        and our allies;
        <bullet> Helping our Iraqi partners build on the progress in 
        their country while reducing U.S. forces there but sustaining 
        hard-won security gains;
        <bullet> Countering malign Iranian activities and policies;
        <bullet> Bolstering the capabilities of partner security forces 
        in the region;
        <bullet> Working with our partners to counter piracy, illegal 
        narcotics trafficking, arms smuggling, and proliferation of the 
        components of weapons of mass destruction (WMD);
        <bullet> Working with the U.S. military Services to reduce the 
        strain on our forces and the cost of our operations; and
        <bullet> Supporting new policy initiatives, such as the 
        establishment of the Special Representative for Afghanistan and 
        Pakistan and efforts to reinvigorate the Middle East Peace 
        Process.

    The intent of the remainder of this posture statement is to address 
these priorities and the broader, long-term solutions they support by 
providing a more detailed overview of the AOR, assessments of the 
situation in each of its major sub-regions, brief descriptions of the 
approaches and techniques for improving security and preserving our 
national interests, and comments on the programs and systems needed to 
implement and to support these approaches.
                      overview of the centcom aor
Nature of the AOR
    The lands and waters of the CENTCOM AOR span several critical and 
distinct regions. Stretching across more than 4.6 million square miles 
and 20 countries, the AOR contains vital transportation and trade 
routes, including the Red Sea, the Northern Indian Ocean, and the 
Arabian Gulf, as well as strategic maritime choke points at the Suez 
Canal, the Bab el Mandeb, and the Strait of Hormuz. (With the 
establishment of the U.S. Africa Command (AFRICOM) and the realignment 
of the Unified Command Plan, on 1 October 2008, AFRICOM assumed 
responsibility for U.S. operations in the six countries of the Horn of 
Africa and the Seychelles, countries previously in the CENTCOM AOR.) 
The CENTCOM AOR encompasses the world's most energy-rich region, with 
the Arabian Gulf region and Central Asia together accounting for at 
least 64 percent of the world's petroleum reserves, 34 percent of its 
crude oil production, and 46 percent of its natural gas reserves.
    Social, political, and economic conditions vary greatly throughout 
the region. The region is home to some of the world's wealthiest and 
poorest states, with per capita incomes ranging from $800 to over 
$100,000. Despite scattered pockets of affluence, many of the more than 
530 million people living in the AOR suffer from inadequate governance, 
underdeveloped civil institutions, unsettling corruption, and high 
unemployment.
    As a result of this diversity, many people in the AOR struggle to 
balance modern influences with traditional social and cultural 
authorities and to manage change at a pace that reinforces stability 
rather than erodes it. For the past century, the sub-regions of the AOR 
have been torn by conflict as new states and old societies have 
struggled to erect a new order in the wake of the collapse of 
traditional empires. These conflicts have intensified in the past three 
decades with the emergence of extremist movements, nuclear weapons, and 
enormous wealth derived from oil. Today we see stability in the AOR 
threatened by interstate tensions, proliferation of ballistic missile 
and nuclear weapons expertise, ethno-sectarian violence, and 
insurgencies and substate militias, as well as horrific acts of 
terrorism and extremist violence.
Most Significant Threats to U.S. Interests
    The most serious threats to the United States, its allies, and its 
interests in the CENTCOM AOR lie at the nexus of transnational 
extremists, hostile states, and WMD. Across the AOR, al Qaeda, and its 
extremist allies are fueling insurgency to reduce U.S. influence and to 
destabilize the existing political, social, and economic order. 
Meanwhile, some countries in the AOR play a dangerous game of allowing 
or accepting extremist networks and terrorist facilitators to operate 
from or through their territory, believing that their own people and 
governments will be immune from the threat. Efforts designed to develop 
or acquire WMD and delivery systems magnify the potential dangers of 
the marriage between some states and their extremist proxies. Indeed, 
the acquisition of WMD by hostile states or terrorist organizations 
would constitute a grave threat to the United States, our allies, and 
the countries of the region, and it likely would spark a destabilizing 
arms race. In the near term, the greatest potential for such a threat 
to arise is found in the instability in South Asia and the activities 
and policies of the Iranian regime.

        <bullet> Instability in Afghanistan and Pakistan. Pakistan and 
        Afghanistan pose the most urgent problem set in the CENTCOM 
        AOR. Destabilization of the nuclear-armed Pakistani state would 
        present an enormous challenge to the United States, its allies, 
        and our interests. Pakistani state failure would provide 
        transnational terrorist groups and other extremist 
        organizations an opportunity to acquire nuclear weapons and a 
        safe haven from which to plan and launch attacks. The Pakistani 
        state faces a rising--indeed, an existential--threat from 
        Islamist extremists such as al Qaeda and other transnational 
        terrorists organizations, which have developed in safe havens 
        and support bases in ungoverned spaces in the Afghanistan-
        Pakistan border regions. Nevertheless, many Pakistani leaders 
        remain focused on India as Pakistan's principal threat, and 
        some may even continue to regard Islamist extremist groups as a 
        potential strategic asset against India. Meanwhile, al Qaeda, 
        the Taliban, and other insurgent groups operating from the 
        border region are engaged in an increasingly violent campaign 
        against Afghan and coalition forces and the developing Afghan 
        state.
        <bullet> Iranian Activities and Policies. Iranian activities 
        and policies constitute the major state-based threat to 
        regional stability. Despite U.N. Security Council resolutions, 
        international sanctions, and diplomatic efforts through the 
        P5+1, Iran is assessed by many to be continuing its pursuit of 
        a nuclear weapons capability, which would destabilize the 
        region and likely spur a regional arms race. Iran employs 
        surrogates and violent proxies to weaken competitor states, 
        perpetuate conflict with Israel, gain regional influence, and 
        obstruct the Middle East Peace Process. Iran also uses some of 
        these groups to train and equip militants in direct conflict 
        with U.S. forces. Syria, Iran's key ally, facilitates the 
        Iranian regime's reach into the Levant and the Arab world by 
        serving as the key link in an Iran-Syria-Hizballah-Hamas 
        alliance and allows extremists (albeit in smaller numbers than 
        in the past) to operate in Damascus and to facilitate travel 
        into Iraq.
         The situation in Iraq, lingering Arab-Israeli tensions, and 
        arms smuggling and piracy in the Gulf of Aden and off the 
        Somali coast also pose significant challenges to the interests 
        of the United States, its allies, and partners.
        <bullet> Iraq. The situation in Iraq has improved significantly 
        since the peak of violence in mid-2007, but the gains there 
        remain fragile and reversible, though less so than last fall. 
        In Iraq, a number of factors continue to pose serious risks to 
        U.S. interests and have the potential to undermine regional 
        stability, international access to strategic resources, and 
        efforts to deny terrorist safe havens and support bases. 
        Internally, fundamental issues such as the distribution of 
        political power and resources remain to be settled. The Iraqi 
        state is still developing, and various issues pose serious 
        impediments to development. Integration of the Sons of Iraq and 
        the return of refugees and internally displaced Iraqis will 
        strain governmental capacity. Externally, Iraq's position with 
        its neighbors is still in flux, with some playing a negative 
        role in Iraq. Ethnic and sectarian tensions persist, and if 
        large-scale communal conflict were to return to Iraq, violence 
        could ``spill over'' into other states. Such violence could 
        also enable terrorist and insurgent groups to reestablish 
        control over portions of the country, which would destabilize 
        Iraq and the surrounding region. To further complicate matters, 
        the decline in oil prices and the resulting cut in the Iraqi 
        budget are likely to delay Iraqi security force modernization 
        and security initiatives, programs for the revitalization of 
        the oil and electricity sectors, and improvements in the 
        provision of government services.
        <bullet> The Arab-Israeli conflict. The enduring Arab-Israeli 
        conflict presents distinct challenges to our ability to advance 
        our interests in the AOR. Israeli-Palestinian tensions often 
        flare into violence and large-scale armed confrontations. The 
        conflict has created a deep reservoir of anti-American 
        sentiment, based on the perception of U.S. favoritism for 
        Israel. Arab anger over the Palestinian question limits the 
        strength and depth of U.S. partnerships with governments and 
        peoples in the AOR and threatens the continued viability of 
        moderate regimes in the Arab world. Extremist groups exploit 
        that anger to mobilize support. The conflict also gives Iran 
        influence in the Arab world through its clients, Lebanese 
        Hizballah and Hamas. The attention to this issue in recent 
        months and the appointment of Senator Mitchell have generated 
        positive reactions.
Other Challenges to Security and Stability
    While this statement will describe in greater detail the dynamics 
and challenges in the subregions of the AOR, there are a number of 
crosscutting issues that serve as major drivers of instability, inter-
state tensions, and conflicts. These factors can serve as root causes 
of instability or as obstacles to security.

        <bullet> Extremist ideological movements and militant groups. 
        The CENTCOM AOR is home, of course, to important transnational 
        terrorist networks and violent extremist organizations that 
        exploit local conflicts and foster instability through the use 
        of terrorism and indiscriminate violence. The most significant 
        of these is al Qaeda, which, along with its associated 
        extremist groups, seeks to undermine regional governments, 
        challenge U.S. and western influence in the region, foster 
        instability, and impose extremist, oppressive practices on the 
        people through indiscriminate violence and intimidation.
        <bullet> Proliferation of WMD. The AOR contains states and 
        terrorists organizations which actively seek WMD capabilities 
        and have previously proliferated WMD technology outside 
        established international monitoring regimes.
        <bullet> Ungoverned, poorly governed, and alternatively 
        governed spaces. Weak civil and security institutions and the 
        inability of certain governments in the region to exert full 
        control over their territories are conditions extremists 
        exploit to create physical safe havens in which they can plan, 
        train for, and launch terrorist operations or pursue narco-
        criminal activities. Increasingly we are seeing the development 
        of what might be termed substates, particularly in Lebanon, 
        Pakistan, and the Palestinian territories, which are part of an 
        extremist strategy to ``hold'' territory and challenge the 
        legitimacy and authority of the central government.
        <bullet> Significant source of terrorist financing and 
        facilitation. The AOR, particularly the Arabian Peninsula, 
        remains a prime source of funding and facilitation for global 
        terrorist organizations. This terrorist financing is 
        transmitted through a variety of formal and informal networks 
        throughout the region.
        <bullet> Piracy. The state collapse of Somalia has enabled the 
        emergence of piracy in the Gulf of Aden and off the coast of 
        Somalia. Since the August 2008 spike in piracy acts, we have 
        worked in close cooperation with the international community to 
        counter this trend by focusing on increasing international 
        naval presence, assisting the shipping industry with improving 
        defensive measures, and establishing a sound international 
        legal framework for resolving piracy cases. With United Nations 
        Security Council (UNSC) resolution authorities, over twenty 
        countries have since deployed naval ships to conduct counter 
        piracy operations in the Gulf of Aden. In January 2009, we 
        stood up a Combined Task Force (CTF-151) for the specific 
        purpose of conducting and coordinating counter piracy 
        operations.
        <bullet> Ethnic, tribal, and sectarian rivalries. Within 
        certain countries, the politicization of ethnicity, tribal 
        affiliation, and religious sect serves to disrupt the 
        development of national civil institutions and social cohesion, 
        at times to the point of violence. Between countries in the 
        region, such rivalries can heighten political tension and serve 
        as catalysts for conflict and insurgency.
        <bullet> Disputed borders and access to vital resources. 
        Unresolved issues of border demarcation and disagreements over 
        the sharing of vital resources, such as water, serve as sources 
        of tension and conflict between and within states in the 
        region.
        <bullet> Weapons and narcotics trafficking. The trafficking and 
        smuggling of weapons and narcotics and associated criminal 
        activities undermine state security, spur corruption, and 
        inhibit legitimate economic activity and good governance 
        throughout the AOR.
        <bullet> Uneven economic development and lack of employment 
        opportunities. Despite substantial economic growth rates 
        throughout much of the region over the past few years, 
        significant segments of the population in the region remain 
        economically disenfranchised, uneducated, and without 
        sufficient opportunity. The recent economic downturn has 
        heightened these problems. Without sustained, broadbased 
        economic development, increased employment opportunities are 
        unlikely given the growing proportions of young people relative 
        to overall populations.
        <bullet> Lack of regional and global economic integration. The 
        AOR is characterized by low levels of trade and commerce 
        between and among countries, which diminish prospects for long 
        term economic growth, as well as opportunities to deepen 
        interdependence through private sector, social, and political 
        ties between countries.
                        major operating concepts
Implementing Comprehensive Approaches and Strengthening Unity of Effort
    Addressing the challenges and threats in the AOR requires a 
comprehensive, whole-of-government approach that fully integrates our 
military and nonmilitary efforts and those of our allies and partners. 
This approach puts a premium on unity of effort at all levels and with 
all participants. At the combatant command level, this means working 
with our interagency and international partners to develop joint action 
or campaign plans that establish appropriate missions and objectives 
for our subordinate elements, from major commands such as Multi-
National Force-Iraq (MNF-I) to country-based offices of military 
cooperation. To effectively carry out these plans, the military 
elements must be coordinated carefully with the corresponding State 
Department envoy or ambassador.
    CENTCOM also strives to help subordinate command efforts and to 
address areas and functions not assigned to subordinate units or that 
are crosscutting, such as combating the flow of foreign fighters.
Nesting Counterterrorism within a Counterinsurgency Approach
    Success against the extremist networks in the CENTCOM AOR--whether 
in Iraq, Afghanistan, Pakistan, Yemen, Lebanon, or elsewhere--requires 
all forces and means at our disposal employed in a strategic approach 
grounded in the principles of counterinsurgency. Our counterterror 
efforts, which seek to dismantle the extremist networks and their 
leadership, often through the use of military force, are critical. 
However, it is also important to eliminate these networks' sources of 
support. Often this support comes from sympathetic populations who 
provide financial support and physical safe haven or who simply turn a 
blind eye to extremist activities. At other times, support comes from 
populations directly subjected to extremist intimidation and extortion. 
Eroding this support, eliminating these safe havens, and ultimately 
preventing networks from reconstituting themselves requires protecting 
populations, delegitimizing the terrorists' methods and ideologies, 
addressing legitimate grievances to win over reconcilable elements of 
the population, and promoting broadbased economic and governmental 
development. Defeating extremist groups thus requires the application 
of basic counterinsurgency concepts. We cannot be just ``hard'' or just 
``soft''--we must be both.
    This does not imply, however, that U.S. forces must conduct 
counterinsurgency operations everywhere in the AOR where there are 
extremist groups. Rather, this demands an approach in which the U.S. 
primarily provides support to our partners in their own counterterror 
and counterinsurgency efforts. We should help nations develop their own 
capacity to secure their people and to govern fairly and effectively, 
and we should build effective partnerships and engage with the people, 
leaders, and security forces in the AOR. Whichever forces are involved, 
ours or our partners', their actions and operations must adhere to 
basic counterinsurgency principles, with the specifics of the 
operations tailored to the circumstances on the ground.
Strengthening and Expanding the Regional Security Network
    A new architecture for cooperative security is emerging in the 
region from what in the past has been a relatively loose collection of 
security relationships and bilateral programs. Conflicts in recent 
decades have demonstrated that previous security paradigms and 
architectures for the region, those which focused on balancing regional 
blocs of power or solely on combating terrorism, have been insufficient 
to ensure regional stability and security in the globalized, post-Cold 
War environment.
    From these unsatisfactory paradigms, we are now seeing that a model 
characterized by a focus on common interests, inclusivity, and 
capacity-building can best advance security and stability in the 
region. This network of cooperation is both effective and sustainable 
because it creates synergies and, as it grows, strengthens 
relationships. Each cooperative endeavor is a link connecting countries 
in the region, and each adds to the collective strength of the network. 
The mechanisms put in place to coordinate efforts in one area, such as 
piracy, smuggling, or littoral security, can often be leveraged to 
generate action in other areas, such as a rapid response to a major oil 
spill in the Gulf or in the aftermath of a typhoon or earthquake. 
Moreover, progress made in generating cooperation in a set of issues 
can serve as an opening for engagement on other issues, thereby 
promoting greater interdependence. As a result, a growing network not 
only works to improve interoperability and overall effectiveness in 
providing security; it also builds trust and confidence among neighbors 
and partners.
    The foundation of this network consists of a focus on common 
interests, an atmosphere of inclusivity, and efforts to build security 
capacity and infrastructure.

        <bullet> Common interests. The security challenges we face 
        together can be a unifying force for focusing regional 
        attention and increasing cooperation. We all have an interest 
        in preventing terrorism, reducing illegal drug production and 
        trafficking, responding to environmental disasters, halting the 
        proliferation of WMD and related technology, countering piracy, 
        and deterring aggression. However, no nation can protect itself 
        from these threats without cooperation from others. Collective 
        action and comprehensive approaches are required to address 
        these issues. Therefore, nations must work to build the trust 
        and confidence required to pursue these common interests.
        <bullet> Inclusivity. An atmosphere of broad inclusivity 
        expands the pool of resources for security issues and allows 
        partnerships to leverage each country's comparative advantages, 
        from expertise and facilities to information or even geography. 
        The network is not an alliance or bloc, and countries link into 
        this network to address issues as they desire. This suggests 
        that there may be room for cooperation between countries inside 
        and outside the region and even some who may have been seen as 
        competitors. Security initiatives start out as bilateral 
        partnerships and then expand to multilateral ones as 
        cooperation improves. Ultimately, broad participation in the 
        network is an important means to promote security and stability 
        in the region.
        <bullet> Capacity building. Improving the overall effectiveness 
        of our security efforts requires strengthening each country's 
        ability to maintain security inside its own borders and to 
        participate in joint endeavors. This capacity building includes 
        collective and individual training programs, educational 
        exchanges, and the development of security-related facilities 
        and infrastructure, as well as equipment modernization efforts. 
        These programs benefit from the talents and resources each 
        partner brings to the network, and they can be tailored to the 
        nature of each country's participation. In addition to military 
        programs, this also will require increasing the civilian 
        capacity in the Department of State and the U.S. Agency for 
        International Development (USAID).

    Already, there is great breadth and depth to the cooperative 
activity that is underway, and there is more design and coherence to 
this network than is commonly understood. In addition to our ongoing 
partnerships with the Iraqi security forces and the Afghan National 
Security Forces, numerous multilateral counterterrorism, maritime, and 
coastal security initiatives are ongoing in the region. Additionally, 
many countries participate in an extensive array of combined ground, 
maritime, aviation, and special operations exercises, each designed to 
respond to different types of threats. There are partnerships in the 
region for improving coordination and information sharing through, for 
example, air and missile defense initiatives with several Gulf 
countries and border cooperation programs with Afghanistan and 
Pakistan. Lastly, many countries are working together to fund or 
provide military equipment to underdeveloped security forces, with our 
own Foreign Military Sales (FMS) and Foreign Military Funding (FMF) 
programs playing a large role in these efforts.
                 critical subregions in the centcom aor
    The complexity and uniqueness of local conditions in the CENTCOM 
AOR defy attempts to formulate an aggregated estimate of the situation 
that can address, with complete satisfaction, all of the pertinent 
issues. The boundaries of the AOR are a U.S. organizational construct 
that does not encompass a cohesive social, cultural, political, and 
economic region. Thus, the best way to approach the challenges in the 
AOR is through a disaggregation of the problem sets into six sub-
regions, described as follows:

        <bullet> Afghanistan, Pakistan, and India (though India is not 
        within the boundaries of the CENTCOM AOR)
        <bullet> Iran
        <bullet> Iraq
        <bullet> The Arabian Peninsula, comprised of Saudi Arabia, 
        Kuwait, Bahrain, Qatar, the UAE, Oman, and Yemen
        <bullet> Egypt and the Levant, comprised of Syria, Lebanon, and 
        Jordan (as well as Israel and the Palestinian territories which 
        are not within the CENTCOM AOR)
        <bullet> Central Asia, comprised of Turkmenistan, Kyrgyzstan, 
        Uzbekistan, Tajikistan, and Kazakhstan
Afghanistan and Pakistan
    The United States has a vital national security interest in the 
stability of Afghanistan and Pakistan. Afghanistan and Pakistan pose 
the most urgent problem set in the CENTCOM AOR. The Taliban and other 
insurgent groups are growing in strength and waging an increasingly 
violent campaign against coalition forces and the Afghan state.
    Pakistan, too, faces an existential threat from Islamist extremist 
groups such as al Qaeda and Lashkar-e-Tayyiba, which enjoy the benefit 
of safe havens and support bases in Pakistan, particularly in the 
rugged region along the Afghanistan-Pakistan border. Additionally, the 
possibility, however remote, of serious instability in a nuclear-armed 
Pakistan would pose a serious danger to the United States, its allies, 
and its interests.
    Reversing the cycle of violence, defeating the extremist 
insurgencies in these countries, and eliminating safe havens for al 
Qaeda and other trans-national extremist organizations require a 
sustained, substantial commitment. Afghanistan and Pakistan have unique 
internal dynamics and problems, but the two are linked by tribal 
affiliations and a porous border that permits terrorists and insurgents 
to move relatively freely to and from their safe havens. Although our 
presence, activities, and rules of engagement differ on each side of 
the Durand Line, Afghanistan and Pakistan represent a single theater of 
operations that requires complementary and integrated civil-military, 
whole of government, approaches.
    In accordance with the administration's new strategy for 
Afghanistan and Pakistan, we are substantially increasing our forces in 
Afghanistan. However it is important to note that military forces are 
necessary but, by themselves, are not sufficient to achieve our 
objectives. We will foster comprehensive approaches by ensuring our 
military efforts reinforce U.S. policy goals and are fully integrated 
with broader diplomatic and development efforts. In fact, it is 
critical that the complementary efforts of other departments and 
agencies receive the necessary support, manning, and other resources. 
The United States must have robust and substantial civilian capacity to 
effectively complement our military efforts.
    Afghanistan
    In parts of Afghanistan, the situation is deteriorating. The Afghan 
insurgency has expanded its strength and influence--particularly in the 
south and east--and the 2009 levels of violence are significantly 
higher than those of last year. The Taliban have been resilient, and 
their activities are fueled by revenues from narcotics-trafficking, the 
freedom of movement they enjoy in the border region between Afghanistan 
and Pakistan, and the ineffective governance and services in parts of 
the country, as well as by contributions from groups outside the 
Afghanistan/Pakistan area. Indeed, insurgent successes correlate 
directly to the Afghan people's growing disenchantment with their 
government due to its incapacity to serve the population and due to 
their doubts regarding the competence and honesty of public officials.
    In order to address the situation in Afghanistan, we will implement 
a comprehensive counterinsurgency approach that works to defeat 
existing insurgent groups, develops the institutions required to 
address the root causes of the conflict, maintains relentless pressure 
on terrorist organizations affiliated with the insurgency, dismantles 
illegal drug networks, and prevents the emergence of safe havens for 
those transnational extremist groups.
    This campaign has several components, but first and foremost is a 
commitment to protecting and serving the people. We and our Afghan 
partners must focus on securing the Afghan people and building their 
trust. As part of this focus, we will take a residential approach and, 
in a culturally acceptable way, live among the people, understand their 
neighborhoods, and invest in relationships. The recent commitment of 
additional forces by the President will allow us to implement this 
strategy more effectively, because we will be able to expand the 
security presence further into the provinces and villages. With these 
additional forces we will be better able to hold areas cleared of 
insurgent groups and to build a new level of Afghan governmental 
control. We recognize the sacrifices of the Afghan people over the past 
decades, and we will continue working to build the trust of the people 
and, with security, to provide them with new opportunities.
    As a part of this approach, we will also invigorate efforts to 
develop the capabilities of the Afghanistan National Security Force, 
including the Afghan National Army, the Afghan Police, the Afghan 
National Civil Order Police, the Afghan Border Forces, specialized 
counter narcotics units, and other security forces. We recognize the 
fact that international forces must eventually transfer security 
responsibility to Afghan security forces. To do this we must 
significantly expand the size and capacity of the Afghan forces so they 
are more able to meet their country's security needs. A properly sized, 
trained, and equipped Afghanistan National Security Force is a 
prerequisite for any eventual drawdown of international forces from 
Afghanistan.
    In addition, we will bolster the capabilities and the legitimacy of 
the other elements of the Afghan Government--an effort in which, in 
much of Afghanistan, we will be building not rebuilding. We will do 
this through our support to the Provincial Reconstruction Teams and 
through civil-military and ministerial capacity building efforts, 
empowering Afghans to solve Afghan problems and promoting local 
reconciliation where possible. Moreover, we will support the Afghan 
Government and help provide security for the Presidential elections 
later this year to ensure those elections are free, fair, and 
legitimate in the eyes of the Afghan people.
    Another major component of our strategy is to disrupt narcotics 
trafficking, which has provided significant funding to the Taliban 
insurgency. This drug money has been the ``oxygen in the air'' that 
allows these groups to operate. With the recent extension of authority 
granted to U.S. forces to conduct counternarcotics operations, we are 
better able to work with the Afghan Government more closely to 
eradicate illicit crops, shut down drug labs, and disrupt trafficking 
networks. To complement these efforts, we will also promote viable 
agricultural alternatives, build Afghan law enforcement capacity, and 
develop the infrastructure to help Afghan farmers get their products to 
market.
    Executing this strategy will require clear unity of effort at all 
levels and with all participants. Our senior commanders in Afghanistan 
will be closely linked with Ambassador Holbrooke, the U.S. Ambassador 
to Afghanistan, and the Afghan leadership. Our security efforts will be 
integrated into the broader plan to promote political and economic 
development, with our security activities supporting these other 
efforts. Additionally, we will continue to work with our coalition 
partners and allies to achieve progress, in part by refining our 
command and control structures to coordinate more effectively the 
actions of U.S. forces working for NATO ISAF and with Afghan forces. 
These cooperative relationships have proven extremely helpful, and we 
have benefitted from the Central Asian States' recognition of the 
importance of international success in Afghanistan and their granting 
us overflight and transit rights to support our operations there.
    Pakistan
    Pakistan is facing its own insurgency from militants and extremists 
operating from the country's tribal areas. As in Afghanistan, violent 
incidents in Pakistan, particularly bombings and suicide attacks, have 
increased over the past 3 years. Most of these have targeted security 
personnel and government officials, but some have intended a more 
public impact, as we saw with the tragic assassination of Prime 
Minister Benazir Bhutto and the more recent attacks in Mumbai. In 
response to this extremist activity, the Pakistani military has stepped 
up operations against militants in parts of the tribal areas, expanding 
a campaign that the Pakistani military has been prosecuting against 
extremists for more than 7 years. The Pakistani military has sacrificed 
much during this campaign, and we will support their efforts in two 
ways.
    First, we will expand our partnership with the Pakistani military 
and Frontier Corps. We will provide increased U.S. military assistance 
for helicopters to provide air mobility, night vision equipment, and 
training and equipment--specifically for Pakistani Special Operations 
Forces and their Frontier Corps to make them a more effective 
counterinsurgency force. We will also expand our outreach and exchange 
programs to build stronger relationships with the Pakistani leadership.
    Second, we will help promote cooperation across the Afghanistan-
Pakistan border by providing training, equipment, facilities, and 
intelligence. These efforts will promote sharing of timely intelligence 
information, help to deconflict and coordinate security operations on 
both sides of the border, and limit the flow of extremists between 
Afghanistan and Pakistan.
    Within the counterinsurgency construct we have laid out for 
Afghanistan and Pakistan, we will of course continue to target, 
disrupt, and pursue the leadership, bases, and support networks of al 
Qaeda and other transnational extremist groups operating in the region. 
We will do this aggressively and relentlessly. We will also help our 
partners work to prevent networks from reconstituting themselves, 
assisting them with delegitimizing the terrorists' methods and their 
ideology, addressing legitimate grievances to win over reconcilable 
elements of the population, and promoting broadbased economic and 
governmental development.
Iran
    The Iranian regime pursues its foreign policies in ways that 
contribute to insecurity and frustrate U.S. goals in the CENTCOM AOR. 
It continues to insert itself into the Israeli-Palestinian situation by 
providing material, financial, and political support to Hamas and 
Hizballah; it remains in violation of three U.N. Security Council 
Resolutions regarding its nuclear program; and it still provides arms 
and training to militias and insurgents in Iraq and Afghanistan.
    Iran continues to use Hizballah as a proxy to assert its influence 
in the region and to undermine the prospects for peace in the Levant. 
Despite Hizballah's participation in the government, the group 
continues to undermine the Lebanese state's authority and remains a 
threat to Israel. Hizballah's military support from Iran moves mainly 
through Syria, and thus is dependent on a continuation of the Syria-
Iran alliance.
    Iran's nuclear program is widely believed to be a part of the 
regime's broader effort to expand its influence in the region. Although 
the regime has stated that the purpose of its nuclear program is for 
peaceful, civilian use, Iranian officials have consistently failed to 
provide the assurances and transparency necessary for international 
acceptance and for the verification required by the Nuclear 
Nonproliferation Treaty, to which Iran is a signatory. The regime's 
obstinacy and obfuscation have forced Iran's neighbors and the 
international community to conclude the worst about the regime's 
intentions. As a result, other regional powers have announced their 
intentions to develop nuclear programs. This poses a clear challenge to 
international non-proliferation interests, in particular due to the 
potential threat of such technologies being transferred to extremist 
groups. Moreover, the Israeli Government may ultimately see itself so 
threatened by the prospect of an Iranian nuclear weapon that it would 
take preemptive military action to derail or delay it.
    The Iranian regime has also attempted to thwart U.S. and 
international efforts to bring stability to Iraq and Afghanistan. In 
Afghanistan, Iran appears to have hedged its longstanding public 
support for the Karzai Government by providing opportunistic support to 
the Taliban. In Iraq, however, the Iranian regime has experienced a 
recent setback. Iraqi and coalition forces have succeeded in degrading 
Iranian proxies operating in southern Iraq, and, during January's 
provincial elections, the Iraqi people voiced a broad rejection of 
Iranian influence in Iraqi politics.
    Pursuing our longstanding regional goals and improving key 
relationships within and outside the AOR help to limit the negative 
impact of Iran's policies. A credible U.S. effort on Arab-Israeli 
issues that provides regional governments and populations a way to 
achieve a comprehensive settlement of the disputes would undercut the 
idea of militant ``resistance,'' which the Iranian regime and 
extremists organizations have been free to exploit. Additionally, 
progress on the Syrian track of the peace process could disrupt Iran's 
lines of support to Hamas and Hizballah. Moreover, our cooperative 
efforts with the Arab Gulf states, which include hardening and 
protecting their critical infrastructure and developing a regional 
network of air and missile defense systems, can help dissuade 
aggressive Iranian behavior. In all of these initiatives, our military 
activities will support our broader diplomatic efforts.
Iraq
    The situation in Iraq has improved dramatically in the past year. 
Where security incidents once averaged well over 1,500 per week in the 
early summer of 2007 when sectarian violence raged at its peak, there 
have been less than 150 incidents per week for the past 5 months, 
including criminal violence. These improvements in security and the 
increasing capabilities of the Iraqi Security Forces have allowed for a 
drawdown to 14 Brigade Combat Teams, with 2 more to be reduced this 
year along with thousands of ``enabler'' forces. We remain on track to 
end our combat mission in Iraq by the end of August 2010.
    After almost 6 years of war, the fundamental causes of instability 
and violence have diminished, and they are now kept largely in check by 
a number of factors. The security effort in Iraq has put an end to 
large-scale violence, while increasingly capable and trusted Iraqi 
Security Forces (ISF) have taken on an expanded role. The Iraqi 
Government's moves toward reconciliation have helped lessen some of the 
tensions in Iraq's communal struggle for power and resources, as 
formerly warring groups have turned increasingly to political 
participation rather than violence as a means of achieving their goals. 
Moreover, the results of the January 2009 provincial elections indicate 
a rejection of the Islamist parties seen as the most under the 
influence of Iran.
    Though the trends in Iraq have been largely positive, progress has 
been uneven, and the situation still remains fragile and reversible. A 
return to violence remains an option for those who have set aside their 
arms. Enemy organizations, especially al Qaeda in Iraq (AQI) and 
Iranian-backed Shi'a extremist groups, remain committed to narrow 
sectarian agendas and the expulsion of U.S. influence from Iraq. These 
enemy organizations will undoubtedly attempt to disrupt or derail 
several key events during the next year, including the national 
elections scheduled for December. However, the most difficult and 
potentially violent problem may be the Arab-Kurd-Turkmen competition in 
disputed Iraqi territories. Beginning this spring, Iraqis will take up 
the long-deferred, contentious question of Iraq's internal boundaries, 
which has fundamental implications for the role of the Kurds in the 
future Iraqi state and for the likelihood of Sunni Arab and Turkmen 
insurgent groups returning to large-scale violence.
    The central questions for the United States as these events develop 
are how to help the Iraqis preserve hard-won security gains as U.S. 
forces withdraw and how to further develop U.S.-Iraq relations that 
best enable regional stability. The fact that the 2009 provincial 
elections were conducted successfully showed that the checks and 
balances of the Iraqi constitution and professionalism of the ISF act 
as a brake upon any party's ambitions to control the Iraqi state. 
However, the Iraqi Government has much work to do to develop the 
essential services the Iraqi people expect and to perform the functions 
necessary to achieve full support over time. The Iraqi Government in 
2009-2010 will be under great popular pressure as the Iraqi 
electorate's expectations will be high after electing new provincial 
and national governments.
    U.S. forces and Provincial Reconstruction Teams are still an 
element that helps hold the security, governance, and development 
effort together. In some areas, U.S. military and civilian officials 
are still important mediators in local conflicts or disputes and key 
interlocutors between local communities and higher levels of the Iraqi 
Government. Prior to disengaging from those roles, U.S. forces and 
civilian officials must ensure certain conditions prevail, including:

        <bullet> A security force capable of coping with current and 
        intensified enemy action;
        <bullet> An Iraqi Government capable of meeting basic needs and 
        expectations and delivering services on a nonsectarian, non-
        ethnic basis; and
        <bullet> Adequate rule of law and sufficiently stable civil 
        institutions.
The Arabian Peninsula
    The Arabian Peninsula commands significant U.S. attention and focus 
because of its importance to our interests and the potential for 
insecurity. These Arab states on the Peninsula are the nations of the 
AOR most politically and commercially connected to the U.S. and Europe. 
They are more developed economically and collectively wield defense 
forces far larger than any of their neighbors, and they are major 
providers of the world's energy resources. However, many Gulf Arabs 
suffer from degrees of disenfranchisement and economic inequity, and 
some areas of the Peninsula contain extremist sentiment and 
proselytizing. As a result, the Peninsula has been a significant source 
of funding and manpower for extremist groups and foreign fighters. 
These internal troubles are often aggravated and intensified by 
external factors, such as the Iranian regime's destabilizing behavior, 
instability in the Palestinian territories and southern Lebanon, the 
conflict in Iraq, and weapons proliferation.
    Because of the Peninsula's importance and its numerous common 
security challenges, the countries of the Arabian Peninsula are key 
partners in the developing regional security network described above. 
CENTCOM ground, air, maritime, and Special Operations Forces 
participate in numerous operations and training events, bilateral and 
multilateral, with our partners from the Peninsula. We help develop 
indigenous capabilities for counterterrorism; border, maritime, and 
critical infrastructure security; and deterring Iranian aggression. As 
a part of all this, our FMS and FMF programs are helping to improve the 
capabilities and interoperability of our partners' forces. We are also 
working toward an integrated air and missile defense network for the 
Gulf. All of these cooperative efforts are facilitated by the critical 
base and port facilities that Bahrain, Kuwait, Qatar, the UAE, and 
others provide for U.S. forces.
    Yemen stands out from its neighbors on the Peninsula. The inability 
of the Yemeni Government to secure and exercise control over all of its 
territory offers terrorist and insurgent groups in the region, 
particularly al Qaeda, a safe haven in which to plan, organize, and 
support terrorist operations. It is important that this problem be 
addressed, and CENTCOM is working to do that. Were extremist cells in 
Yemen to grow, Yemen's strategic location would facilitate terrorist 
freedom of movement in the region and allow terrorist organizations to 
threaten Yemen's neighbors, especially Saudi Arabia and the other Gulf 
States. In view of this, we are expanding our security cooperation 
efforts with Yemen to help build the Nation's security, 
counterinsurgency, and counterterror capabilities.
Egypt and the Levant
    The Levant and Egypt subregion is the traditional political, 
social, and intellectual heart of the Arab world and has historically 
been the primary battleground between rival ideologies. The dynamics of 
this subregion, particularly with regard to Israel and extremist 
organizations, have a significant impact on the internal and external 
politics of states outside the region as well. In addition, U.S. policy 
and actions in the Levant affect the strength of our relationships with 
partners in the AOR. As such, progress toward resolving the political 
disputes in the Levant, not to mention the prevention of conflict, is a 
major concern for CENTCOM.
    Egypt remains a leading Arab state, a stabilizing influence in the 
Middle East, and a key actor in the Middle East Peace Process. In 
recent years, however, the Egyptian Government has had to deal with 
serious economic challenges and an internal extremist threat; as such, 
U.S. foreign aid has been a critical reinforcement to the Egyptian 
Government. At the same time, Egypt has played a pivotal role in the 
international effort to address worsening instability in Gaza. CENTCOM 
continues to work closely with the Egyptian security forces to 
interdict illicit arms shipments to extremists in Gaza and to prevent 
the spread of Gaza's instability into Egypt and beyond.
    In Lebanon, Lebanese Hizballah continues to undermine security 
throughout the Levant by undermining the authority of the Lebanese 
Government, threatening Israel, and providing training and support to 
extremist groups outside Lebanon. Syria and Iran continue to violate 
U.N. Security Council resolutions and provide support to Hizballah--
support which allowed Hizballah to instigate and wage a war against 
Israel in 2006 and reconstitute its armaments afterward. Stabilizing 
Lebanon requires ending Syria and Iran's illegal support to Hizballah, 
building the capabilities of the Lebanese Armed Forces, and assisting 
the Lebanese Government in developing a comprehensive national defense 
strategy through which the government can exercise its sovereignty, 
free of interventions from Hizballah, Syria, and Iran.
    The al-Asad regime in Syria continues to play the dangerous game of 
allowing or accepting extremist networks and terrorist facilitators to 
operate from and through Syrian territory, believing incorrectly that 
their people and government will be immune from the threat. Whether 
hosting Hamas leadership, supporting the shipment of armaments to 
Hizballah, or cooperating with AQI operatives, the al-Asad regime has 
used its support for its neighbors' opposition movements as strategic 
leverage. However, unlike Iran, Syria's motives probably stem from 
short-sighted calculations rather than ideology. It is possible that 
over time Syria could emerge as a partner in promoting security in the 
Levant and in the region.
    Jordan continues to be a key partner and to play a positive role in 
the region. Jordan participates in many regional security initiatives 
and has placed itself at the forefront of police and military training 
for regional security forces. In addition to its regular participation 
in multi-lateral training exercises, Jordan promotes regional 
cooperation and builds partner security capacity through its King 
Abdullah Special Operations Training Center, Peace Operations Training 
Center, International Police Training Center, and Cooperative 
Management Center. These efforts will likely prove critical in the 
continued development of legitimate security forces in Lebanon and the 
Palestinian territories and, as a consequence, in the long-term 
viability of the peace process.
    Through capacity building programs, joint and combined training 
exercises, information sharing, and other engagement opportunities, we 
will work with our partners in Egypt and the Levant to build the 
capabilities of legitimate security forces, defeat extremist networks 
and substate militant groups, and disrupt illegal arms smuggling. In 
addition, we will work to develop the mechanisms of security and 
confidence building to support the Middle East Peace Process.
Central Asia
    Though Central Asia has received relatively less attention than 
other subregions in the AOR, the U.S. maintains a strong interest in 
establishing long-term, cooperative relationships with the Central 
Asian countries and other major regional powers to create a positive 
security environment. Central Asia constitutes a pivotal location on 
the Eurasian continent between Russia, China, and South Asia; it thus 
serves as a major transit route for regional and international commerce 
and for supplies supporting Coalition efforts in Afghanistan. Ensuring 
stability in Central Asia requires abandoning the outdated, zero-sum 
paradigms of international politics associated with the so-called 
``Great Game,'' as well as the adoption of cooperative approaches to 
combat the common enemies of extremism and illegal narcotics 
trafficking. The United States, Russia, and China need not court or 
coerce the Central Asian Governments at the expense of one another. 
Instead, there are numerous opportunities for cooperation to advance 
the interests of the all parties involved.
    However, public and civic institutions in Central Asia are still 
developing after decades of Soviet rule, and they present challenges to 
efforts to promote security, development, and cooperation. Although 
there is interdependence across a broad range of social, economic, and 
security matters, these nations have not yet established a productive 
regional modus vivendi. Overcoming these challenges requires gradual, 
incremental approaches that focus on the alleviation of near-term 
needs, better governance, the integration of markets for energy and 
other commercial activity, and grassroots economic development.
    As a part of a broader U.S. effort to promote development and build 
partnerships in Central Asia, CENTCOM works to build the capabilities 
of indigenous security forces as well as the mechanisms for regional 
cooperation. Besides providing training, equipment, and facilities for 
various Army, National Guard, and border security forces through our 
Building Partnership Capacity programs, we also work with the national 
level organizations to facilitate dialogue on security and emergency 
response issues. For example, in February 2008 and again this past 
March, CENTCOM hosted Conferences for the Chiefs of Defense from the 
Central Asian States to discuss regional security issues. CENTCOM also 
co-hosts the annual Regional Cooperation Exercise, which is designed to 
improve regional coordination on issues such as counter-terrorism and 
security and humanitarian crisis response.
    CENTCOM is also working to ensure continued access to Afghanistan 
through Central Asia. With great support from the U.S. Transportation 
Command, we have established a Northern Distribution Network through 
several Central Asian States to help reduce costs of transporting non-
military supplies to support NATO, U.S., and Afghan security 
operations, while decreasing our exposure to risks associated with our 
supply lines running through Pakistan. On a related note, we are also 
pursuing alternatives to the use of Manas Air Base in Kyrgyzstan. A 
decision by the Krygyz Government to restrict U.S. and Allied access to 
the base would be disappointing but would not constitute a serious 
impediment to coalition operations in Afghanistan.
                       critical mission enablers
    Success in our ongoing missions and maintaining a credible, 
responsive contingency capacity in the AOR require the support of 
several key mission enablers. The impacts of these capabilities range 
from the tactical to the strategic, and CENTCOM fully supports their 
continuation, expansion, and improvement.
Building Partnership Capacity (BPC)
    Our security cooperation and security assistance efforts are 
critical to improving security and stability in the region. They help 
strengthen our relationships and build the security capabilities of our 
partners in the AOR. Increases to global train and equip resources, 
coalition support funds, and the State Department's foreign military 
sales (FMS) and counternarcotics security assistance and reimbursements 
programs are essential in generating comprehensive and cooperative 
solutions to defeat insurgent and extremist groups. Foreign Military 
Financing (FMF) and FMS remain our mainstay security assistance tools 
and are reasonably successful in meeting needs in a peacetime 
environment. The International Military Education and Training program 
is also an important contributor to developing partner nation 
capabilities and enduring ties. However, in the face of enduring, 
persistent irregular warfare, we look to expanded special authorities 
and multi-year appropriations to quickly meet the emerging needs of 
counterterrorism, counterinsurgency, and Foreign Internal Defense 
operations. Multi-year programs of record that provide training, 
equipment, and infrastructure for our partner security forces enabled 
our successes in Iraq and are of prime importance if we are to achieve 
comparable progress in Pakistan, Afghanistan, Lebanon, and Yemen.
Commander's Emergency Response Program (CERP)
    CERP continues to be a vital counterinsurgency tool for our 
commanders in Afghanistan and Iraq. Small CERP projects can be the most 
efficient and effective means to address a local community's needs, and 
where security is lacking, it is often the only immediate means for 
addressing those needs. CERP spending is not intended to replace USAID-
sponsored projects but rather to complement and potentially serve as a 
catalyst for these projects. For this reason, CENTCOM fully supports 
expanded CERP authorities for its use in other parts of the CENTCOM 
AOR. CENTCOM has established control mechanisms that exceed those 
mandated by Congress, to include having the Army Audit Agency review 
programs in Iraq and a command review to ensure CERP funds projects 
that advance U.S. goals and are of the most benefit to the targeted 
populations in Iraq and Afghanistan. We will continue to seek 
innovative mechanisms and authorities to create similar 
counterinsurgency tools for use by coalition and host nation partners. 
These tools should allow for a variety of funding sources, to include 
contributions from nongovernmental organizations, international 
government organizations, and partner governments.
Adaptable Command, Control, and Communications Systems
    Continued operations across a dispersed AOR call for a robust, 
interoperable, high-volume Theater Command, Control, Communications, 
and Computers Infrastructure. CENTCOM currently utilizes available 
bandwidth to capacity, and theater fiber networks are vulnerable to 
single points of failure in the global information grid. Military 
Satellite Communications capabilities are critical to theater 
operations, and the acceleration of transformational upgrades to these 
systems would reduce our reliance on commercial providers.
    We aggressively pursue means to extend Joint Theater Expeditionary 
Command, Control, and Communications support and services to 
disadvantaged users throughout the AOR. Some of these include Radio 
over Internet Protocol Routed Network, which provides critical radio 
retransmission services to remote users on the move; the Joint Airborne 
Communications System, which provides a flexible aerial platform-based 
radio retransmission solution that can be shifted to extend services to 
disadvantaged users; and the Distributed Tactical Communications 
System, which leverages new technologies to deliver reliable, critical 
communications capabilities to the most remote users. Overall, we 
require a fully integrated space and terrestrial communications network 
and infrastructure that support all Joint and potential partner nation 
users.
Intelligence and ISR
    We continue to refine our techniques, procedures, and systems to 
optimize our Intelligence, Surveillance, and Reconnaissance (ISR) 
efforts and to improve our battle space awareness, seeking greater 
specificity, detail, and timeliness of intelligence whenever possible. 
We aggressively seek out ways to execute the entire Find, Fix, Finish, 
Exploit, Analyze, and Disseminate intelligence cycle. However, this 
requires improved imagery intelligence, wide area coverage, sensor 
integration, signals intelligence, moving target indicators, layered 
ISR architecture and management tools, biometrics, counterintelligence, 
and human collectors. In particular, the acceleration of ISR Unmanned 
Aerial Systems procurement is crucial to our success. There is also a 
requirement for greater sea-based ISR. CENTCOM also supports DOD's 
planned growth in intelligence specialists, interrogators, 
counterintelligence, and human intelligence personnel capabilities. 
Moreover, we have learned the critical importance of a host of other 
specialized capabilities that have been developed outside traditional 
military specialties, such as terrorist threat finance analysts, human 
terrain teams, and document exploitation specialists.
Joint and Multinational Logistics
    The primary focus of our logistics efforts is the timely 
deployment, equipping, and sustainment of units engaged in combat 
operations. Working with our multinational partners, we have instituted 
an efficient and effective logistics architecture that supports our 
forces and operations, while constantly reducing costs. Our logistics 
posture consists of prepositioned inventories, strategic air and 
sealift capabilities, and access to bases with critical infrastructure, 
all of which are key logistics components that support operational 
flexibility. Our logistics processes center on the Global Combat 
Support System-Joint portal, which provides a theater level logistics 
common operational picture and supports theater-wide logistics unity of 
effort.
    A significant asset recently added to CENTCOM's logistics 
capabilities has been the Joint Contracting Command for Iraq and 
Afghanistan, which supports CENTCOM, MNF-I, and U.S. Forces-Afghanistan 
by providing responsive contracting of supplies, services, and 
construction, and which also supports capacity building efforts within 
Iraqi and Afghan Ministries. The Joint Contracting Command recently 
established the infrastructure to transition from a manual to an 
automated contract writing system and to a Standard Procurement System 
across Iraq and Afghanistan. As a result, in fiscal year 2008, the 
Joint Contracting Command-Iraq/Afghanistan was able to execute over 
41,000 contract actions and obligate a total of $7.5 billion, and over 
45 percent of this funding went to Iraqi and Afghan firms. The Joint 
Contracting Command also teams with Task Force Business Stability 
Operations (TFBSO) and provides contracting support executing 
Congressional resources to revitalize Iraqi State Owned Enterprises. We 
estimate that TFBSO's $100 million total in fiscal years 2007 and 2008 
revitalization efforts generated employment for 24,500 Iraqis.
    Our logisticians are also focusing on other key initiatives 
supporting our forces and operations, while minimizing costs. We are 
now moving an increasing amount of non-military supplies into 
Afghanistan via a Northern Distribution Network across the Central 
Asian States, with the cooperation of Russia and other European 
participants. As mentioned above, these new lines of communication 
(LOCs) will help reduce costs while decreasing our exposure to risks 
associated with our supply lines running through Pakistan. Reliance on 
these LOCs will be further reduced by our Afghan first initiative, 
which increases our use of Afghan producers and vendors for products 
such as bottled water.
Force Protection and Countering Improvised Explosive Devices
    Initiatives focused on countering the threat of Improvised 
Explosive Devices (IEDs) are of paramount importance to our operations 
in Iraq and Afghanistan. IEDs continue to be the number-one threat to 
ground forces, and efforts to expedite the fielding of personal 
protective equipment, IED jammers, route clearance vehicles and 
equipment, and most recently, the Mine Resistant Ambush Protected 
(MRAP) vehicle have saved countless lives. Because of the MRAP's 
importance, we have more than tripled our MRAP fielding capacity and 
more than doubled the number of MRAPs in Afghanistan over the past 8 
months. Because we expect IEDs to remain a key weapon in the arsenals 
of terrorists and insurgents for years to come, CENTCOM urges continued 
support for the Joint IED Defeat Organization; the Services' baseline 
sustainment for MRAPs, base defense initiatives, and C-IED efforts; and 
Research, Development, Test, and Experimentation funding and 
procurement to counter IED tactics and networks.
Overseas Basing and Theater Posture
    CENTCOM's overseas basing strategy and its associated overseas 
military construction projects at the Office of the Secretary of 
Defense-approved Forward Operating Sites and Cooperative Security 
Locations are developing the infrastructure necessary for global 
access, projection, sustainment, and protection of our combined forces 
in the AOR. Fully functional sites are essential to our ability to 
conduct the full spectrum of military operations, engage with and 
enable partner nations, and act promptly and decisively. Prepositioned 
stocks and reset equipment provide critical support to this strategy 
but require reconstitution and modernization after having been 
partially expended to support operations in Iraq and Afghanistan.
    Even with global war-on-terror budgets, military construction 
timelines are too long to respond to changes in a combat environment. 
Major events such as the approval of the Strategic Partnership 
Agreement with Iraq and the recent decision to send additional forces 
to Afghanistan show how rapidly basing requirements can change. 
Expanded Contingency Construction Authorities made available across the 
entire CENTCOM AOR can serve as partial, interim solutions because they 
push construction decisionmaking authority to our engaged commanders in 
the field. Increasing the Operations and Maintenance construction 
threshold for minor construction in support of combat operations across 
the AOR would also increase the ability of our commanders to quickly 
meet mission requirements and fully support and protect our deployed 
forces.
Adaptive Requirements, Acquisition, and Technology Processes
    The Joint Rapid Acquisition Cell (JRAC) has proven important to 
addressing non-counter-IED rapid acquisition needs for our operations, 
and we will continue to use the Joint Urgent Operational Needs (JUON) 
process to support our warfighters. However, because the JUON process 
requires execution year reprogramming by the Services, we found in the 
past that the Rapid Acquisition Fund (RAF) was a useful JRAC tool for 
supporting immediate needs. When the authority existed, the JRAC used 
the RAF to field capabilities such as radio systems used for 
Afghanistan-Pakistan cross-border communications, which were procured 
in less than 4 months from the initial identification of the need. The 
JRAC has also used RAF funding to initiate the fielding of critical 
biometrics equipment until the JUON process could further source the 
program, significantly reducing the time required to deploying the 
technology. Reinstating RAF funding and using it as a complement to the 
JUON process would allow CENTCOM to more quickly resolve warfighter 
needs. In addition to the JUON process, CENTCOM leverages Department of 
Defense programs like Joint Capability Technology Demonstrations (JCTD) 
to rapidly field capability for the warfighter. Unmanned Aerial 
Vehicles, intelligence collection and analysis tools, and limited 
collateral damage weapons are examples of recent JCTD successes.
    Additionally, DOD currently has authority to spend up to $500,000 
in Operations and Maintenance funds for procurement investment line 
items to meet the operational requirements of a Combatant Command 
engaged in contingency operations overseas. Our immediate mission 
requirements frequently call for equipment which exceeds this cost 
threshold, such as water filtration equipment, generators, information 
technology/fusion systems, and heavy lift equipment. An increase of 
this threshold and a delegation of authority down to at least the 
theater level would allow commanders to address critical equipment 
shortfalls using commercially available systems, which in many cases 
are essential for mission accomplishment.
Personnel
    Having sufficient and appropriate personnel for our commands and 
Joint Task Forces is critical to accomplishing our assigned missions 
and achieving our theater objectives. This is true at both the 
operational and strategic levels. Our headquarters require permanent, 
rather than augmentation, manpower for our enduring missions, as well 
as mechanisms for quickly generating temporary manpower for contingency 
operations. At the unit level, there continue to be shortfalls in many 
skill categories and enabling force structures that are low density and 
high demand. Intelligence specialists, counterintelligence and human 
intelligence collectors, interrogators, document exploitation 
specialists, detainee operations specialists, engineers, and military 
police are just a few of the enablers needed in greater number for 
current and future operations. As operations continue in Afghanistan, 
we also see critical need for Public Affairs and Information Operations 
personnel to improve our Strategic Communications capabilities. 
Similarly, as we draw down combat forces from Iraq, we will need 
enablers beyond the typical high-density/low-demand organizations, 
including such elements as leaders to augment advisory assistance 
brigades, counterterrorist threat finance cells, and critical logistics 
units. At the same time, I would also request that Congress recognize 
the vital importance of increasing civilian capacity, particularly in 
the Department of State and the USAID.
    Quality of life, family support, and retention programs remain 
vital to our operations in the AOR. The Rest and Recuperation program 
continues to be a success, having served more than 135,000 troopers in 
2008 and over 710,000 since its inception in September 2003. We also 
depend heavily on entitlement programs such as Combat Zone Tax Relief, 
Imminent Danger Pay, and Special Leave Accrual for deployed 
servicemembers.
                               conclusion
    There are currently over 215,000 soldiers, sailors, airmen, 
marines, and Coast Guardsmen serving in the CENTCOM region. Together 
with our many civilian partners, they have been the central element in 
the progress we have made in Iraq and several other areas, and they 
will be the key to achieving progress in Afghanistan and Pakistan and 
the other locations where serious work is being done. These wonderful 
Americans and their fellow troopers around the world constitute the 
most capable military in the history of our Nation. They have soldiered 
magnificently against tough enemies during challenging operations in 
punishing terrain and extreme weather. They and their families have 
made great sacrifices since September 11.
    Nothing means more to these great Americans than the sense that 
those back home appreciate their service and sacrifice.
    In view of that, I want to conclude by thanking the American people 
for their extraordinary support of our military men and women and their 
families--and by thanking the members of this committee for your 
unflagging support and abiding concern for our troopers and their 
families as well.

    Chairman Levin. Thank you so much, General. Thank you again 
for your tremendous leadership.
    Admiral Olson.

 STATEMENT OF ADM ERIC T. OLSON, USN, COMMANDER, UNITED STATES 
                   SPECIAL OPERATIONS COMMAND

    Admiral Olson. Good morning, Chairman Levin, Senator 
McCain, and distinguished members of the committee. Thank you 
for the invitation to appear before this committee and to 
represent the United States SOCOM. I'll focus on the roles of 
our headquarters and joint special operations forces in 
addressing the current and potential threats posed by 
extremists and their allies and networks in Afghanistan and 
Pakistan. I'm pleased to join Secretary Flournoy and General 
Petraeus here this morning.
    The situation in this region is increasingly dire. Al 
Qaeda's surviving leaders have proven adept at hiding, 
communicating, and inspiring. Operating in and from remote 
sites in both Afghanistan and Pakistan, al Qaeda remains a draw 
for local and foreign fighters who subscribe to its extremist 
ideology and criminality.
    The Taliban, although not militarily strong, is pervasive 
and brutal. Operating in the guise of both nationalists and 
keepers of the faith, but behaving in the manner of street 
gangs and mafias, they have forced and intimidated a mostly 
benign populace to bend to their will. Their methods run the 
relatively narrow range from malicious to evil.
    The President's strategy announced last week is one we 
fully support. We have contributed to the review of the past 
several months and are pleased to see that the strategy 
includes a clear focus on al Qaeda as the enemy and that a 
whole-of-government approach is directed.
    We know well that progress in Afghanistan and Pakistan will 
be neither quick nor easy. We as a Nation and the international 
community must be prepared for an extended campaign, a campaign 
that must go well beyond traditional military activities. 
Increasing the presence and capacity of civilian agencies and 
international organizations, to include sufficient funding and 
training, is essential to help develop and implement the basic 
functions of credible government in Afghanistan and to assist 
Pakistan's efforts to dismantle safe havens and displace 
extremists in its border provinces.
    Also essential is robust support to the military, law 
enforcement, border security, and intelligence organizations of 
Afghanistan and Pakistan themselves, as it is ultimately they 
who must succeed in their lands.
    United States SOCOM has a major role as a force provider 
and the Army, Navy, Air Force and Marine Corps forces it 
trains, equips, deploys, and supports have key roles and 
missions in this campaign. With a long history of 
counterterror, counterinsurgency, and unconventional warfare 
operations in many of the Earth's crisis and tension spots, the 
capabilities, culture, and ethos of Special Operations Forces 
are well suited to many of the more demanding aspects of our 
mission in Afghanistan and to our increasing interaction with 
Pakistan's military and Frontier Corps forces.
    Right now in Afghanistan, as for the last 7 years, special 
operations activities range from high-tech manhunting to 
providing veterinary services for tribal livestock. The direct 
action missions are urgent and necessary as they provide the 
time and space needed for the more indirect counterinsurgency 
operations to have their decisive effects. Undertaken in proper 
balance, these actions address immediate security threats while 
also engaging the underlying instability in the region.
    In Pakistan, we continue to work with security forces at 
the scale and pace set by them, and we are prepared to do more. 
With our Pakistani partners, Special Operations Forces are 
currently helping to train Pakistani trainers in order to 
enhance their counterinsurgency operations. While we share much 
with them, our forces are in turn learning much about our 
common adversaries and the social complexities of the region. 
We stand ready to continue to work with Pakistani forces and to 
stand by Pakistani forces for the long term.
    While certain units of the Special Operations Force are 
leading high-tech, high-end efforts to find and capture or kill 
the top terrorist and extremist targets in Afghanistan, 
fundamental to most of the deployed Special Operations Force is 
our enduring partnership with our Afghan counterparts. Under a 
program that began over 3 years ago, United States Special 
Forces at the 12-man team level have trained Afghan commandos 
in the classrooms and on the firing ranges and then moved with 
them to their assigned regions across the country. Living 
remotely with them on small camps, continuing the training and 
mentoring, and integrating with them on day and night combat 
operations has had great effect. Supporting their local 
development and assistance efforts has had perhaps even a more 
powerful impact.
    This program was recently expanded to formally partner 
United States Special Operations Forces with noncommando Afghan 
battalions, a program that will consume most of the additional 
Special Operations Force that will be deployed as part of the 
21,000 troop increase.
    The Army, Navy, Air Force, and Marine Corps component 
commands of United States SOCOM use authorities and a budget 
granted by legislation to the United States SOCOM Commander to 
organize, equip, train, and provide their forces to support 
operational commanders globally. When outside the United 
States, all Special Operations Forces are under the operational 
control of the appropriate geographic combatant commander.
    United States SOCOM's budget, which is historically 
slightly under 2 percent of the total defense budget, is 
intended to fund materials, services, equipment, research, 
training, and operations that are peculiar to the Special 
Operations Force. It primarily enables modification of service 
common equipment and procurement of specialized items for the 
conduct of missions that are specifically and appropriately 
Special Operations Force's to perform. In general, this has 
been robust enough to provide for rapid response to a broad set 
of crises. But we rely on each of the services to provide for 
our long-term sustainment in wartime environments and to 
develop and sustain the enabling capabilities, and we rely on 
operational commanders to assign these capabilities to their 
special operations task forces.
    We can serve in both supported and supporting roles at the 
operational level and special operations effects are actually 
core elements around which key parts of a strategy can be 
based.
    While more than 10,000 members of our Special Operations 
Forces are now under the command of General Petraeus in the 
CENTCOM AOR and around 100 more are working in Afghanistan 
under NATO's ISAF command structure, about 2,000 others are in 
65 countries on an average day. Their activities, fully 
approved and coordinated, cover the broad spectrum of 
traditional military activities, well beyond the stereotypical 
one-dimensional gunslinger, to encompass the three-dimensional 
warrior, adept at defense, development, and diplomacy. Special 
Operations Forces bring soft power with a hard edge.
    The employment of Special Operations Forces will actually 
not change much as a result of a revised overall strategy. Our 
units have been conducting both counterterrorism and 
counterinsurgency for several years.
    We will continue to provide our broad capabilities to our 
fullest capacity in order to meet the needs of our elected and 
appointed civilian leaders and our military operational 
commanders.
    Our strategy in Afghanistan must secure the primary urban 
areas and main routes so that life and legitimate business can 
begin a return to normalcy. But Afghanistan is not Iraq. Most 
of the population is not urban. Security must be felt in the 
hinterland, provided by Afghan forces supported by small teams 
of U.S. and NATO troops, and enhanced by civilian agencies in a 
manner that improves local life by local standards. I am 
encouraged by the prioritization of this approach in the new 
strategy.
    Inherent to our success and to the defeat of our enemies is 
the realization that this is a real fight as long as al Qaeda, 
the Taliban, and associated extremists want it to be. Civilian 
casualties are mostly the result of their tactics, not ours. 
The operational commanders I hear from are doing all they can 
to minimize the number of noncombatant deaths because they both 
abhor the reality of civilian casualties and they understand 
the negative strategic impact of such deaths. They know that as 
long as our enemies force noncombatant women, children, and 
others to support their operations or remain on targeted 
facilities after warnings have been issued, some will die. They 
also know that the conditions, numbers, and severity of the 
casualties will be highly exaggerated and quickly communicated. 
We must acknowledge the seriousness of this challenge and find 
ways to mitigate its effects, especially as we increase our 
troop presence in the coming months.
    I will conclude with a simple statement of pride in the 
Special Operations Force that I am honored to command. Created 
by a proactive Congress and nurtured by your strong support 
over the last 22 years, United States SOCOM headquarters has 
brought together units from all four Services to develop and 
sustain a truly magnificent joint capability. Special 
operations forces are contributing globally, well beyond what 
their percentage of the total force would indicate, and in 
Afghanistan and Pakistan under General Petraeus's operational 
command they are well known for their effectiveness.
    I stand ready for your questions.
    [The prepared statement of Admiral Olson follows:]
              Prepared Statement by ADM Eric T. Olson, USN
    Good morning. Chairman Levin, Senator McCain, distinguished members 
of the committee.
    Thank you for the invitation to appear before this committee to 
represent the United States Special Operations Command. I will focus on 
the roles of our headquarters and joint special operations forces in 
addressing the current and potential threats posed by extremists and 
their allies and networks in Afghanistan and Pakistan.
    The situation in this region is increasingly dire. Al Qaeda's 
surviving leaders have proven adept at hiding, communicating and 
inspiring. Operating in and from remote sites in both Afghanistan and 
Pakistan, al Qaeda remains a draw for local and foreign fighters who 
subscribe to its extremist ideology and criminality.
    The Taliban, although not militarily strong, is pervasive and 
brutal. Operating in the guise of both nationalists and keepers of the 
faith, but behaving in the manner of street gangs and mafias, they have 
forced and intimidated a mostly benign populace to bend to their will. 
Their methods run the relatively narrow range from malicious to evil.
    The President's strategy announced last week is one we fully 
support. We have contributed to the review of the past several months 
and are pleased to see that the strategy includes a clear focus on al 
Qaeda as the enemy and that a whole-of-government approach is directed.
    We know well that progress in Afghanistan and Pakistan will be 
neither quick nor easy. We, as a Nation and international community, 
must be prepared for an extended campaign--a campaign that must go well 
beyond traditional military activities. Increasing the presence and 
capacity of civilian agencies and international organizations, to 
include sufficient funding and training, are essential to help develop 
and implement the basic functions of credible government in 
Afghanistan, and to assist Pakistan's efforts to dismantle safe havens 
and displace extremists in its border provinces. Also essential is 
robust support to the military, law enforcement, border security and 
intelligence organizations of Afghanistan and Pakistan themselves--as 
it is ultimately they who must succeed in their lands.
    United States Special Operations Command and the Army, Navy, Air 
Force, Marine Corps forces it trains, equips, deploys and supports have 
key roles and missions within this campaign. With a long history of 
counterterror, counterinsurgency, and unconventional warfare operations 
in many of Earth's crisis and tension spots, the culture and ethos of 
Special Operations Forces are well suited to many of the more demanding 
aspects of our mission in Afghanistan and to our increasing interaction 
with Pakistan's military and Frontier Corps forces.
    Right now in Afghanistan, as for the last 7 years, Special 
Operations activities range from high-tech man-hunting to providing 
veterinary services for tribal livestock. The direct action missions 
are urgent and necessary, as they provide the time and space needed for 
the more indirect counterinsurgency operations to have their decisive 
effect. Undertaken in proper balance, these actions address immediate 
security threats while also engaging the underlying instability in the 
region.
    In Pakistan, we continue to work with security forces at the scale 
and pace set by them, and we are prepared to do more. With our 
Pakistani partners, Special Operations Forces are currently helping 
train Pakistani trainers in the North-West Frontier Province in order 
to enhance their counterinsurgency operations. While we share much with 
them, our forces are in turn learning much about our common adversaries 
and the social complexities of the region. We stand ready to continue 
to work with Pakistani forces, and to stand by them for the long term.
    While certain units of the Special Operations Force are leading 
high-tech, high-end efforts to find and capture or kill the top 
terrorist and extremist targets in Afghanistan, fundamental to most of 
the deployed special operations force is our enduring partnership with 
our Afghan counterparts. Under a program that began over 3 years ago, 
U.S. Special Forces, at the 12-man team level, have trained Afghan 
Commandos in the classrooms and on the firing ranges, and then moved 
with them to their assigned regions across the country. Living remotely 
with them on small camps, continuing the training and mentoring, and 
integrating with them on day and night combat operations has had great 
effect. Supporting their local development and assistance efforts has 
had perhaps even a more powerful impact. This program was recently 
expanded to formally partner U.S. Special Forces with non-Commando 
Afghan battalions--a program that will consume most of the additional 
special operations force that will be deployed as part of the 17,000 
troop increase.
    The Army, Navy, Air Force, and Marine Corps component commands of 
United States Special Operations Command (USSOCOM) use authorities and 
a budget granted by legislation to me as the USSOCOM commander to 
organize, equip, train and provide their forces to support operational 
commanders globally. When outside the United States, all Special 
Operations Forces are under the operational control of the appropriate 
Geographic Combatant Commander.
    USSOCOM's budget, which is historically slightly under 2 percent of 
the total Defense budget, is intended to fund materials, services, 
equipment, research, training, and operations that are peculiar to 
Special Operations Forces. It primarily enables modification of 
Service-common equipment and procurement of specialized items for the 
conduct of missions that are specifically and appropriately Special 
Operations Forces' missions to perform.
    In general, the SOCOM budget has been robust enough to provide for 
rapid response to a broad set of crises. We rely on each of the 
Services to provide for our long-term sustainment in wartime 
environments and to develop and sustain the enabling capabilities, and 
on operational commanders to assign it to their Special Operations Task 
Forces. We can serve in both supporting and supported roles at the 
operational level. Special operations' effects are actually core 
elements around which key parts of a strategy can be based.
    While more than 10,000 members of our Special Operation Forces are 
now under the command of General Petraeus in the Central Command area 
of responsibility and around 100 more are working in Afghanistan under 
NATO's ISAF command structure; about 2,000 others are in about 65 
countries on an average day. Their activities, fully approved and 
coordinated, cover the broad spectrum of traditional military 
activities--well beyond the stereotypical one-dimensional gunslinger to 
encompass the Three-Dimensional warrior, equally adept at defense, 
development and diplomacy. Special operations bring soft power with a 
hard edge.
    The employment of special operations forces will actually not 
change much as a result of a revised overall strategy--our units have 
been conducting both counterterrorism and counterinsurgency for several 
years. We will continue to provide our broad capabilities to our 
fullest capacity in order to meet the needs of our elected and 
appointed civilian leaders and our military operational commanders.
    Our strategy in Afghanistan must secure the primary urban areas and 
main routes so that life and legitimate business can begin a return to 
normalcy. But Afghanistan is not Iraq, and most of the population is 
not urban. Security must be felt in the hinterland, provided by Afghan 
forces supported by small teams of U.S. and NATO troops and enhanced by 
civilian agencies in a manner that improves local life by local 
standards. I am encouraged by the prioritization of this approach in 
the new strategy.
    Inherent to our success, and to the defeat of our enemies, is the 
realization that this is a real fight as long as al Qaeda, the Taliban 
and associated extremists want it to be. Civilian casualties are mostly 
a result of their tactics, not ours. The operational commanders I hear 
from are doing all they can to minimize the number of noncombatant 
deaths because they both abhor the reality of civilian casualties and 
they understand the negative strategic impact of such deaths. They also 
know that, as long as our enemies force noncombatant women, children 
and others to support their operations or remain on targeted facilities 
after warnings have been issued, some will die. They also know the 
conditions, numbers and severity of the casualties will be highly 
exaggerated and quickly communicated. We must acknowledge the 
seriousness of this challenge and find ways to mitigate its effects, 
especially as we increase our troop presence in the coming months.
    I will conclude with a simple statement of pride in the Special 
Operations Force that I am honored to command. Created by a proactive 
Congress and nurtured by your strong support over the last 22 years, 
United States Special Operations Command headquarters has brought 
together units from all four Services to develop and sustain a truly 
magnificent joint capability. Special Operations Forces are 
contributing globally well beyond what its percentage of the total 
force would indicate, and in Afghanistan and Pakistan they are well 
known for their effectiveness.
    I stand ready for your questions.

    Chairman Levin. Thank you, Admiral.
    We'll try a 6-minute round for our first round.
    First, as I indicated in my opening statement, I'm 
concerned about statements by some administration officials 
that success in Afghanistan is not possible, to use the word of 
Admiral Blair, unless we solve the challenges in western 
Pakistan. Now, there's obviously a link between the failure of 
the Pakistan Government to take on religious extremists, 
particularly those that are crossing the border into 
Afghanistan, and the situation in Afghanistan. No one denies 
that link. The problem that I have is that to make the kind of 
statement that Ambassador Holbrooke made over the weekend that 
``You can't succeed in Afghanistan if you don't solve the 
problem of western Pakistan'' puts the future of Afghanistan 
too much in the hands of events in Pakistan and decisions in 
Pakistan.
    Let me start with you perhaps, General. I'm wondering 
whether or not you would agree that you can make some progress 
in Afghanistan even though Pakistan does not succeed in 
addressing their religious extremist problem; it's much more 
difficult, but that you can make progress and the Afghans can 
make progress?
    General Petraeus. I do agree with that, Senator.
    Chairman Levin. The Afghan-Pakistan strategy did not 
include a new target end strength for the ANA. It remained at 
134,000, and that's even though Defense Minister Wardak of 
Afghanistan has recommended that the Afghan army go to 
somewhere between 200,000 and 250,000. I'm just wondering why 
we did not change that end strength goal for the Afghan army, 
Secretary Flournoy?
    Ms. Flournoy. Senator, we certainly wanted to start by 
going after the near-term goal of accelerating the growth of 
the ANSF by bringing the target dates forward to 2011. We also 
left open the notion of assessing whether we need a larger 
ANSF. We did not feel that the analysis had been done to really 
arrive at a number of what that larger force should look like. 
So we wanted to take some time to look at this with the 
commanders on the ground, with the Afghans, in greater detail. 
But the door is definitely open to the idea of a larger force 
over time.
    Chairman Levin. The long poles in the tent to get a larger 
Afghan Army faster have been identified as the following. One 
is lack of trainers. We're sending namely 4,000 additional 
trainers. That should address that problem or that challenge.
    Second is the lack of equipment, and I would think that we 
ought to make a crash effort to get some additional equipment 
to Afghanistan. Perhaps for the record, because of the time 
shortage here, you could identify, either one of you, what 
we're doing in that regard.
    [The information referred to follows:]

    We are providing equipment quickly to Afghanistan to help 
accelerate Afghan National Army growth to 134,000 soldiers by December 
2011. Multiple communications avenues keep all stakeholders engaged in 
the dynamic support of the Afghan forces. For example, the biannual top 
to bottom program management reviews hosted by general officers and 
senior executive service representatives from the Combined Security 
Transition Command-Afghanistan, the Defense Security Cooperation 
Agency, and the United States Army Security Assistance Command ensure 
all commands are inline with current Afghan fielding priorities. Also, 
Security cooperation community members meet weekly via secure video 
teleconference and unsecure teleconference. In addition, an Office of 
the Secretary of Defense-led tiger team is applying Lean-Six Sigma 
principles to the program to streamline equipment acquisition and 
delivery to the Afghan National Army. These are just a few of the 
examples of the proactive engagement all levels are applying to this 
critical arena. This has enabled us to project shipment of all critical 
rolling stock by December 2010. Other initiatives such as the transfer 
of M1151 Uparmored Highly Mobile Multipurpose Wheeled Vehicles 
displaced by U.S. forces receiving Mine Resistant Ambush Protected 
vehicles in January 2010 to the Afghans will ensure the Afghan Army has 
the right equipment to fight the insurgency.

    I believe, General, that you have indicated to me 
personally that developing the Afghan leadership among officers 
and noncommissioned officers is also a major challenge in 
accelerating the expansion of the Afghan army. Could you just 
briefly comment on that?
    General Petraeus. In fact, we had a session here this past 
Saturday, Mr. Chairman, Chairman of the Joint Chiefs Admiral 
Mullen, General McKiernan, General Craddock, the Supreme Allied 
Commander, NATO Commander, and myself, with some staff 
officers, and walked through again what are the critical paths, 
if you will, to accelerating the growth of the ANA in 
particular.
    In fact, the critical factor in General McKiernan's mind is 
the development of those leaders. We can train recruits. They 
have even now have not just the Afghan version of West Point, 
but the Afghan version of Sandhurst or Officer Candidate 
School. Even young leaders they can produce. The challenge is 
finding and developing those company commanders, battalion 
commanders, and brigade commanders, and their staffs to support 
them, and those are very challenging to find.
    Frankly, this is the same experience that we had in Iraq, 
as you'll recall, and some of this just flat takes time. I 
agree with General McKiernan very much on that, that that is 
the big limiting factor.
    Chairman Levin. Now, General Petraeus's prepared statement 
and his oral testimony here said that ``Iranian activities and 
policies constitute the major state-based threat to regional 
security.'' I don't know of too many people would disagree with 
that. I surely fully agree with that. You indicated also that 
pursuing our longstanding regional goals and improving key 
relationships within and outside the AOR helped to limit the 
impact of Iran's policies.
    Let me ask both of you whether or not, if we could work 
with Russia on missile defense against an Iranian missile 
threat, whether or not that cooperation between the United 
States and Russia could contribute to our security? Madam 
Secretary, let me start with you.
    Ms. Flournoy. Absolutely, Senator. I think this is one of 
the topics that President Obama will be engaging with his 
Russian counterpart on, actually today.
    Chairman Levin. He'll be exploring that possibility?
    Ms. Flournoy. Yes, absolutely.
    Chairman Levin. That's good.
    General, do you agree with that?
    General Petraeus. Mr. Chairman, I do think that's worth 
exploring. There are a number of areas in which, if there were 
Russian cooperation with respect to the Central Asian states 
and Afghanistan and the effort there, with respect to 
activities surrounding Iran, and even others, where Russian 
cooperation could make the situation much more doable, if you 
will, and would help enormously.
    Chairman Levin. On the economic side, the National 
Solidarity Program inside of Afghanistan has established 
community development councils in about 21,000 villages 
throughout every province. I have spoken to both of you--and I 
don't know, Admiral, if I've ever asked you about this, but 
I've spoken to both Secretary Flournoy and General Petraeus 
about the National Solidarity Program and you both have 
expressed to me your belief that it is one of the real success 
stories in the economic development inside of Afghanistan. I 
want to ask a question about that, but I don't want to misstate 
anything. Is that true, that you both feel that that is a 
success story?
    Ms. Flournoy. I do. I think it's one of the examples of the 
kind of bottom-up approach that we need to be doing more of in 
the Afghan context.
    General Petraeus. It is, Mr. Chairman.
    Chairman Levin. Then my question, General, is to you. It 
has to do with the wonderful capability that's provided to us 
with these CERP funds. I agree with you very much in terms of 
what you said about those funds, those commanders' funds that 
are basically in the authority of commanders to spend, but with 
great flexibility and speed, a lot of them being for economic 
development purposes.
    Could and should that funding be coordinated, at least, 
with these community development councils, so that they at 
least have a voice, suggestion perhaps, as to where these CERP 
funds are used for economic development, as to what would be 
the most effective use? I'm not giving them a veto. I'm not 
suggesting they control. Obviously, these are going to be 
commander-controlled. But would it be worthwhile to have an 
input from those councils?
    General Petraeus. Our experience, Mr. Chairman, has always 
been that the more that you can get locals involved in the 
decisionmaking process within reason--and there are limits, but 
within reason--that that is absolutely what we want to do. What 
of course we're trying to do is build their capacity and 
capability, and that is one way of doing that.
    We did, in fact, do that extensively over time in Iraq as 
we were able to transition from us funding programs over time 
to Iraqis funding programs.
    Chairman Levin. Thank you, and I'll now call on Senator 
McCain.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Mr. Chairman, thank you and I join you in welcoming our witnesses 
here today.
    Last week, I welcomed the President's announcement of a long 
overdue change of course in Afghanistan. The war in Afghanistan is one 
that we can win and that we must win, but for years now we have been 
fighting without a clear strategy and with insufficient resources.
    The approach outlined by the President last week has the potential 
to be the first step on the right path in what will be a difficult and 
costly effort in Afghanistan. The broad components of this new 
strategy--including an emphasis on counterinsurgency and population 
security, a significant increase in our military and civilian 
resources, and an acknowledgement that we must view the complex nature 
of the mission in Afghanistan through a regional context  appear sound.
    It is, however, only one step. The announcement of the new strategy 
must be quickly followed by the development of an integrated civil-
military campaign plan for all of Afghanistan, which does not exist 
today. I hope that we will hear from our witnesses today that the 
administration is committed to write just such a detailed campaign 
plan, and the timeframe they envision for its development. We will also 
be interested in learning how the administration intends to mobilize 
greater support from the non-military departments and agencies of the 
Federal government.
    A critical component of this new strategy is to increase the target 
end strength of the Afghan National Army and accelerate progress toward 
that goal. While the target currently remains 134,000, I believe that 
we should significantly increase our goal to approximately 250,000 and 
accelerate progress toward that goal. The deployment of approximately 
4,000 U.S. troops to train Afghan security forces is a welcome step, as 
is the commitment to ensure that every American unit in Afghanistan 
partners with an Afghan unit. The committee will want to know, however, 
if the witnesses believe this commitment is sufficient, if we will 
request additional trainers from our North Atlantic Treaty Organization 
(NATO) allies in order to ensure that every Afghan unit has a coalition 
partner unit, and whether plans and processes to provide equipment to 
the Afghan security forces are adequate. In addition, while we train 
the military, we must not do so at the expense of the police, which 
remain poorly paid and trained. There is a desperate and immediate need 
to employ more police trainers in Afghanistan.
    The members of this committee should know that the additional troop 
deployments announced by the President thus far are unlikely to be the 
last. General McKiernan, the ground commander, has already requested 
three additional brigades, or approximately 10,000 troops, that would 
deploy to Afghanistan in 2010. I believe the President should have used 
the opportunity last week to commit to the commander's request. We 
cannot fail in Afghanistan due to a lack of troops. The American people 
need to understand the scale of our required commitment. The committee 
will want to know how and when this request will be evaluated by the 
Department of Defense, as well as any plans for periodic reviews of the 
strategy as a whole, and of how well matched our troop levels are to 
the mission.
    The mission in Afghanistan is a crucial test for NATO and the 
international community. For several years, our Government has made a 
significant effort to gain greater contributions from our allies. Our 
efforts to build a shared understanding among our allies and the 
international community of what is at stake in Afghanistan have had 
only mixed success. I encourage the witnesses to speak about how the 
administration's new strategy intends to address the need to mobilize 
greater international support for our objectives in Afghanistan, 
including support to training and other non-combat areas.
    I share the President's conviction that the war in Afghanistan is 
one we can and must win. I also believe that the President and other 
political leaders must tell the American people, today and in the 
future, that the path to success will be long and arduous, that the 
violence is likely to worsen before it improves, and that this war will 
entail greater expenditures of American blood and treasure. The stakes 
are enormous, and we must do everything we can to ensure that the 
public stands firmly behind the courageous efforts of our fighting men 
and women.
    Mr. Chairman, thank you and I look forward to the testimony of our 
witnesses today.

    Senator McCain. Well, thank you, Mr. Chairman, and thank 
the witnesses. I'd like to repeat again, I believe that the 
strategy that the President and his team have developed for 
addressing the enormous challenge of Afghanistan is a good one 
and I think it has every chance of success, and I'm very 
pleased with the leadership that we have, like General Petraeus 
and General McKiernan and others.
    General Petraeus, just for a second, are you worried about 
the continuing level of violence in Diyallah Province in Iraq?
    General Petraeus. Certainly there are concerns in Diyallah 
Province and in Ninewah Province as well, Senator McCain. There 
are other concerns. Frankly, there are latent capabilities. We 
see some activity by Iran to continue to develop again proxies, 
now called Khataib Hezbollah, Asaib-al-haq, Promise Day 
Brigade. We have to keep a very close eye----
    Senator McCain. So the Iranians continue to try to meddle 
and interfere and harm our efforts in Iraq, including taking 
American lives?
    General Petraeus. They do, and there is a continued 
residual Sunni extremist element as well. Certainly al Qaeda 
worldwide if they could would try to provide additional 
reinforcements to that.
    Having said that, the level of violence is significantly 
lower, somewhere between 10 and 15 attacks per day compared 
with say 180 attacks per day back in the late spring of 2007.
    Senator McCain. Thank you.
    Secretary Flournoy, as I said, I support the strategy. I 
think it would be far, far better to announce that we will have 
the additional 10,000 dispatched. They will clearly be needed. 
It is obvious that the Afghan army would have to be around 
250,000. It's a big country. We know that that was a vital 
element to our success in Iraq, and to dribble out these 
decisions I think can create the impression of incrementalism.
    We all know what's needed. I would have made these 
announcements at the time.
    General Petraeus, we've seen now in Mumbai and now in the 
attack on the police academy a change in tactics on the part of 
al Qaeda or Taliban in this case. Instead of just walking into 
a place with a suicide vest on, they have teams of well-
trained, professional, well-armed people who go in and kill a 
hell of a lot of people before they either surrender or kill 
themselves.
    Two questions. One is, isn't that basically true in this 
change in tactics that they're employing? Is it of great 
concern, should it be of great concern to us, that the 
Taliban's reach has now extended to the police academy in 
Pakistan?
    General Petraeus. It is of big concern. It underscores the 
fact that the extremist threat inside Pakistan is indeed the 
existential threat, the most important existential threat to 
that country, we believe more than the traditional enemy of 
Pakistan, India. There appears to be a growing attraction among 
the extremist elements for Mumbai-like attacks. They saw the 
impact that that had. They saw the degree of coverage, the 
sensational aspects to that.
    There is some positive aspect to the attack in Lahore in 
that indeed the Pakistani security forces did respond and over 
time did kill or capture what appear to be a substantial number 
of those that carried out the attack on the police academy.
    Senator McCain. It took a heck of a long time as you well 
know.
    General Petraeus. It did.
    Senator McCain. Secretary Flournoy, Pakistan obviously is 
very critical. I don't think it's the determinant, but we can 
discuss that at a later time. Pakistan concluded an agreement 
with some Taliban elements in the Swat Valley that allowed for 
full adoption of sharia law. Do you believe that this 
arrangement supports our objectives in the region?
    Ms. Flournoy. I do not, sir.
    Senator McCain. Do you think that the government--and this 
is the conundrum of Pakistan--and the military are so closely 
tied to ISI that it prevents us from having the degree of 
effectiveness and cooperation from the Pakistani Government 
that we need?
    Ms. Flournoy. Sir, I think parts of ISI are certainly a 
problem to be dealt with. But I think we have a new democratic 
government and I think you have strong parts of the military 
who see the extremist threat, who want to deal with that 
extremist threat. Part of our policy challenge is to empower 
them to be more effective in doing that.
    Senator McCain. So you see progress in trying to reduce the 
cooperation that exists between the Pakistani military and the 
ISI, which has been significant and deep?
    Ms. Flournoy. Sir, I don't see adequate progress at this 
point. But I think one of the things we're trying to do with 
the strategy is provide additional incentives for that progress 
to take place.
    Senator McCain. General Petraeus, an individual who is I 
understand a young Taliban leader named Mahsoud--is that the--
--
    General Petraeus. Baitullah Mahsud, a Pakistani Taliban 
leader.
    Senator McCain. He said that he would orchestrate, or 
arrange an attack on Washington, DC. How seriously do you take 
that threat?
    General Petraeus. Well, I think any time there is any 
threat that could be against the homeland I think you have to 
take it seriously. We are doing what the intelligence circles 
call a deep dive to determine the possibility of that, if you 
will. There are some questions about capacity of that 
organization in terms of trans-national activities, but I can 
assure you--and I just talked to a senior member of the 
National Security Council staff this morning about that, and 
obviously everyone is quite riveted on analyzing that and 
seeing what further we can find out about that.
    Senator McCain. Well, we certainly wouldn't want to call it 
a global war on terror.
    I thank you. I thank the witnesses.
    Chairman Levin. Thank you very much, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks to the three of you for your service and for the 
service of all those who work under your leadership. It's 
really quite extraordinary.
    I appreciated very much the President's announcement of 
policy with regard to Afghanistan and Pakistan on Friday. I 
think particularly our effort in Afghanistan has really been 
under-resourced for too long, and the commitment of additional 
resources, both military and civilian, is very significant to 
our success there. Just as importantly, I think, was the 
President's unambiguous political commitment to defeat the 
Islamist extremists of South Asia and to relate that to our 
security.
    Secretary Flournoy, I wanted to ask you first, as the 
representative of the civilian side of the Pentagon and the 
administration, to answer a question about South Asia that was 
once asked not so long ago about Iraq, and that I suspect some 
Americans are asking now and maybe more will ask as we send 
more of our troops there, our best, and they suffer more 
casualties, which is: What is the relationship between what is 
happening in Afghanistan and Pakistan and the security of the 
American people, the security of the United States of America?
    In other words, is it necessary to succeed in Afghanistan 
for America to remain safe in the world and here at home?
    Ms. Flournoy. The short answer is yes. But I believe the 
link is that in the Afghanistan-Pakistan border region you have 
continued safe haven for al Qaeda and other extremists who we 
know are actively plotting against American interests, American 
allies, and the American homeland. So this is a matter of vital 
national interest. It is something that we must deal with 
effectively. It's going to take time. As General Petraeus said, 
it's not going to be easy. But I think part of the strategy 
review was refocusing on that objective and on the core 
interests that are at stake in this campaign.
    Senator Lieberman. General Petraeus, is it fair to say that 
we're focused clearly on al Qaeda, but that the success or 
failure of allied groups in Afghanistan and Pakistan, such as 
the Taliban and the Mehsud group and others, Haqqani, is also 
relevant to our security in the world and the stability of the 
region on which we depend?
    General Petraeus. It is, Senator. In fact, I think a good 
way to describe the extremists is a term that General McKiernan 
uses. He calls them ``the syndicate.'' It's al Qaeda and the 
syndicate of elements, plus of course the Afghan Taliban. All 
of them together represent a threat, not just in Afghanistan 
and Pakistan, but certainly a regional extremist threat, and in 
certain cases a truly global extremist threat.
    Senator Lieberman. One of my impressions on both visits to 
the region and talking to people from Afghanistan and Pakistan 
here is that there is an unsettling perception in Afghanistan 
and Pakistan that the U.S. is not in this for the long haul, 
that we are making a temporary commitment to them. 
Unfortunately this is based on some history not so long ago--
that we will leave before the job is done. No one wants to stay 
there forever, but the question is will we leave before the job 
is done.
    That perception has really counterproductive effects and a 
lot of hedging behavior in both countries, the worst being the 
excuse given--that being given as an excuse for ISI-terrorist 
linkages.
    So I want to know if you agree with that concern and 
whether you feel that we're turning it around now, most 
significantly by the announcement by President Obama last 
Friday of our new commitment?
    General Petraeus. I strongly agree with that, Senator. In 
fact, that's why I've repeatedly used the term ``sustained 
substantial commitment.'' In fact, it's important in both 
countries. There is history there. Pakistan will quote that 
history to you in the first paragraph of any conversation. 
There is a 12-year period where Pakistani officers, for 
example, did not come to the United States. There are some 
understandable reasons for this, but the fact is that there's a 
lost generation and the entire military remembers the very much 
up and down relationship that we have had over the years.
    If I could, the Kerry-Lugar bill that is I think being 
considered by the Senate represents the kind of sustained 
substantial commitment that we're talking about--I think it's 5 
years, $1.5 billion--as do some of the DOD requests that will 
be coming up with the budget.
    Senator Lieberman. Let me ask you a different kind of 
question, about the command structure in Afghanistan. In Iraq 
it seemed to me that you helped to put together and we had a 
superb command structure, with yourself as the four-star in 
strategic command in Multi-National Forces-Iraq, and then a 
three-star operational commander, previously General Odierno 
under you--now he's obviously a four-star--and General Austin 
doing an extraordinary job, both of them as three-star. I think 
that worked and I assume you agree, and continues to work.
    In Afghanistan, we have the four-star in General McKiernan, 
but no three-star operational commander. It sure looks to me 
anyway from here that underneath General McKiernan we have an 
unfortunately balkanized structure, with regional commanders 
and not the kind of line of authority that we'd like.
    I will tell you that we had some witnesses before this 
committee in the last couple of months who made clear that as 
we increase our resources in Afghanistan it would be a mistake 
not to tighten up the command structure and add a three-star 
operational commander. I wanted to ask you what you think about 
that idea and my assessment of where we are currently?
    General Petraeus. Well, the first step, frankly, to achieve 
greater unity of effort and a cleaner command structure, if you 
will, was the step that we took a few months ago to dual-hat 
General McKiernan as the commander of U.S. forces in 
Afghanistan, as well as the NATO ISAF commander. That was very 
important.
    Senator Lieberman. I agree.
    General Petraeus. We have then begun the process of 
building a pretty substantial U.S. Forces Afghanistan staff to 
support him and to take the burden off what currently is the 
Combined Joint Task Force 101, that's typically the division 
that has been in Regional Command East, which has also had a 
command line that used to go directly from CENTCOM to them 
directly to CSTC-A, directly to the Combined Joint Special 
Operations Task Force and some other elements. We have now 
cleaned that up. It all now goes through General McKiernan, 
supported by this growing U.S. Forces Afghanistan staff, which 
is also a place that we can build up the strategic 
communications, information operations task force, and a host 
of other activities that can support him in a way not quite 
like the operational headquarters certainly in operational 
terms, but in some of, if you will, the important additional 
enabler duties.
    We talked about in this past Saturday's session that the 
Chairman of the Joint Chiefs hosted here with General 
McKiernan, the Supreme Allied Commander, Europe, and myself, we 
talked about the wisdom of an operational headquarters. For the 
time being, that is not something that we're going to recommend 
or go forward with, but it's something that we'll certainly 
continue to assess as we go along.
    There are other areas as well, Senator, if I could, in 
which we need to make some additional changes. We think we need 
to achieve greater unity of effort in the special operations 
arena, and in fact Admiral Olson provided us a brigadier 
general on the U.S. side that we think over time perhaps could 
be joined together with the NATO SOF. That would also help. 
There's a thought of making CSTC-A also perhaps a NATO element, 
and there are some other measures in the counter-improvised 
explosive device (IED) world and others that we can clean this 
up and improve it over time, and we're intent on doing that.
    Senator Lieberman. I thank you very much for that answer.
    My time is up. I just want to read one sentence from your 
statement that I think we all should think about, which is: 
``Iran's actions and rhetoric have in fact prompted our 
partners in the Gulf to seek closer relationships than we have 
had with some of these nations in some decades.'' So threats 
often strengthen alliances and in that sense can help us 
strengthen our own security, and I thank you for pointing that 
out.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Sometimes in these hearings we get bogged down in a lot of 
details that are very, very significant and we need to get into 
them. But I know when I go back to Oklahoma and other places 
the first question always is: Why is it we're not as successful 
as we should be in getting NATO to come up? I notice this 
morning in the Early Bird, and I think this came out of today's 
New York Times, it makes an issue of the fact that France will 
send 150 paramilitary police officers to Afghanistan as a part 
of--and it goes on and on--and then some of these other NATO 
countries that are talking about this, as if that's a great 
contribution.
    Well, first of all, anything further that you haven't 
already stated in terms of what we might do on this side of the 
dais or what you might do to encourage more of an involvement 
of NATO over there?
    Ms. Flournoy. Senator, I would just let you know, we spent 
a lot of time in the development of the strategy consulting 
with allies to try to create a sense of ownership on their 
part. One of the things we've done is to broaden the nature of 
our requests, not only for military troops and capabilities 
where they can provide them, but to things like police 
trainers, where a number of our European allies have national 
police forces--gendarmerie, carabinieri, et cetera--who are 
actually quite good at police training. We don't have a 
national police force. That's not an area of particular 
strength for us. So we're asking them to step up on trainers 
for the army, trainers for the police, contributions to the ANA 
Trust Fund, the Law and Order Trust Fund, sending civilian 
advisers, civilian assistance, and so forth.
    So we've tried to broaden the aperture, with the 
expectation that everyone will step up in some meaningful way 
to support a comprehensive approach.
    General Petraeus. Senator, as part of the consultation 
phase of this, as the Afghanistan-Pakistan strategy review was 
launched, I went to the Munich security conference, to NATO 
headquarters, EU, addressed all the EU delegates, and also went 
to London, Brussels, and Paris and talked with each of them. 
There have been and there will be some more contributions made. 
We'll see what happens at the summit in the coming days. There 
are some that still may be forthcoming that people are reticent 
to talk about right now.
    I would stand very much with what Secretary Gates has noted 
about NATO contributions and his concerns about NATO being 
almost also a two-tier alliance in which some will fight and 
others may not. So this is a challenge for the alliance without 
question.
    Senator Inhofe. Thank you, and I agree with all that.
    Madam Secretary, I appreciate your phrase, ``create a sense 
of ownership.'' That seems to be what needs to be done.
    Each one of you--General Petraeus, you mentioned the CERP 
program, and of course Secretary Flournoy mentioned the 1206. 
Of course, I always try to get on the record on these just 
briefly the value of the International Military and Education 
Training (IMET) program, the CERP program, the Combatant 
Commanders Initiative Fund (CCIF) program, and in your case, 
Admiral Olson, the 1208 program. Do you have any comments to 
make on those programs?
    General Petraeus. With respect to CERP, again I think it's 
of enormous importance. Actually, I would support very strongly 
1206, 1207, and 1208. Again, I don't want to get ahead of a 
budget submission, and with the next one there is something out 
there that you may hear--may have heard about, we've discussed 
with the chairman and Senator McCain, called the Pakistan 
Counterinsurgency Capability Fund. This will be coming along 
with this package. It is something that we believe in CENTCOM 
is of enormous importance, to be able to target assistance that 
will help them develop the capabilities for those who are truly 
conducting counterinsurgency operations.
    Ms. Flournoy. Sir, I would just echo that. These tools are 
generally very important throughout the AOR and globally in 
many cases, but they are absolutely critical to the success of 
the strategy. If we don't back up the troops we're deploying 
with these additional authorities and funding streams, we can't 
reach our goals. They're absolutely critical to the success of 
the strategy.
    Senator Inhofe. Admiral Olson, you would agree with that 
with 1208?
    Admiral Olson. Absolutely, sir. I have more responsibility 
for 1208, but the Special Operations Forces are also customers 
of 1206, IMET, and some others. I think we can point to many 
examples of progress that was enabled by those programs.
    Senator Inhofe. Seeing Senator Ben Nelson here, I had the 
occasion to talk to some of the Nebraska Guard on what they're 
doing up on the Pakistani border. They're up there now and we 
had an opportunity to talk to them, and the value of that 
program, crop substitution and this type of thing, working with 
them. It happens the Oklahoma Guard will be going up to relieve 
them, I think in October some time. Would you make any comments 
about that program?
    General Petraeus. I can't say enough about that program. 
Actually, this is a case where the National Guard, individual 
States, have pulled together agriculture teams, and these are 
individuals of course that are serving in the National Guard, 
but either are farmers or farm experts, agriculture experts. 
They've even been doing the rotation system themselves. 
Frankly, the more of those that we could get the better at this 
stage, as we expand the areas in which our forces are 
operating, and we've conveyed that to the Chief of the National 
Guard Bureau.
    Senator Inhofe. They seem to be getting good results.
    General Petraeus. They get very good results. They have all 
the attributes of soldiers in terms of being able to secure 
themselves, communicate, move, shoot, and communicate; and yet 
they're also experts in agriculture.
    Senator Inhofe. Thank you very much. I was going to get 
into this, and there's not time, but just very briefly on the 
fact that I didn't learn until this morning that the solution 
has come from the supreme court over there in terms of Karzai's 
term ending in May and then of course the elections in August. 
But I guess that's resolved now by the supreme court, is my 
understanding, that he will remain there during this timeframe?
    Ms. Flournoy. Sir, we hope so. We've thought at many points 
that this was resolved before. But we'll hope that this interim 
arrangement will stick. Our interest is having secure, free, 
fair elections. We're not backing any one candidate.
    Senator Inhofe. I understand.
    Ms. Flournoy. We just want to make sure a peaceful and 
legitimate process moves forward.
    Senator Inhofe. My time is up, but lastly, Admiral Olson, 
you mentioned just a few minutes ago that you represented 2 
percent of the budget. I have read your background and some of 
the great heroic things that happened in Special Operations. I 
would just have to ask you, if this is the right forum to get a 
response, do you think that 2 percent is adequate?
    Admiral Olson. I obviously don't want to get ahead of the 
budget discussions that are taking place now, but I do want to 
fully credit the investment that the Services each make in 
Special Operations capability.
    Senator Inhofe. Yes.
    Admiral Olson. We depend heavily on them, and each of the 
Services carves out a portion of their budget to pile on top of 
that 2 percent that's peculiar to the Special Operations.
    Senator Inhofe. Well, you're doing great work.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Good morning. Admiral, the MRAP vehicle is not necessarily 
well adapted to the terrain in Afghanistan. What would you like 
for your special forces troops over there in developing a 
vehicle for that terrain?
    Admiral Olson. Sir, the laws of physics work against us in 
Afghanistan. Protection requires mass and mass doesn't work 
well in the bridges and the roads and the terrain of especially 
the mountainous regions of Afghanistan. So I support the full 
range of vehicle development activities that are occurring 
across the services. We are tied into all of them, I believe, 
contributing our particular needs to the development process.
    I don't know what the outcome of that will be, but 
certainly a more agile protective vehicle is something that we 
all are striving for.
    General Petraeus. Senator, if I could on that----
    Senator Bill Nelson. Please.
    General Petraeus. There is in fact a very urgent effort 
ongoing to let a contract for what's called currently I think a 
light MRAP. In the mean time, what we have done is we have sent 
the lightest of the existing MRAPs to Afghanistan. We've 
diverted some, in fact, from the flow into Iraq and from Iraq. 
Those work much better on the roads, but they defy the laws of 
physics on some of these roads, as my swim buddy pointed out.
    But there is an urgent effort in this light MRAP arena, and 
I think the contract is literally to be let within a month or 
so, was the latest that I saw on this. We appreciate--I believe 
that's something that was very strongly supported up here, 
because it was again a very significant effort.
    Senator Bill Nelson. Last week the President stated: 
``Going forward, we will not blindly stay the course. Instead, 
we will set clear metrics to measure progress and hold 
ourselves accountable.'' He was talking about Afghanistan. So, 
General, what metrics do you want to see that we will use to 
evaluate our progress?
    General Petraeus. Well, in fact there's an effort, actually 
an interagency effort that even includes the intelligence 
agencies right now, and obviously those who are out in the 
field, in the embassy and the military forces, to develop those 
kinds of metrics. There are the existing metrics, frankly, 
right now that exist, that show attacks by region, by day, by 
type, that capture a host of the kind of data points that the 
chairman mentioned during his opening statement.
    But over time we have to expand these more and more into 
the development of the--that capture the legitimacy of the 
government, the development of capability and capacity by 
Afghan authorities, and so forth.
    Senator Bill Nelson. Are those metrics--you mentioned the 
Intelligence Community (IC). Are these metrics such that we'll 
be able to discuss them in public?
    Ms. Flournoy. Sir, I think we are in the process of 
developing them to complement the sort of tactical metrics the 
commanders on the ground are using, a strategic set of metrics 
that we can use in an ongoing assessment process. We do want to 
be able to make as many of those public as possible, and we'd 
like to actually have a conversation with you, getting your 
input on what meaningful metrics would look like.
    There's a real commitment to continue to reevaluate the 
situation, evolve the strategy, build on what's working, 
correct when something's not working. So it's going to be a 
dynamic process going forward.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Madam Secretary, let me follow up on the essential question 
that Senator Nelson just asked you. He's really asking a 
fundamental question and that is: How will we assess whether 
the new strategy is working? How will we know if we're winning?
    It seems to me that prior to going forward with the 
commitment of additional troops, that the administration should 
have already established specific benchmarks that it's going to 
use to measure whether or not the new strategy is successful. 
So I want to press you further on the question that Senator 
Nelson asked you: How will you know whether or not this new 
strategy is working? It seems to me that you need a set of 
clear benchmarks, clear metrics, going in and that we should 
not be committing additional troops until we have a means of 
measuring whether or not this strategy is successful.
    Ms. Flournoy. Senator, I would just say that I think we 
have some very broad metrics on the Pakistani side looking at 
measures of their cooperation on the counterterrorism and 
counterinsurgency fight, as well as in terms of support for 
other common objectives. I think on the Afghan side there are a 
whole host--a much more developed set of inherited metrics, 
given that we've been conducting these operations for a long 
time.
    What we're trying to do is sort through those more 
carefully. Some of them are more input-related and what we're 
really trying to focus on is outcomes and actual impact. So we 
aren't starting with a blank sheet, but we are in the process 
of refining the metrics that have been being used in 
Afghanistan.
    The decision to deploy the additional forces was driven--
there was a sense of urgency by our commanders on the ground 
that, with the fighting season coming, the need to reverse 
momentum, the need to get in there and begin protecting the 
population and secure things for the elections, and not lose 
ground. There was a sense of urgency that we needed to go 
forward even as we were refining our metrics, and so forth.
    But I can promise you we will in a very short amount of 
time be able to come back and talk to you in detail about 
metrics. I just don't want to get out ahead of my interagency 
colleagues and make sure that we're all willing to back the 
same--or sing off the same sheet of music, before I come back 
and talk to you.
    Senator Collins. General, I testified this morning that it 
is in Pakistan that al Qaeda's senior leadership and other 
trans-national extremist elements are located. Similarly, 
Ambassador Holbrooke has said that western Pakistan and the 
Swat region is the chief concern, and I agree with both of 
those statements.
    To address this threat, you've testified that the United 
States will provide additional intelligence capabilities to the 
Pakistanis. However, there have been numerous reports that the 
Pakistani military officers have very close and troubling ties 
with the Taliban both in Afghanistan and Pakistan. That's some 
military officers in Pakistan and the ISI.
    Isn't there a considerable risk that if we provide 
increased intelligence capabilities to the Pakistan military 
that those capabilities will fall into the hands of the wrong 
individuals and end up actually helping the Taliban to avoid 
attacks?
    General Petraeus. Well, again, the effort in Pakistan, 
Senator, absolutely has to be one that they take forward and 
one that we do everything we can to enable to assist, and 
indeed to provide intelligence capabilities as part of all of 
that. How we do that has to be done very carefully, and we will 
have to go through a process, I think, where we literally do 
build some of the trust, because there are both troubling 
events in the past and there are troubling accusations out 
there.
    Some of these, frankly, when you dig into them are a bit 
more ambiguous than they seem to be on the surface, although 
some are not. It is difficult in some cases to sort out what is 
an intelligence agency contact that is trying to develop a 
source or on the other hand what is an intelligence agency 
contact that is warning them of an impending operation. There 
have been examples of the latter. Those are troubling. We have 
discussed those with the head of Pakistani intelligence, of the 
ISI, Lieutenant General Pasha. I have done that, the Chairman 
of the Joint Chiefs, others. Ambassador Holbrooke and I had a 
session with him together.
    The Pakistani military, again we have had these same 
conversations with them. There is going to have to be a process 
of building trust. This starts, frankly--all of this in 
Pakistan begins with them embracing the idea that the biggest 
threat to their country's very existence is the internal 
extremist threat, rather than the threat to their east. That is 
a recognition that they have stated verbally. The chairman 
quoted it in his opening statement. We have heard it privately.
    We now need to help them operationalize that, to watch 
them. Among, again, the metrics need to be measures of their 
commitment to truly go after this threat that could literally 
take down their state if it's allowed to creep out and to grow, 
and certainly to cause bigger problems regionally and 
potentially globally.
    Senator Collins. Thank you.
    Chairman Levin. Thank you, Senator Collins.
    Let me now call on a Senator who's had the foresight and 
persistence for many, many years of focusing on the importance 
of milestones and metrics, Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you. I am encouraged by the suggestion, Madam 
Secretary, that you would be willing to work with Congress in 
establishing the benchmarks that could be transparent. I 
suspect that it's true that there are some pieces of the 
mission that would require classification because of the very 
sensitive nature of the operation. But I would hope that most 
of the benchmarks could be public, transparent metrics to 
measure progress.
    I assume that they could range from measuring our 
capabilities in intelligence-gathering on the ground. It could 
be how the country is doing economically. I would hope that we 
might have a metric, which might be difficult in some respects, 
but not certainly in the contributions to the trust fund, of 
how the NATO countries are doing in terms of their response.
    I was saddened by how small the contributions were by 
comparison to what our expectations were recently, when some 
numbers were shown. I would hope that the effort that you've 
made, General, will result in perhaps the better response than 
we'd received at that time.
    In establishing the benchmarks, what it truly enables us to 
do, and the American people, is to gauge how we are doing in 
our efforts. In the past it's been somebody from one party, the 
same party, somebody saying we're willing, others saying we're 
losing, and anecdotal responses of that type are not 
particularly helpful. As a matter of fact, they're confusing to 
the American public. I think they confuse Congress as well if 
we're not able to be on the same page with the same approach. 
We may question whether it's 20 percent or 30 percent, but we 
wouldn't be questioning whether it's 0 or 100, I would hope.
    I also want to thank my friend from Oklahoma for mentioning 
the Nebraska Guard and the efforts that they're undertaking. We 
have the agribusiness development team, 52 members, stationed 
at Bagram. Probably it's not surprising that there would be 
people from Nebraska that would understand agriculture, given 
the fact that we're the Cornhusker State. But we're very 
pleased and we're very proud of this team that's there and with 
the work that they're doing, because overcoming narco-terrorism 
is critically important and probably not much better a way to 
start than directing away from the production of poppies, poppy 
crops, to legitimate agriculture that can help feed and in some 
instances clothe and perhaps even ultimately power with 
biofuels their operation, improve their economy.
    My question is: In looking at the ability of Pakistan to 
deal with the Swat, the Federally Administered Tribal Areas 
(FATA) that are under attack, I guess the basic question is: Is 
there a general willingness from the top to deal with the 
insurgents in that area?
    Ms. Flournoy. Senator, let me start, and I know that 
General Petraeus may want to weigh in on this as well. I think 
the leadership in Pakistan is not a monolith. I think there are 
some who do understand--many who understand the problem and who 
want to get after it. Pakistan has been a victim of terror and 
these extremists in many ways. Recent attacks attest to that. 
There are many who want to do the right thing.
    I think part of the equation here is reassuring them that 
they have a strategic partner, they have someone who's trying 
to reduce other threats that they're concerned about. They have 
a partner that will help them gain capability to be more 
effective when they do take on these extremists and so forth.
    So I think we need to lean forward and try to provide that 
reassurance and those capability enhancements, but then we also 
need to expect performance, and we need to measure performance 
and we need to follow up on that, to see if they are doing 
their part of this important work.
    Senator Ben Nelson. In that regard, former Ambassador and 
former National Security Adviser to the Pakistan Government, 
Mr. Durrani, told me some time ago, on at least one occasion, 
that the difficulty that they had in being able to deal with 
the largely unregulated and ungoverned area is that they didn't 
have the equipment. They had gotten money from us, but they 
didn't have the equipment to do the kind of job that they 
wanted to do.
    So, General Petraeus, I know I've communicated that to 
Admiral Mullen and I wondered if we're not going to turn over 
all of our best equipment and our trade secrets and what have 
you to somebody else, but are we in a position and have we 
begun to give them the kind of equipment that we would expect 
them to use to be successful in that area?
    General Petraeus. We have begun that, Senator. But this is 
why the Pakistan Counterinsurgency Capability Fund is so 
important. Their military operations at the end of the day come 
down to will and skill. In the will category, the will is 
growing, but the will is also helped enormously by a sense that 
we are going to be with them, because if they don't sense that 
they will cut another deal. They'll have a short-term 
perspective that says, let's get no car bombs for a few months 
and that's worth another deal, but then the deal allows the 
insurgents to expand their area of control.
    When it comes to skill or capability, there is some, 
certainly, resident. Admiral Olson's special operators are 
doing a terrific job, but in small numbers. As he noted, we are 
doing as much as they in a sense will allow us or facilitate us 
in doing. That is gradually growing and in truth it is growing 
based on trust at small units going all the way up to the level 
of the Frontier Corps and the 11th Corps out in western 
Pakistan. Again, this is where that resource provision is so 
important.
    Senator Ben Nelson. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Thank you all for your service, particularly Admiral Olson 
and General Petraeus. All those under your command have done a 
great job, and I do appreciate what the administration's trying 
to do in Afghanistan. I think you're generally on target and 
want to give you all the support I can to continue to win this 
fight.
    Admiral Olson, the likelihood of fighting going up in 
Afghanistan this summer and spring is great, is that correct? 
There'll be more fighting?
    Admiral Olson. Yes, sir.
    Senator Graham. The likelihood of foreign fighters coming 
to Afghanistan, is that going to increase also?
    Admiral Olson. There is potential for that, yes, sir.
    Senator Graham. Okay. Would you consider someone captured 
on the battlefield in Afghanistan an enemy combatant to be held 
by our forces, if we capture somebody involved in the 
insurgency?
    Admiral Olson. Sir, it depends on who that is and what he 
was doing in Afghanistan.
    Senator Graham. Well, he's over there trying to kill us.
    Admiral Olson. Yes, sir. If he's a lawful combatant and a 
declared hostile person, then certainly, yes.
    Senator Graham. General Petraeus, we have foreign fighters 
in detention now in Afghanistan, is that correct?
    General Petraeus. It is.
    Senator Graham. What are we going to do with these people?
    General Petraeus. I am not sure about that right now. I'd 
like some policy guidance here, if I may.
    Senator Graham. Madam Secretary. Is that still a work in 
progress, I take it?
    Ms. Flournoy. Yes, Senator. I think the record has been 
that many of these we have to turn over within a certain period 
of time to the Afghans. Some of those are further detained, 
some of them are prosecuted, some of them have been released.
    General Petraeus. Well, and we have also returned some to 
their home country, when you're talking about international 
fighters.
    Ms. Flournoy. I'm sorry, I thought you were talking about 
Afghans.
    General Petraeus. But the challenge is what to do about 
those who----
    Senator Graham. Who are not going to be turned over, right.
    General Petraeus. Well, or who we can't return to a foreign 
country because the country doesn't treat them humanely.
    Senator Graham. Right.
    Ms. Flournoy. With the closure or the planned closure of 
Guantanamo Bay, I think the administration's in the process of 
figuring out exactly what do we need to do with those who are 
too dangerous----
    Senator Graham. Mr. Chairman, I think that this committee 
could be helpful. We need to get ahead of this problem. There 
are some that will not be repatriated to their country. There 
are some that we're not going to turn over to the Afghan legal 
system because that would be a disaster, and we need to find 
out as a Nation what to do with these folks because I think 
they're very dangerous just to let them go.
    From the 30,000 foot level here, General Petraeus, due to 
the success in Iraq would you now consider Afghanistan the 
central front in the war on terror?
    General Petraeus. I think you'd have to take Afghanistan 
and Pakistan together.
    Senator Graham. Okay, those two together.
    General Petraeus. But as a problem set, those two together, 
yes, sir.
    Senator Graham. Would you consider that now the central 
front?
    General Petraeus. In fact, our focus is truly shifting to 
that front.
    Senator Graham. The Kerry-Lugar legislation, how empowering 
would that be to our efforts in Pakistan if Congress would pass 
that?
    General Petraeus. It will be of enormous importance, not 
just because of the tangible resources that it provides to 
Pakistan, but also because of the sense of commitment that 
stands behind it as well and the sustained nature of it.
    Senator Graham. Do you believe we should pass that as soon 
as possible?
    General Petraeus. I hate to intrude in your affairs, sir, 
but----
    Senator Graham. Well, I ask you to.
    General Petraeus. If you're asking my best professional 
military advice----
    Senator Graham. Yes, I am, I am.
    General Petraeus. Yes, that's correct.
    Senator Graham. But it would help the effort?
    General Petraeus. Absolutely.
    Senator Graham. Do you agree with that, Madam Secretary?
    Ms. Flournoy. Absolutely.
    Senator Graham. This idea of repatriating or absorbing some 
Taliban members back into the Afghan society, do you support 
that generally as a policy, General Petraeus?
    General Petraeus. I do. Again, it's one that has to be 
applied--in fact, as you recall in the Munich security speech, 
it is something that has to be applied with a very nuanced, 
thorough understanding of local situations. This is the case of 
trying to identify and separate from the population those who 
truly are irreconcilable, who have to be killed or captured or 
run off, and then allowing those who are reconcilable to rejoin 
society, if you will, and to become part of the solution 
instead of a continuing part of the problem.
    Senator Graham. In a recent poll, 42 percent of Americans 
surveyed on that particular day said it was a mistake for the 
United States to have gone into Afghanistan. What would you say 
to those Americans who believe that, General Petraeus?
    General Petraeus. Well, I think it's very important to 
remember where all of this started, and it started with al 
Qaeda, trans-national extremists who were based in Afghanistan, 
and of course who carried out the September 11 attacks.
    Senator Graham. Do you believe it's in our national 
interest not only to defeat al Qaeda in Afghanistan and 
Pakistan, but to make sure that the Taliban do not come back in 
Afghanistan?
    General Petraeus. Absolutely, Senator. The Taliban were in 
power when al Qaeda was allowed and invited in to establish the 
sanctuaries in Afghanistan from which the September 11 attacks 
were launched.
    Senator Graham. When it comes to Iran, what role are they 
playing, if any, regarding our efforts in Afghanistan? Are they 
supporting the Taliban insurgency, al Qaeda elements?
    General Petraeus. There is a very small level of support 
that has been provided over the years by Iran to the Taliban 
that we have seen. There was a period a couple of years ago 
where they provided some explosively formed projectiles and 
others. We think there's a case recently where they provided a 
small amount of arms, ammunition, and explosives as well, but 
it has not been a significant or a strategic factor in 
Afghanistan.
    They are also working to increase their influence, some of 
that understandably, in Afghanistan, to establish relationships 
with the leadership of the Afghan Government, and also of 
course locally out in Herat in the western portions of the 
country as well.
    Senator Graham. One final question. Is it fair to say, 
General Petraeus, that the American public can expect 
casualties to go up this year in Afghanistan, that there will 
be more fighting? Madam Secretary, can American taxpayers 
expect that the expense of operations in Afghanistan will 
dramatically increase in terms of dollars to be appropriated? 
To both of you, is it worth the cost of injured American 
military members, lives lost, and money spent?
    General Petraeus. Senator, I think that Vice President 
Biden had it exactly right when, after his last trip to 
Afghanistan and Pakistan, he said that this is going to get 
harder before it gets easier. That is correct. That is our 
assessment, and it is worth seeing this through to conclusion.
    Ms. Flournoy. Senator, I would say there will be higher 
human costs and higher financial costs to this effort. Those 
facts were considered very carefully before the President made 
his decision, and we're going forward with the strategy because 
we believe that it's vital to the safety and security of the 
American people.
    Chairman Levin. Thank you, Senator Graham.
    Senator Udall.
    Senator Udall. Good morning, General. Good morning, Madam 
Secretary. Good morning, Admiral.
    General, I read with real interest that David Kilcullen has 
written a book about his experiences and insights, and he draws 
a number of conclusions I think would be useful to us as we 
move forward. One comment that he makes is that we should be 
careful about lecturing Islamic countries and countries in 
other spheres about terrorism and about the dangers of it. It 
piqued my interest and curiosity.
    In that spirit, I heard you and I think Madam Secretary say 
that you believe the Pakistani Government now does really see 
the Taliban as their enemy. I also hear you say that we need to 
give them a clear sense that we will stay until the job is 
done. Furthermore, in that spirit--and I wonder what Rudyard 
Kipling would write in this era, probably much of what he wrote 
over 100 years ago--much of Pakistan's focus is to the east and 
to Kashmir. Is there any discussion about urging India and 
Pakistan to continue finding a way forward on Kashmir? Perhaps 
all three of you might comment.
    General Petraeus. If I could just start with that, Senator. 
Together with my great diplomatic wingman Ambassador Richard 
Holbrooke, this effort actually has started. I met together 
with him with the Indian national security adviser, for 
example, at Munich. We had what we thought was a very good 
talk. That was followed up when the foreign minister of India 
came to Washington recently. When Ambassador Holbrooke went out 
on his maiden trip through the area, my deputy went with him 
and they were joined by the Pacific Command deputy for a swing 
into India as well, after having been in Pakistan.
    It would be of enormous importance were the tensions to be 
reduced sufficiently between the two countries to where 
intellectually as well as physically Pakistan could focus more 
on what we again see as a much more important existential 
threat to Pakistan in the internal extremists than continuing 
to have that massive face-off against India to their east.
    One of the many tragedies of the Mumbai attacks, which of 
course were a September 11 moment not just for India, but even 
for Pakistan, I would argue, was that the Pakistani military 
once again focused on India for a period, and that continues to 
some degree. There has been again a diminution of the tension 
between the two countries over time, but it literally took 
their eye off the ball, one that they were really starting to 
focus on with the operations in the FATA and Bajaur and Mohmand 
and others developing, and even actually shifted forces. Only 
about 6,000 or so, not hugely significant in their number, but 
it was almost the intellectual shift of focus that was as 
concerning to many of us as was the physical shift.
    Senator Udall. Madam Secretary?
    Ms. Flournoy. Senator, I think you put your finger on a 
really critical matter. This is the issue, one of the issues 
that really drives a more regional approach in our strategy, 
that part of helping Pakistan to shift its attention and its 
resources and its efforts is reducing the tensions it has with 
India. If you look historically about why Pakistan helped to 
fund some of these militant groups who have now become 
extremists or terrorists in their orientation, part of it was 
to try to drive the Soviets out of their neighborhood, but part 
of it was also as a hedge against India.
    So I think to the extent we can reduce those tensions, we 
will help shift their attention and resources towards the 
really urgent threat, which is the extremist threat from 
within.
    Senator Udall. Admiral, do you care to comment?
    Admiral Olson. Sir, I think I would just agree that it's 
very important to recognize the impact of India on the 
Pakistani psyche. It's important to recognize that the 
capabilities of the Pakistani military were built to address 
the threat they felt from India. That's primarily a 
conventional army focused to the east. In order to reorient 
that army to a more counterinsurgency army focused to the west, 
any reduction of the tensions on the Indian border would be 
very helpful.
    Senator Udall. There are certainly parallels between the 
shift we've had to make and other militaries have had to make. 
The preparations we made for the Fulda Gap scenario, of course, 
we've had to now set aside and actually face the 21st century 
as it presents itself to us.
    General, you talked about the greater military-to-military 
contacts between the Pakistani and Afghani militaries. Do you 
see a similar dynamic emerging--and this would also be directed 
to the Secretary--between the civilian leadership in those two 
countries? Because of course you have to mirror those contacts 
for them to be effective overall.
    General Petraeus. In fact, as President Zardari assumed 
office there was really an unprecedented number of backs and 
forths between the heads of government and some of their 
ministers. As you may know, Senator, we hosted here in 
Washington 3 weeks ago it was, now I think perhaps 4 weeks, 
what was called the Tripartite. It was delegations from 
Afghanistan and Pakistan led by their foreign ministers, with 
other ministers present as well, and then very high level on 
this side as well with the Secretary of State in the lead.
    There will be further tripartite meetings like that, so 
that will continue to foster the growing relationships between 
those two countries. Candidly, we have to do a great deal of 
work in the intelligence arena. The relationship between the 
intelligence services of Afghanistan and Pakistan is--it would 
be an understatement to say that it is not cooperative. There 
is an enormous amount of suspicion and really outright enmity 
that's built up over the years.
    So we have a lot of work to do there. The efforts to build 
the joint coordination center at Torkum Gate at the western 
edge of the Khyber Pass are among a variety of different 
initiatives that are being taken at the military level, as well 
as again there's a military tripartite group that meets also.
    Senator Udall. Madam Secretary, I see my time's run out, 
but if you could answer shortly that would be good.
    Ms. Flournoy. I would just add, the trilaterals will 
continue. One of the most important byproducts that we've seen 
from that process is that it's encouraged a host of interim 
bilateral meetings between the Afghans and the Pakistanis and 
their various counterparts that are ongoing between the 
trilateral meetings. So I think the level of dialogue and 
constructive interaction is increasing.
    Senator Udall. Thank you.
    Chairman Levin. Thank you, Senator Udall.
    Senator Chambliss, to be followed by Senator Webb.
    Senator Chambliss. Thank you, Mr. Chairman.
    Let me thank all of our witnesses again for your great 
service, be it military or public service. We appreciate you 
very much.
    General Petraeus, there has been some comments coming out 
of the administration over the last several days with respect 
to the so-called new strategy in Afghanistan that have been a 
little bit troubling to me. The statements concern the fact 
that it's being said that we have been operating in Afghanistan 
on the cheap. Obviously, it's of concern to all of us as 
policymakers that we provide our military with whatever they 
ask for. Now, I understand you obviously were the commander in 
the Iraqi theater and you've only been at CENTCOM now for a few 
months. But are you aware of anything that has been asked for 
by either CENTCOM or by General McNeil or General Eikenberry or 
anybody else in Afghanistan that has not been given to them in 
the way of resources or commitments on the part of the Pentagon 
to that theater?
    General Petraeus. Throughout 2008, all the way out through 
2009, the requests that were made by General McKiernan that I 
supported and sent forward have all been approved. There are 
requests that are still out there and, frankly, we think it's 
prudent to do some assessments, see how this moves forward. 
There's certainly no need for decisions on that right now.
    Senator Chambliss. I understand going forward, but I'm 
talking about previous requests that may have come from former 
commanders in theater or commanders at CENTCOM that weren't 
positively addressed.
    General Petraeus. I can only talk about the period in which 
I've been in command since October 31 of last year, I'm afraid, 
Senator.
    Senator Chambliss. Okay. Secretary Flournoy, do you have 
any comment on that?
    Ms. Flournoy. Sir, I do believe that there have been some 
requests that have not been fulfilled, and the one that we 
looked at very closely in the review was the one for trainers. 
We were over I think 1,300 short for trainers for the ANA, over 
a thousand short for trainers for the police. That's one of the 
reasons why the President agreed to deploy the additional 
brigade, and that request for forces had not been fulfilled for 
quite some time. As we put greater emphasis on building the 
Afghan forces, we felt it was very important to fully resource 
that request, which had been on the books for a while.
    So I think there are some examples that we found, looking 
at it from an historical perspective.
    Senator Chambliss. Secretary Flournoy, General Petraeus 
made a statement, and I want to make sure I'm quoting you 
right, General, so if I say anything incorrect please correct 
me. But in talking about what's going on in Iraq in response to 
Senator McCain, you said that the Iranians are still aiding our 
enemies in Iraq with respect to providing munitions or whatever 
to those who are attacking American soldiers. They are still 
part of the process that's being addressed in Iraq today.
    What concerns me, Secretary Flournoy, is that we have the 
Iranians, who we know have provided munitions to our enemy in 
Iraq and who have--that enemy has sought to do harm to American 
soldiers on a daily basis, and yet beginning yesterday at The 
Hague we have invited the Iranians to sit down at the table and 
discuss Afghanistan and the way forward in Afghanistan.
    So what's puzzling to me and what concerns me is, are we 
engaging the Iranians with respect to just Afghanistan or are 
we going to talk to them about Iraq and try to move the peace 
process forward in that respect? Or is this just with relation 
to Afghanistan this discussion is taking place right now?
    Ms. Flournoy. The meeting at The Hague was really to bring 
them into the discussion of Afghanistan, because they have been 
part of the problem in Afghanistan and we believe that they 
actually have interest in Afghanistan becoming stable over time 
and we want them to change their behavior and become more a 
part of the solution by ceasing some of the more troublesome 
activities they've exhibited there.
    I do think that over time we want to make clear to Iran the 
full range of behaviors that we find problematic, that we would 
like to see change. I know that in Iraq in the mean time we've 
continued to put military pressure on them where possible to 
try to prevent them from continuing those unhelpful activities.
    Senator Chambliss. Picking up again on Senator Graham's 
question with relation to the prisoners in Afghanistan that are 
there today and ones that may be taken over the next several 
weeks or months or whatever period of time we may be there, 
General Petraeus, is it the intention now to keep those 
prisoners in Afghanistan for some indefinite period of time or 
is that part of the policy decision that is outside your realm 
that you mentioned?
    General Petraeus. That is part of the review that's 
ongoing, sir.
    Senator Chambliss. If we should pick up a high-value target 
in Afghanistan, what would happen to that high-value target? 
Where would they go?
    General Petraeus. They would go to the theater internment 
facility at Bagram.
    Senator Chambliss. Secretary Flournoy, is there any 
potential for any of those prisoners to be transferred to U.S. 
soil? Is that under contemplation?
    Ms. Flournoy. Sir, I know this is a policy that is under 
review and I am not aware of the details of where this is 
coming out, but I can get back to you on that.
    [The information referred to follows:]

    In accordance with the January 22, 2009 Executive orders, the 
Department of Defense is working with departments and agencies across 
the U.S. Government to conduct a comprehensive review of our detention 
policy. The Attorney General heads these efforts, which are currently 
ongoing, and is considering all relevant courses of action. At this 
time, no formal decisions have been made, but the Department will keep 
Congress informed of developments.

    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Secretary Flournoy, let me start by asking you a question. 
First I would say that I appreciate what the President was 
saying when he talked about focusing this strategy more 
directly toward countering insurgency and eliminating the 
presence of the Taliban. At the same time, I'm a little 
concerned with how we're going to pull this off with respect to 
cooperation of Pakistan, whether there really is a true 
incentive at the right levels in the Pakistani Government and 
military to strongly cooperate with NATO in this effort.
    I think Arnaud de Borchgrave is probably the most 
comprehensive, does the most comprehensive reporting in terms 
of the situation in Pakistan. He has a piece actually this 
morning on this, pointing out that Pakistani intelligence 
inspired and nurtured the Taliban movement with a view of 
taking over Afghanistan in the wake of the Soviet defeat in 
1989; that there are currently, according to Mr. de Borchgrave, 
Pakistani intelligence agents operating in Afghanistan to 
support the Taliban.
    How are we going to address that situation?
    Ms. Flournoy. Senator, I think it is an open question. I 
think we need to test the proposition. I think one of the 
things that is changing in the Pakistan context is the degree 
to which the threat is manifesting itself within Pakistan at a 
level that is really affecting public attitudes, that is 
affecting leadership attitudes, et cetera. So I think we need 
to test the proposition--and the way we do that is to put a 
substantial offer of assistance and a substantial commitment to 
work with them to take this on, to reduce tensions elsewhere in 
the region so they can refocus and take this on.
    I think we need to test the proposition, but I also think 
this is where the metrics become very important. We need to 
monitor their performance, their actual track record in 
implementing the necessary steps. I think that's the point 
where we are and that's what the strategy recommends going 
forward.
    Senator Webb. I would also submit that there should be ways 
to try to measure the true incentive, not simply from the 
current top leadership in Pakistan, but from other elements 
that have considerable power in Pakistan. This is a situation 
that we have been monitoring for some time at a committee level 
rather than at an operational level, but there's been 
considerable reporting that, for instance, the Pakistani 
military operating in these tribal areas has had a fairly soft 
hand when it comes to the Taliban, as opposed to al Qaeda, the 
apprehensions that they've made and the operations that they've 
conducted.
    So I think this clearly should be on our radar screen in 
terms of truly measuring the incentives and the intentions in 
Pakistan.
    How are we going to know when our national task is 
finished? I would ask Secretary Flournoy to answer that and 
then, General or Admiral, if you'd like to add. How are we 
going to know? What is the end point? Actually, I think General 
Petraeus is kind of famous for having asked this question at 
the very beginning of the Iraq war to a reporter: How are we 
going to know when this is over? How does this end?
    Ms. Flournoy. Sir, I'll give you my answer and then let the 
person who asked the question try to give his. I think that a 
key point of defining success is when both the Afghans and the 
Pakistanis have both the capability and the will to deal with 
the remaining threat themselves; that the period of 
extraordinary intervention and assistance comes to a transition 
point and we go to a more long-term, normal development 
assistance relationship with both countries.
    To me, it is when we have reduced the threat and built that 
capacity locally to the point where they can be much more self-
reliant in managing this problem.
    Senator Webb. That puts us sort of at the mercy of their 
policies.
    General, can you give me a more practical response--or 
maybe more mechanical? Basically, how are we going to know?
    General Petraeus. Well, I think again, frankly, in Iraq we 
have known when we were able to transition responsibilities to 
not just the Iraqi security forces, but to other institutions 
of the Iraqi Government. Now, Afghanistan's a very different 
country. It does not have some of the blessings certainly that 
Iraq has when it comes to oil and revenue. But nonetheless, the 
task will be for them to shoulder the responsibilities of their 
own security and other responsibilities of governance.
    Senator Webb. When is the last time that Afghanistan had an 
actual functioning national army that could clearly be said to 
be in control of operations inside its own country?
    General Petraeus. Probably more than 30 years ago, I think, 
Senator.
    Senator Webb. At least, if then.
    General Petraeus. In the 1970s, in that period, and 
certainly it was a combination of security arrangements. But I 
think that, as a student of history as well, that you would 
agree that between the period most recently, for example, of 
say 1900 and again in the 1970s, that there was in Afghanistan, 
there was a conception of a nation state and that there was the 
exercise of governance within an Afghan model that did exist. 
Of course, it's been the intervening more than 3 decades of war 
that have done so much to damage all that.
    Senator Webb. I would say perhaps a brief period more than 
30 years ago, for about 30 years, you could say that there was 
some sort of a functioning national army in Afghanistan, not 
previous to that and not since. It's a little bit different in 
terms of the challenge even that we were facing in Iraq.
    My time is up, but I would like to ask one other question 
that goes along with this. When you're talking about this 
policy of living among the people, holding areas that have been 
cleared, who do we anticipate are actually going to hold these 
areas?
    General Petraeus. Well, it will literally vary from 
location to location. The options of course are local police, 
their version of national police, the national civil order 
police can assist with that, and then the ANA, as well as now 
the Afghan public protection force, which is a pilot program 
just concluded the first iteration of this. About 240 or so 
members graduated. They'll be partnered with special forces. 
We'll learn undoubtedly some hard lessons from this effort and 
apply them as we carry out subsequent of these.
    This is not quite a Sons of Iraq. In fact, it's actually a 
more institutionalized and frankly more rigorous Sons of Iraq 
program, because it included weeks of training, specific 
equipping, and then a specific partner force. But that is how 
we would see that.
    If I could also, Senator, there is also a difference in the 
way we literally live with the people in Afghanistan. As in 
Iraq, where we plunked ourselves down, as you know and your son 
did, that is not as likely here, given the much greater rural 
population than urban population. It will be probably even more 
likely that, in coordination with tribal elders and the local 
mullahs, that we'll actually occupy on the edge of a community, 
not literally right in the center of it.
    Senator Webb. So it largely will depend on the competence 
and the willpower of the local Afghanis?
    General Petraeus. Exactly.
    Senator Webb. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    General Petraeus, I asked Secretary Gates about what kind 
of unease he had about moving this additional troop level there 
in light of his strong comment that we wanted an Afghan face on 
the situation. Would you just share with us the tension between 
greater American involvement, greater activity, and the need to 
have the Afghan army and police and government be the force 
that saves that country?
    General Petraeus. Senator, the concern there is that, 
taking into account Afghanistan's history and a people who have 
never looked kindly on those who are seen as invaders or would-
be conquerors, that the additional forces have to be seen by 
them to be there for them, to help secure them, to serve them, 
to be good guests, good neighbors, good partners. That's why I 
mentioned that piece in my statement and pointed out the 
counterinsurgency guidance that General McKiernan has published 
that gets at the heart of this as well.
    The additional forces can't be seen as coming in and taking 
over a country that has never accepted that kind of activity. 
It has to be seen as a force that is coming in to be their 
partners and to help them against a common threat.
    Senator Sessions. You're satisfied that's given enough 
attention in your plans?
    General Petraeus. I am. It is something we will need to 
continue to work on, as with civilian casualties, as with a 
number of other activities.
    Senator Sessions. We do have this shortage of trainers 
still, do we not, to reach the level of training the Afghan 
army that we'd like it to reach?
    General Petraeus. We do, and I actually made a note that I 
want to see what that will be when we project out with the 
addition of the 4th Brigade of the 82nd, the elements that will 
provide the additional trainers and advisers. I should point 
out that there really has been a shift, that General McKiernan 
has asked that all of the additional forces that are provided--
and it actually started with the marines that went into the 
Regional Command South area--that they be dual-capable or dual-
missioned, if you will; that they could partner with Afghan 
forces and provide advisory and assistance tasks in that 
regard, even as they are also conducting their own operations.
    This is a shift that we're also going to make in Iraq over 
time as we move away from combat brigades and to advisory and 
assistance brigades. That's the concept. This will be the 
biggest force that we have sent in by far that will have that 
capability, but we've already been experimenting with this with 
the initial elements of the marines, and the other marine units 
that go in will have this same kind of capability and 
preparation. Again, we'll keep learning about this as we do it.
    Senator Sessions. We learn as we go. I think the reason we 
have to learn and change is because the enemy does not desire 
to be defeated, captured, or killed, and they change. As soon 
as you confront one of their tactics, they will develop another 
one. Wouldn't you suggest that for all of us and the American 
people to understand that when tactics change it's because 
often the enemies' agenda has changed?
    General Petraeus. Absolutely, Senator. You'll recall in the 
counterinsurgency guidance that you read that we had in Iraq 
that the final bullet on there was: Learn and adapt. The enemy 
does change. This is a thinking, intelligent enemy, and we must 
adapt. Ideally, you try to get ahead of the enemy, of course, 
in what it is we're doing.
    But what works today won't necessarily work tomorrow and 
what works today in one place won't work necessarily in the 
other.
    Senator Sessions. Secretary Flournoy, I won't repeat 
questions about the Pakistan situation, but Pakistan has been a 
long-time ally of the United States. This is a very important 
nation. It has a history of democratic leadership. It waffles 
back and forth over time, but we can hope it would continue to 
maintain its democratic traditions. I just believe we need to 
be respectful of them, not lecture them, and see if we can't 
find common interests that represent their interests and to 
acknowledge some of the difficulties they may be facing 
internally on some of these issues.
    Ms. Flournoy. I couldn't agree more, Senator.
    Senator Sessions. Sometimes I hear our talking heads and 
our politicians talk about Pakistan like we can order them 
around. This is a sovereign nation and an important nation and 
I hope that we can all remember that.
    I would share that I think Senator Webb's comments about 
the difficulty of creating a fully functional government in 
Afghanistan are correct. This is a long time and they've never 
really had that to any sophisticated degree, and we don't need 
to be too optimistic in our abilities.
    Admiral Olson, the Special Operating Forces were the key to 
the fall of the Taliban originally. How many forces did we have 
in Afghanistan when the Taliban collapsed, when we partnered 
with the Northern Alliance, and how many of those were Special 
Operations Forces?
    Admiral Olson. Sir, I'll ask those who have a better 
knowledge of the total count to weigh in if they disagree. But 
I believe the total number of U.S. forces the day that the 
Taliban abandoned Kabul was on the order of 8 to 10,000. About 
2,000 of those had been provided by United States SOCOM. It was 
essentially a Special Forces group of operational detachments 
of Green Berets that was the core of that.
    Senator Sessions. Well, they did a fabulous job. 2,000 are 
not able to run the whole country of Afghanistan or help it be 
secure. But I do hope that your budget is sufficient to meet 
the needs for the future of the Special Operating Forces within 
the entire military defense establishment that we have. Are you 
comfortable you have enough there?
    Admiral Olson. Sir, again I'm not going to get ahead of the 
budget discussions in this forum quite yet. But as I said 
earlier, we are robust enough to meet the requirement to 
respond to crises, but we depend heavily on the services, on 
each of the armed services.
    Senator Sessions. Do you feel that your people are stressed 
to a level that they can't sustain now? Of course, one would 
hope there was some reduction in deployments, but what is your 
basic feeling to us today about the stress level of your 
fabulous troops?
    Admiral Olson. Sir, I think we're operating at a pace that 
we can sustain. There is unmet demand for special operations 
capability around the world, but we are settled into a 
sustainable pace at this point with the force we have.
    Senator Sessions. That's good.
    General Petraeus, I would just say thank you to your 
soldiers, sailors, airmen, marines. I know that I remember so 
vividly when President Bush had to ask them to extend their 
tour. Some of them had already reached Germany and they said 
``Yes, sir,'' and they went back and served their country. 
Things were dark in those days, and it's improved so much. I 
just think we need to thank the men and women in uniform who 
made that happen. They are the key people.
    General Petraeus. I agree, Senator.
    Chairman Levin. Thank you, Senator Sessions.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    General Petraeus or Secretary Flournoy, either one, can you 
give me an estimate of how many contracting personnel you're 
going to expect in Afghanistan?
    General Petraeus. I cannot, Senator. We can do a scrub of 
that and see what the projection is, but I cannot give that to 
you right now.
    Senator McCaskill. I think you probably understand, 
Secretary Flournoy, why I'm concerned. As we moved into Iraq, 
if somebody would have told us in the early days of that 
conflict that we were going to end up with 140,000--well, even 
worse, that we weren't really sure ever at any given time 
exactly how many contracting personnel we had engaged in the 
conflict--I want to make sure that we're not going down this 
same road without having a very clear view of what the 
contracting needs are going to be, how many people are going to 
be involved, and what it's going to cost.
    Ms. Flournoy. Senator, I can assure you Secretary Gates has 
asked the same question. He wants to understand what the 
contractor support footprint is going to look like for this 
larger force.
    I think the other thing that we're looking at is not only 
the numbers and the costs, but also the composition. Can we 
place an emphasis on indigenous contractors, so that when we do 
have to rely on contractors, we're actually contributing to the 
Afghan economy and creating job possibilities for Afghans? So 
there's at least an additional benefit there when we do have to 
rely on contractors.
    I do think that historically that has been more the case in 
Afghanistan. There has been a higher percentage of the 
contractors that we have used that have been indigenous.
    Senator McCaskill. Is there an operational plan for the new 
strategy?
    General Petraeus. There is an existing military campaign 
plan, Senator, that incorporates already these forces, because 
these requests were made and have been approved over time. So 
that strategy exists. We are obviously working very hard to 
establish the infrastructure in terms of bases, logistical 
support systems, command and control structures, 
communications, and all of the rest. That is ongoing.
    A substantial amount of that work certainly is being done 
by contractors. The creation a few years back of the Joint 
Contracting Command for Iraq and Afghanistan has improved, we 
believe very strongly, the conduct of these different contracts 
and so forth.
    I should also add that we have certainly all tried to learn 
lessons from the findings of the Special Inspector General in 
Iraq and the establishment of former General Fields as Special 
Inspector General for Afghanistan Reconstruction is a very good 
move in our view, as are the other oversight mechanisms that 
the Secretary and the President mentioned.
    Senator McCaskill. I would like to deprive him of as much 
work as possible.
    General Petraeus. So would we.
    Senator McCaskill. I would like us not to have 400 or 500 
different reports on how badly we have handled contracting in 
Afghanistan, like we do, candidly, with what happened in Iraq. 
I just want to emphasize that the time to deal with this is 
now, the time to get on this and have a very good view, because 
here's what our military does so well, better than anybody on 
the planet, and that is going after the mission. With honor, 
integrity, and leadership, we go after the mission, and 
contracting has been an afterthought, and we can't afford it.
    I don't want to cut you off, Secretary Flournoy, but I do 
want to get to one other area, and then we can come back to 
what you wanted to say. That is how we're transitioning out of 
Iraq with contracting personnel. I do have a very clear 
organizational chart now, General, about the contracting 
command in Afghanistan and Iraq. But the most recent report 
from the Government Accountability Office says that there is no 
unified structure that exists to coordinate the teams and units 
engaged in efforts to manage and execute the return of material 
and equipment from Iraq. We're talking about 170,000 pieces of 
equipment, worth $16.5 billion, and of that $3.5 billion is 
within the control of our contractors.
    I am worried that we are not paying enough attention on 
that front as we transition out of Iraq and into Afghanistan, 
and that there's not any unified effort coordinating these two 
entities as to all this equipment and material and contractors. 
Are they just disbanding? Are we drawing contracts to a close?
    We know the men and women are moving out in some kind of 
timetable for that. But we don't really know much about the 
contractors.
    General Petraeus. Well, first of all, we actually have a 
plan that is to bring down the numbers of contractors, and I 
can share that slide with you, in fact, because we've put a 
great deal of emphasis on this.
    [The information referred to follows:]

    Central Command and Multi-National Force-Iraq (MNF-I) are 
developing plans for the drawdown of forces which includes the 
reduction of contractors. In fact, since December 2008, the contractor 
footprint decreased by approximately 19,000 contractors. The current 
ratio of contractors to military in Iraq is approximately 1:1. Until 
approval of the force reduction plan, MNF-I's target is a 5 percent 
monthly reduction of contractors. This is represented by the trend line 
on the slide below. The planning guidance is to reduce the number of 
U.S. and Third Country National contractors, while increasing the 
reliance on Iraqi contractors-Local Nationals.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator McCaskill. That would be terrific.
    General Petraeus. Also, to a point that the Secretary made, 
we have had an effort ongoing for some time to give Iraqis a 
shot at the contracts. There was a period, frankly, where we 
lacked trust in our own ability to vet and so forth, so we used 
a very large number of third country nationals in addition to 
the smaller number of U.S. contractors. So the Iraqi First 
effort has gone quite well, actually, and so with the Iraqi 
transportation network and a whole host of other initiatives.
    But those numbers literally are coming down. As that does 
happen, there is a process to account for the equipment that 
contractors have that was purchased for tasks they're 
performing on our behalf or on behalf of other U.S. Government 
agencies there, to get a handle on that and then to bring that 
out with us as well or to dispose of it in some other manner 
that is legal and appropriate.
    But also, our logisticians are doing a tremendous amount of 
work, not just to build up the infrastructure and so forth for 
an effort that more than doubles what we're doing in 
Afghanistan. The surge in Iraq logistically was a miracle of 
modern military activities, but it was a surge that was only 
30,000-plus on top of what was already 133 or something 
thousand, in a country that had a great deal of infrastructure. 
In Afghanistan we're pushing over 30,000 in, more than 
doubling, in a country that does not have the infrastructure. 
So the absorption is a big challenge, and that is one reason 
that we have to space this out and we have to build this up.
    But your points are very well taken about getting a grip on 
that. In fact, the Joint Contracting Command Iraq and 
Afghanistan has helped a great deal. So also has Congress' and 
the Department's focus on increasing literally the number of 
contractors that we had in uniform. There was a period where 
the Army had no general officers in the contracting ranks 
whatsoever.
    Senator McCaskill. Right.
    General Petraeus. I think there are now going to be five, 
but I don't want to speak for the Army on that. But again, all 
of these efforts are hugely important, given the reliance on 
contractors that we have had, we think in general for good 
reasons, although there are also going to be some initiatives I 
think coming out of the Department in this area. But I don't 
want to get ahead of the Secretary on that.
    Senator McCaskill. Secretary Flournoy?
    Ms. Flournoy. I think actually General Petraeus covered a 
lot of the ground I was just going to add. But the one thing I 
will say on the issue of revising the operational plan or the 
campaign plan, if we are successful in really plussing up the 
civilian side of the effort I think the President will be 
asking the ambassador, the new ambassador and General McKiernan 
to put their staffs together, to come up with a civil-military, 
sort of whole-of-government campaign plan, and to work that 
very closely with the U.N. and with other international 
partners, to really get more synergy in our civil-military 
efforts.
    General Petraeus. If I could add to that, Senator. In fact, 
there is an existing military campaign plan, but the piece that 
very much needs to be added now is a much more robust and 
complete joint campaign plan along the lines of what Ambassador 
Crocker and I were able to do there in Iraq. That is the full 
intention. In fact, Ambassador Holbrooke has some instructions 
for that as the new team goes into the embassy in addition.
    For what it's worth, in a few weeks from now he and I are 
going to host an onsite, actually in Washington on a Saturday, 
to bring together civil and military and to talk about the 
kinds of policy guidance that is needed to help that effort 
move forward.
    Senator McCaskill. Well, in the contracting area 
particularly, we had a little bit of this always going on.
    USAID said, ``well, they aren't letting us do enough,'' and 
State said, ``well, the military took it away, and the military 
said, ``well, we have to have more CERP funds.'' Then meanwhile 
we had the Logistics Civil Augmentation Program (LOGCAP) going 
to heights that no one ever anticipated that LOGCAP would go to 
in terms of the amount of money the American taxpayer spent.
    So cautionary warning that some of us are paying very close 
attention to how we do contracting in Afghanistan to see if 
we've learned any lessons.
    Thank you all very much for your service.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Martinez.
    Senator Martinez. Mr. Chairman, thank you very much.
    Welcome, Admiral Olson, Secretary, and General Petraeus. I 
wanted to thank you for hosting me on Monday at CENTCOM.
    General Petraeus. Great to have you, sir.
    Senator Martinez. General Hood and General Allen were very 
kind and we had a very good briefing, and I appreciate that 
very much. We continue to be very proud to have CENTCOM in the 
State of Florida.
    General Petraeus. Proud to be there, Senator.
    Senator Martinez. Glad to have you, sir.
    I know that some of this has perhaps been asked, but I 
wanted to just go a little bit more into the area of fully 
resourcing the effort in Afghanistan and whether or not, in 
addition to those I guess 17 plus 4, 21,000 troops that are 
moving into the theater or have begun to move into the theater, 
the additional 10,000 I guess which have been talked about by 
General McKiernan--and I realize that those might not be 
immediately needed.
    I wanted to ask, when will we know where we are in the 
fully resourcing of that additional 10,000?
    Ms. Flournoy. Sir, the way this was presented to the 
President was sort of on a time line of when decisions would 
have to be made in order for troops to deploy to meet the 
requirement. My understanding is that the remaining brigade 
decision and the headquarters decision are for troop arrivals 
in 2010. So those decisions will have to be made some time in 
the fall.
    At the same time, because we are redoubling our effort in 
Afghanistan and we expect to be making progress throughout this 
year, we also expect the commander to be reassessing his needs 
over time, and we expect that new or different requests may be 
put on the table over time. So that's part of this commitment 
to continuing to measure progress, continuing to evaluate how 
we're doing to see that.
    But I think that the President made every decision that he 
needed to make at this point in time, and I think those other 
decisions will be made at the appropriate time when the 
commander needs to know.
    Senator Martinez. I guess what I'm trying to understand is 
the level of commitment. If the troops were needed, would they 
be sent?
    Ms. Flournoy. I think this President has demonstrated with 
not only the troops you mentioned--there are also some 
additional enablers. We've gone from a posture of about 38,000 
to now projected 68,000. I would never have used the phrase 
``incrementalism'' to describe this. This is a very strong 
commitment on the military side and on the civilian side and 
the economic side by this President to try to make this mission 
successful.
    Senator Martinez. I don't underestimate the importance of 
the civilian and economic side, which I think are tremendously 
important in this effort, as they have been in Iraq as well, 
here even more so because, as I think is very clear, we're not 
talking about a rebuilding effort in many instances. It's 
building in the first instance, which I think is very 
dramatically different.
    With regards to our NATO partners, the words of Secretary 
Gates continue to haunt me about the two-tier alliance, those 
that might fight and those that might not, and the continuing 
caveats with the NATO partners. How and when will we be 
approaching NATO? Do we continue to be committed to their 
participation in the fight, as opposed to just civilian and 
support participation?
    Ms. Flournoy. Sir, we have been in consultation with NATO 
and with many of our NATO allies bilaterally in the development 
of the strategy. I will be going, on behalf of Secretary Gates, 
to the summit along with the President on Friday and Saturday 
to really try to secure those commitments, and then following 
on in April we will have donors, further donors conferences, 
one for Pakistan, and we're hoping to schedule one for 
Afghanistan, to try to actually nail down exactly.
    But I think many of our allies have been waiting to be able 
to come to the summit with their commitment as a deliverable 
for what they've promised to do. So I expect by next week we 
should have a much better sense of who is going to step up with 
what type of contribution.
    Senator Martinez. That's great. Good luck on that, and I 
appreciate your efforts in that regard.
    General Petraeus, I was going to ask you regarding Iran. 
There seem to have been some statements as recent as the last 
day by Iran indicating some willingness to combat drug 
trafficking and developing and some reconstruction assistance 
to Afghanistan. Do you perceive that there's opportunity for 
Iran to become a more helpful partner in the Afghanistan 
effort, understanding that they share a long border and that 
the issues of drugs as well as refugees are of internal 
interest to them?
    General Petraeus. Well, there certainly are some shared 
concerns, Senator. In the beginning they did play a part in the 
process. They also do not want to see the Taliban return to 
control Afghanistan. As a Shia nation, the last thing they want 
to see is a Sunni ultra-fundamentalist group that allows 
extremists to have sanctuaries on their soil.
    So there are some very good reasons why they should want to 
see the effort in Afghanistan succeed. But there are times when 
it appears that they are conflicted in their views of 
Afghanistan because there's a sense at times that they don't 
want an enterprise that we're part of to succeed. So you have 
that dynamic.
    Of course, you also have overshadowing that some pretty 
serious differences over other issues as we look to the other 
side of the CENTCOM AOR, into some of their activities in the 
nuclear realm.
    Senator Martinez. Right, understand.
    I suppose we don't have a really clear indication. It's 
always difficult to read where they may be coming from, and I 
guess that continues to be part of the haze that we have that 
relates to Iran and their intentions.
    One last question in the moment I have left. Madam 
Secretary, China's participation. I'm intrigued as to how we're 
approaching China as perhaps of some help in the Afghanistani 
theater, their economic participation in the country, and how 
do you view the potential for that to develop over the months 
ahead?
    Ms. Flournoy. I think it's a very important development 
that we're engaging them, we're bringing them to the table. 
They have a longstanding historical relationship with Pakistan. 
They have longstanding interests in the region. I think they 
are coming to the table sort of open to exploring ways that 
they can be helpful.
    Obviously, they're going to do it in ways that try to 
safeguard their interests, but I think where we can find common 
interests we should explore that as fully as possible.
    Senator Martinez. Thank you, Mr. Chairman.
    Let me just in closing, General Petraeus, say a word of 
thanks to you and your leadership, as well as your troops for 
the tremendous success, I know fragile and I know reversible. 
But I continue to believe that it is hopefully a lasting 
success in the Iraqi situation, and you deserve great credit 
and congratulations on that. Thank you.
    Chairman Levin. Thank you, Senator.
    Senator Martinez. I guess, Admiral Olson, I shouldn't 
overlook the very great contribution of the special forces to 
this effort as well.
    Thank you.
    Chairman Levin. Thank you, Senator Martinez.
    Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    I echo those comments that the Senator just said and I 
really appreciate the work you all have done.
    It's been actually an interesting couple hours here 
listening to all the questions. The good news is most of my 
questions were answered, so you're lucky about that. But I do 
have some very specific ones, and I want to kind of rapid fire 
if I can.
    First, General, in regards to Iraq. As we start to draw 
down and turn efforts over to the Iraqi Government, are there 
any one or two things that really stand out that could become 
show-stoppers or issues that we just have to keep our eye on as 
this process starts?
    General Petraeus. Actually, there are several, Senator. The 
residual capacity that, as I mentioned, Iran does continue to 
provide support for in terms of what essentially are proxy 
extremist elements. We still see those. By the way, the Iraqi 
Government is watching that very carefully and in fact their 
security forces will go after them when they have the 
intelligence to do that. I should note that our Special 
Operations Forces have trained those individuals and still do 
provide a variety of support and assistance, although the Iraqi 
forces take the lead against the former militia and the other 
elements that used to be called the special groups.
    There are residual al Qaeda, and it's more than residual. 
It's still a force to be reckoned with. It is the al Qaeda and 
other extremist allies that continue to carry out the suicide 
attacks that we have seen periodically. Touch wood, those have 
generally been spaced out farther, but we have seen some very 
tough ones in recent weeks nonetheless. Again, Iraqi forces 
very much going after those as well, but they do require 
continued assistance in certain areas, as we discussed, 
Diyallah and Ninewah Province in particular and certain parts 
of Baghdad.
    Of big concern is the bundle of issues that is wrapped up 
in what's called the disputed boundaries issues. Some of these 
are Arab-Kurdish issues. Some are Sunni-Shia issues. They are 
potentially very dangerous and we're quite worried about the 
developments in some of these areas, although the United 
Nations element there is about to make an announcement we hope 
that will start the ball moving forward in resolving, at least 
for the near term, some of these different issues.
    Then you have a host of other issues wrapped up in 
politics. Interestingly, the constitution as it has played out 
has an enormous amount of safeguards. You actually see the 
council of representatives, their congress, executing its 
prerogatives and checks and balances on the power of the 
executive branch. You see this play back and forth, efforts by 
one to centralize, by others to hold that in check. But some of 
that can result in actual security challenges and that's 
something else that we have to keep an eye on.
    Finally, the budget pressures because of the reduction in 
the price of oil have dramatically reduced the size of the 
budget that they have available to them, the revenues available 
for them for this year. That has caused some very painful 
decisions for them. They're working their way through that. A 
related one of those is the integration of the Sons of Iraq. It 
truly is an oversight. We do believe that that money was moved 
and then came off the plate. It's back on the plate, and they 
keep finding short-term solutions to what could be a long-term 
problem if not resolved properly over time. But the vast 
majority of the Sons of Iraq are now being paid by the 
Government of Iraq, although each monthly payroll has certain 
degrees of emotion and tension connected with them.
    Senator Begich. Thank you very much.
    I have another quick one, a follow-up to Senator 
McCaskill's question regarding the contractors and the 
equipment they maintain and handle and how that gets 
transferred to you. Do you feel confident that you are 
resourced enough to handle that process? When I mean 
``resource,'' dollars supporting your staff and other 
activities to make sure that that process goes forward in a way 
that has limited missing equipment and other types of things.
    General Petraeus. I believe that we are. We have learned 
some tough lessons in this arena, and in other accountability 
arenas, frankly, over the years. We believe that we have 
implemented safeguards and properly resourced. I do believe 
that there is still progress required in terms of increasing 
our capability broadly in the field of contracting in general. 
That process has begun, and it's a little bit like training 
leaders or developing leaders for the ANSF. You just don't have 
those to pull off the bench and throw in at more senior levels.
    But the momentum has shifted in that regard and I think 
that's a positive direction.
    Senator Begich. Thank you very much.
    I'm going to shift now if I can to Afghanistan, and I'd 
like toward any one of you, but I'll start with you, General. 
I'm going to read a comment. We did some analysis, but 
according to the Field Manual 3-24, which I know you had some 
involvement in developing and authoring that, it talks about 
the density that you need to have and the ratio of 20 to 25 per 
thousand. When you look at Iraq, which again I want to echo the 
comments throughout the day here that have talked about the 
work that you have done there and the success that we have had 
there, the ratio when you look at that is 28 to 1,000 based on 
our troops, coalition, Iraqi security forces, the army. With 
all those pieces all added in, it's about 28 to 1,000.
    When you look at Afghanistan and where we are today and 
where we will be in 2011 based on the numbers, as well as again 
the same kind of analysis, apples to apples, today we're about 
7 to 1,000 and in 2011 we'll be at 9 to 1,000--dramatically--
it's half of what the manual talks about.
    So I'd be interested in your comment. This is one area of 
concern to me. I recognize that we may reevaluate in 2011, but 
in 2011 we're still at 9 to 1,000, based on all the training 
that we do for their troops and other activities.
    General Petraeus. It is a concern, Senator. For what it's 
worth, not only did I obviously oversee the production of that 
manual and actually got into some serious editing, I personally 
made the decision to put that ratio in there, because there was 
a dispute about whether it should go in and so forth. I have 
heard about it at almost every hearing that I've had since 
then. But I stand by that because I think intellectually it was 
absolutely the right thing to do in terms of integrity that we 
require that.
    Now, one area where, believe it or not, we actually have to 
get some more work by the IC is literally how large is 
Afghanistan, because there is a dispute right now as to whether 
it is 30 million or perhaps even as low as 23 or 25 million, 
and the IC is working on that. That affects, of course, the 
ratio.
    But the bottom line is your point is exactly right, that 
even at the end of the additional coalition forces, the 
accelerated development of the ANA and the other ANSF, that 
certainly according to that ratio, if you assume that there's 
an insurgency throughout the country, which is not necessarily 
the case, and that's another important factor, that you need 
more forces.
    Again, I think that's something that as the assessment goes 
forward--and I'd defer to the Under Secretary on that.
    Senator Begich. Madam Secretary?
    Ms. Flournoy. Senator, this actually, there were several 
faithful students of General Petraeus' Counterinsurgency manual 
involved in the strategy review.
    General Petraeus. She was present at the very first seminar 
we had to develop that manual.
    Ms. Flournoy. We actually had several discussions on this 
very issue, and what I will tell you is we asked the IC to give 
us their best assessment of where the sort of insurgency had 
its deepest roots, where it was really focused and concentrated 
geographically in the country. While there are pockets in the 
north and west that are important, the concentration really is 
in the south and up into the east.
    So when we were looking at the troops required on our side, 
by our allies, the Afghan troops, Afghan police, Afghan local 
security forces, the sum total of all, we were trying to 
concentrate our efforts in that sort of insurgency belt in the 
south and the west, to try to get to those kinds of ratios in 
those geographic areas where the insurgency is strongest.
    So we actually did take that into account, not so much in a 
countrywide fashion, but focused on the areas where the 
insurgency really has taken root.
    Senator Begich. Thank you.
    My time is up but let me ask you if I could if you could 
prepare or share at whatever level you can how those ratios 
look in those areas of concentration? As a former mayor, I 
always had my police department tell me what the ratio should 
be and then we had to manage based on situations throughout the 
city. So we always had a ratio. But I want to make sure that's 
the one area--and to be very frank with you, I want to make 
sure you're resourced properly here and be aggressive about it, 
so we're not kind of three-quarters of the way in.
    So let me end there. Mr. Chairman, thank you very much for 
the opportunity to ask some questions.
    [The information referred to follows:]

    Consistent with historical experience, FM 3-24, Counterinsurgency, 
calls for a force density ratio of 20-25 counterinsurgents per 1,000 
people, or 1:50. The necessary force density ratio, however, remains 
very dependent upon the situation on the ground (FM 3-24, paragraph 1-
67).
    Estimates of Afghanistan's national population vary widely, ranging 
from about 24-32 million people. There are perhaps 10-14 million people 
in the Pashtun belt where the insurgency is most concentrated.
    Current force-to-population ratios (Afghan national security forces 
(ANSF) plus International Security Assistance Force (ISAF)) in the 
Pashtun areas of Regional Command-East and Regional Command-South range 
from 1:150 to 1:110 (depending on the population estimate used).
    If all additional planned ANSF (including ongoing increases in Army 
and police) and ISAFs go to these areas, the ratios could improve to a 
range of about 1:80 to 1:60 by 2011. This is much closer to the 
historically-derived ratio of 1:50. Whether this force ratio will be 
adequate will depend on a number of factors including the quality of 
ANSF training and the degree of progress in Pakistan as well as 
Afghanistan. Monitoring the situation and making necessary adjustments 
is a top priority for the Department.

    Chairman Levin. Thank you, Senator Begich.
    We'll just have a 3- or 4-minute second round. There's only 
a few of us here, so hopefully you'll be able to get some lunch 
before your next appearance.
    First on this 10,000 troop request, is there a pending 
request that is unfilled at this point for those 10,000 
additional troops?
    General Petraeus. There is a request for forces for those 
elements, Senator. It did move through me. My understanding is 
that it has not been sent beyond the Pentagon at this time.
    Chairman Levin. I should look to you, Secretary Flournoy. 
Has that been sent by Secretary Gates? Has that request been 
made by Secretary Gates?
    Ms. Flournoy. The request was laid out along with all of 
the others on a time line, and what the President was told is 
that that request is out there, but he doesn't have to make it 
until----
    Chairman Levin. Make the decision?
    Ms. Flournoy. Make the decision, until the fall, so that 
the troops would arrive as planned in 2010. So that--I think 
the President was focused on making every request he needed to 
be made in the current timeframe, and I think he wanted to 
reassess where we are at the time the decision has to be made.
    Chairman Levin. So that decision will be made in a timely 
way so that the troops, if the President so determines, can get 
there on the time line that General McKiernan has requested 
them; is that a fair statement?
    Ms. Flournoy. Yes.
    Chairman Levin. Do you agree with that, General Petraeus?
    Ms. Flournoy. But they also may be changing.
    General Petraeus. Well, again, that's certainly our hope. 
Again, it's up to them to make the decision, so to speak.
    Chairman Levin. I said that. The President will decide 
whether or not to do it.
    General Petraeus. Right.
    Chairman Levin. If he decides in the fall to approve those 
10,000, they would then arrive in a timely fashion, according 
to a timetable which General McKiernan, more importantly I 
guess you--you're the Commander, CENTCOM--have approved?
    General Petraeus. That's correct, Senator.
    Chairman Levin. Okay. So it's not like it's rejected or 
deferred. It's just that the decision will be made in a timely 
way one way or the other, and if it's made in a positive way in 
the fall that would then respond positively to the current 
request for 10,000?
    General Petraeus. That's correct, Mr. Chairman.
    Chairman Levin. Okay. Just one, sort of a comment and a 
question on this aid for Pakistan, the money which has been or 
will be requested. I guess it's called Kerry-Lugar money. My 
own feeling is that I'm willing to support that if I think it 
will be effective. Whether it's going to be effective will 
depend on whether or not the Pakistanis have adopted the goals 
of dealing with the religious extremists in their midst and to 
do forcefully, where necessary. We have ambivalent evidence as 
to whether or not they're committed to that goal.
    So I need to, as far as this one vote is concerned, to 
believe that those goals not only are at the top, but have 
sufficiently permeated the down-below elements of the Pakistani 
Government and military so that the aid would be effective. 
Would you think that's a fair position to take? Maybe that's an 
unfair way to state it, but do you think that that is a fair 
view to take on my part?
    Ms. Flournoy. Senator, I think we're all looking for those 
indications that the intent of the assistance would be met. 
What I can tell you in this intensive dialogue and trialogue 
we've been having in the development of the strategy is that 
the Red Mosque attack, the assassination of Bhutto, the attack 
on the cricket team, the attack on the police station, these 
are really starting to have an impact on both average 
Pakistanis, but also the leadership.
    The problem is making itself very much felt. So I do think 
we are at a different moment of opportunity now.
    General Petraeus. Senator, could I just note, by the way, 
that comments similar to that were in the newspaper, I think it 
was yesterday, the comments that you made. I shared those 
with--there's a senior Pakistani officer here right now, in 
fact for a conference. In fact, the Under Secretary addressed 
all the Central and South Asian chiefs of defense staff and 
other senior officers. I will also share those with the 
Pakistani ambassador, who I'm meeting tomorrow night.
    Chairman Levin. Now, finally, it's a different aspect of 
the same problem. We cannot appear to be buying support for our 
policies. It has to be that we are supporting Pakistan 
policies, because if we appear to be buying something they 
otherwise would not pursue it is counterproductive in terms of 
the reaction of the Pakistan people, who want to believe that 
we're supporting their goals, not that we're buying something 
they otherwise wouldn't do, because that is a domineering kind 
of a position to take if we're buying something.
    Money can be used for two different purposes. One, you go 
to the store and you buy something; or you can use money to 
support something, like something you believe in, like your 
family's goals. It's a subtle difference in a way because it's 
still money, but it's a critical difference. It may be too 
nuanced for public consumption, I don't know. But it's a 
critically important difference, I believe.
    How then, if there is a difference, if you accept that 
difference, could we make it clear that it is our goal to 
support a Pakistan Government which has the goals of a stable 
Pakistan without religious extremists dominating or controlling 
things, without the down side possibility that it would look 
like we're trying to persuade them to do something they 
otherwise wouldn't do?
    If you can follow that distinction, how would we pursue it?
    General Petraeus. Mr. Chairman, in fact in all of the 
recent studies there has been a recognition of the importance 
of moving from what we have termed a transactional relationship 
with Pakistan to a partnership. I think that captures exactly 
what you are getting at.
    But as you also rightly note, there is nothing easy about 
this. This is about relationships. It's about building of trust 
and confidence. It's about their recognition of the existential 
threat, that it's a threat to them, not just a threat to us and 
the rest of the world, and all the rest of that.
    Admiral Olson. Senator Levin, I think a point worth making 
is that as we strive for an increased and enhanced 
relationship, partnership with Pakistan, that we do recognize 
the sacrifices and contributions that they've made to date. 
They have been a strong ally and I think the forces that I 
provide feel that because they have been working one on one at 
a unit level in a training relationship with Pakistani forces, 
who have captured thousands, killed hundreds, and lost numerous 
lives in the border region, and they've fought--there was a 
serious fight in Bajaur before a successful outcome there, and 
there was a serious fight in Swat before an unsuccessful 
outcome there that they still hope to reverse.
    So at the unit level and where I've been able to visit the 
Americans and the Pakistanis working together in a training 
relationship, there is a solid statement of partnership. I know 
we're looking for a much more overt demonstration of commitment 
by the Pakistani Government, but I would like to be on record 
as saying that the soldiers themselves, many of them have 
fought hard in the western regions of Pakistan.
    General Petraeus. I would echo that, Mr. Chairman.
    Chairman Levin. Thank you.
    Senator Lieberman.
    Senator Lieberman. Thanks very much, Mr. Chairman.
    Thanks to all of you. I want to make two quick statements 
and ask one question. The first statement is to thank you for 
the exchange that you had with Senator Levin about that pending 
request for 10,000 additional troops and the answer that the 
door is essentially open and a decision has not been made at 
the highest levels of our Government.
    I say that for the obvious reason, one of the lessons we 
learned painfully in Iraq is that numbers matter. It's not 
numbers alone of troops. As you always remind us, General 
Petraeus, it's how they're used; and also that military 
strength is a necessary but not sufficient basis for achieving 
our objectives.
    But the lesson that I think should be with all of us from 
the time, the resources, the lives that were lost over a period 
of time when we inadequately resourced that war is that 
sometimes those short-range decisions really cost you in the 
long run. I appreciate the fact that the request is pending and 
that the administration has not made a decision on it and is 
open to it this fall.
    Second, it may sound a little odd, but I want to say a word 
on behalf of the Afghan people. There were some questions 
raised that I think you've answered well, General Petraeus. 
This is a remarkable people, with a remarkable history. I'm not 
closing my eyes to any of the problems we have now, but they 
have survived a lot in their history. They have a real sense of 
nationhood. One might argue in fact that, though there are 
Pashtuns and Tajiks there, that the divisions between them are 
actually much less than we found in Iraq between the Shias and 
the Sunnis and the Kurds. The comparisons are not exact.
    As we know and as you know greater than I--two things. One 
is their fighters are really committed, most of them. They've 
now held an election and the people have showed in great 
numbers that they want a better future. Some of the people--a 
lot of the people at the top of that government are really 
quite impressive.
    They seem quite supportive, comparatively speaking, of our 
presence there and what we're trying to do for them.
    So I understand all the problems, but I think not only do 
we have a security interest in how this comes out, ends in 
Afghanistan; the people want it to end well. Why wouldn't they? 
Look at, every time there's a poll there the Taliban comes out 
about at the bottom, lower even than numbers Congress had a 
short while ago. That's how bad the Taliban is doing in 
Afghanistan.
    Okay, now to my question----
    Chairman Levin. Your time is up. [Laughter.]
    Senator Lieberman. My question is this. I thought the 
President spoke very eloquently on Friday about the fact that 
there hadn't been adequate civil-military cooperation, 
partnership, in Afghanistan, about the need to make that 
happen. So I wanted to--and of course, we know during a period 
of time, particularly when Ambassador Khalilzad and General 
Barno was there, it certainly seemed like their offices were 
together. They were working together. The model that you built 
in Iraq with Ambassador Crocker.
    So what are we doing to try to create that here? I know 
some people laugh at plans, but is there a coordinated civil-
military plan being written for the war in Afghanistan?
    Ms. Flournoy. I would just say we're working it at multiple 
levels. At the sort of operational level, if you will, or the 
strategic operational level, General Petraeus and Ambassador 
Holbrooke are leading the effort that he mentioned. We will be 
tasking our current commander and the new ambassador to put 
together a campaign plan that's truly joint at their level.
    But even more important or as important, we are engaged in 
discussions with Kai Eide, the U.N. representative, and our 
allies to try to ensure that we have an overarching sense of 
priorities and what we're doing, but that we've really 
encouraged Mr. Eide to move the U.N. presence into a provincial 
presence, so that province by province we have a much more 
coordinated effort on the part of the international community 
working hand in hand with the ISAF forces.
    So it's complicated, but we're trying to work the problem 
at multiple levels that are interconnected.
    I don't know if you want to add.
    Senator Lieberman. General?
    General Petraeus. Well, in fact there was direction already 
given to Karl Eikenberry, General Eikenberry right now, who I 
think was reported out of committee yesterday. There is every 
intention to do just that. In fact, even the new DCM who goes 
in may start that process with General McKiernan. It was a 
topic that we talked about on Saturday as well.
    Senator Lieberman. Excellent, very encouraging. Thank you 
all. I will tell you that the three of you, the testimony has 
been really excellent, and really the three of you operate at 
such a high level that it should give all of us confidence.
    Admiral Olson, you were asked a few less questions, 
probably inherent in the nature of your covert special 
operations. You stayed relatively covert this morning. But I 
appreciated your opening statement. You said really quite 
directly that the enemy--the behavior of the enemy we're facing 
in Afghanistan ranges from malicious to evil, and it's because 
I agree with you that I'm so grateful that we have three people 
of your caliber leading the effort.
    Thank you, Mr. Chairman.
    Chairman Levin. I think you've heard here this morning a 
great deal of support for the President's direction and 
strategy. It's cohesive, it's strong, it's clear. Its goals are 
important goals. I hope you're all reassured by what you've 
heard from this side, but we're reassured from what we heard 
from you. Your testimony was very, very helpful. It was 
important for the American people that the kind of questions 
which were asked be asked. You gave answers which I consider to 
be highly reassuring, and we will now stand adjourned with our 
thanks.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Robert C. Byrd
                         afghanistan strategies
    1. Senator Byrd. Secretary Flournoy, in your testimony, you state, 
``our strategic goal is very clear: to disrupt, dismantle, and defeat 
al Qaeda and its extremist allies. To do so, we must eliminate their 
safe haven in Pakistan and prevent their re-emergence in Afghanistan.'' 
This statement is clear on the ``what'' that needs to be done, but very 
weak on the ``how'' of accomplishing this goal. This and other goals 
also seem to be predicated on very tenuous political, diplomatic, and 
economic strategies. Does the administration intend to develop tactics 
to achieve these strategies that are as rigorous and as urgent as those 
developed to achieve military goals?
    Secretary Flournoy. Yes, our new strategy for Afghanistan and 
Pakistan recognizes the need to increase dramatically our civilian 
efforts in Afghanistan and facilitate efforts in Pakistan. As our 
strategy stated:
          ``By increasing civilian capacity we will strengthen the 
        relationship between the Afghan people and their government. A 
        dramatic increase in Afghan civilian expertise is needed to 
        facilitate the development of systems and institutions 
        particularly at the provincial and local levels, provide basic 
        infrastructure, and create economic alternatives to the 
        insurgency at all levels of Afghan society, particularly in 
        agriculture. The United States should play an important part in 
        providing that expertise, but responding effectively to 
        Afghanistan's needs will require that allies, partners, the 
        U.N. and other international organizations, and nongovernmental 
        organizations significantly increase their involvement in 
        Afghanistan.''

    Although the Department of Defense (DOD) is not the lead for these 
efforts, we strongly support the Department of State, U.S. Agency for 
International Development (USAID), and other U.S. departments and 
agencies in their political, diplomatic, and economic development 
programs within our means and capabilities.
    Currently, the administration is examining options to increase the 
number of civilians in Afghanistan, as part of our whole-of-government 
approach to stabilizing and securing Afghanistan. The DOD will 
coordinate closely with other U.S. departments and agencies to support 
these efforts.

                          pakistan strategies
    2. Senator Byrd. Secretary Flournoy, the United States cannot 
currently commit U.S. forces in Afghanistan to attack ``al Qaeda and 
its extremist allies'' in their safe havens in Pakistan, where they 
plan terrorist attacks and support operations that undermine the 
stability of both countries. What is the likelihood of being able to 
negotiate access or to get Pakistan to address this threat?
    Secretary Flournoy. Pakistan is a sovereign nation that already is 
committing more than 100,000 military and paramilitary forces to its 
western border regions where they are conducting operations against al 
Qaeda and its extremist allies. We are working closely with the 
Government of Pakistan to enhance the capability of its security forces 
in counterinsurgency and counterterrorism operations. The U.S. 
Government is engaging with the Government of Pakistan at the highest 
levels regarding the existential threat that extremist and insurgent 
networks pose to Pakistan. Many of Pakistan's leaders recognize this 
threat, but addressing it effectively will require greater Pakistani 
will and capability, as well as support from the U.S. and international 
partners.

    3. Senator Byrd. Secretary Flournoy, what is the status of 
negotiations?
    Secretary Flournoy. The United States is working closely with the 
Government of Pakistan to assist it to combat extremists in its 
territory. These efforts include train-and-equip programs with the 
Pakistani military to enhance its capacity to conduct counterinsurgency 
and counterterrorism operations.

    4. Senator Byrd. Secretary Flournoy, do Pakistani Government and 
security forces view the presence of al Qaeda and the Taliban as a 
serious threat to their national security?
    Secretary Flournoy. Pakistan's efforts and sacrifices to engage 
extremist groups--including more than 3,000 security forces killed or 
wounded in action since 2001--demonstrate a willingness to engage 
extremist groups that pose a threat to Pakistan. Nevertheless, the 
Pakistan military continues to view India as its most significant 
enemy. The United States is engaging with the Government of Pakistan to 
convey our sense of the dire threat Pakistan faces, and is working with 
Pakistan's security forces to strengthen their ability to face that 
threat.

    5. Senator Byrd. Secretary Flournoy, according to your testimony, 
``Pakistan's ability to dismantle the safe havens on its territory and 
defeat the terror and insurgent networks within its borders is critical 
to its own security and stability. Pakistan faces a severe socio-
economic crisis that enables these extremist groups to flourish and 
pose a great threat to this nuclear armed state.'' Describe your 
concerns regarding how the political situation in Pakistan might affect 
their view of the threat and their willingness to take effective action 
against it.
    Secretary Flournoy. The United States is committed to empowering 
civilian leaders in Pakistan to take effective action against extremist 
groups; however, political infighting and instability within Pakistan 
are distractions. Strong civilian leadership is needed to address the 
threat posed by militant groups and to support the military in taking 
decisive action. The United States is very concerned about recent peace 
agreements between the Government of Pakistan and militant groups in 
Swat and elsewhere, which are a by-product of political weakness.

    6. Senator Byrd. Secretary Flournoy, you state that initiatives 
pursued in the context of a long-term strategic partnership with 
Pakistan should be limited if we do not see improvements in Pakistani 
performance. If the United States limits those initiatives, however, 
what is the impact to efforts to disrupt, dismantle, and defeat al 
Qaeda and its extremist allies and avoid the further radicalizing of a 
nuclear-armed Pakistan?
    Secretary Flournoy. It is critical that U.S. assistance to Pakistan 
be tied to measures of effectiveness, particularly with regard to 
transparency and accountability; however, these measures should be 
based on the President's strategy for the region, rather than on 
legislation. U.S. provision of additional assistance will require 
improved Pakistani performance in transparency and accountability. At 
the same time, the United States needs to move away from its past 
transactional relationship with Pakistan. We need to develop a 
relationship that is based on more than counterterrorism and instead 
focuses on the people of Pakistan by providing economic, developmental, 
and educational support. Pakistan's growing confidence in the long-term 
support of the United States is vital to providing an alternative to 
extremists and defeating extremist groups.

            afghan national army and afghan national policy
    7. Senator Byrd. Secretary Flournoy, efforts by the United States 
and its allies to build Afghanistan's economy dramatically lag behind 
efforts to train and field soldiers and police. Further, many European 
nations that have pledged contributions to donor funds have not 
satisfied those pledges. What, if anything, is being planned that has 
the potential of creating an economy in Afghanistan that is capable of 
sustaining the military, police, and civilian bureaucracies?
    Secretary Flournoy. The United States is pursuing numerous 
initiatives to increase economic growth in Afghanistan within the 
framework of the Afghanistan National Development Strategy (ANDS). The 
ANDS was approved by the Afghan Government in June 2008. It lays out a 
long-term vision for the country and specific goals along key lines of 
operation (Security; Governance, Rule of Law and Human Rights; and 
Economic and Social Development). With time and continued focus and 
effort on the part of the United States, the international community, 
and the Government of Afghanistan, the Afghan economy should reach the 
point where it can provide the domestic revenue to support the Afghan 
Government, including the security forces. In the meantime, it will be 
necessary for the United States and our international partners to 
continue our support to Afghanistan.

    8. Senator Byrd. Secretary Flournoy, is there a unified 
international plan to accomplish this goal?
    Secretary Flournoy. Yes, the United States and the international 
community pursue their economic reconstruction initiatives in 
Afghanistan under the framework provided in the ANDS.

                   north atlantic treaty organization
    9. Senator Byrd. Secretary Flournoy, do the North Atlantic Treaty 
Organization (NATO) and the United Nations (U.N.) share the same view 
and the same goals in the region?
    Secretary Flournoy. We work in full partnership with NATO and the 
United Nations as well as regional stakeholders in both organizations. 
These partnerships are critical for success. It is important to 
distinguish the role of the U.N. in coordinating international civilian 
activities from NATO's military role. It is also important to highlight 
the need to improve collaboration between U.N. civilian and military 
efforts and NATO's efforts. Securing such collaboration among NATO's 
International Security Assistance Force (ISAF), the U.N. Assistance 
Mission in Afghanistan, and the Afghan Government in order to implement 
an ``integrated approach,'' will improve the focus of collective 
efforts and also strengthen synchronized civilian and military efforts 
in the country.

    10. Senator Byrd. Secretary Flournoy, how do their views differ 
from those of the United States?
    Secretary Flournoy. As the NATO declaration at the April 2009 
Summit attests, our Allies largely share our views and objectives with 
respect to Afghanistan. However, the United States and its Allies take 
on different roles and missions within the larger effort to achieve 
those shared objectives. Like the United States, many of our allies and 
partners (including the United Kingdom, Canada, the Netherlands, and 
Australia) have demonstrated their willingness and ability to take on 
combat missions. Other Allies and partners emphasize peacekeeping and 
humanitarian operations, and still others have focused resources on 
building Afghan capacity in the security sector and civilian 
government. The United States and its allies and partners agree that 
each of these areas is a necessary part of a comprehensive civilian-
military strategy.

                               benchmarks
    11. Senator Byrd. Secretary Flournoy, as noted by the President in 
his speech on this matter, metrics or benchmarks are necessary to 
assess performance of efforts. After more than 7 years of committing 
``blood and treasure'' in this region, U.S. taxpayers deserve to know 
what progress is being made in return for their investment. When can 
Congress expect to receive a set of performance metrics from the 
administration?
    Secretary Flournoy. The administration is working to define 
measures of effectiveness to monitor progress towards achieving the 
objectives of the U.S. strategy in Afghanistan. The administration will 
work with Congress to ensure that our measures of effectiveness are a 
useful tool for gauging our progress over time, and enable us to 
identify areas where policy and resource adjustments may be needed.

    12. Senator Byrd. Secretary Flournoy, will Congress receive regular 
reports on progress being made in achieving these metrics?
    Secretary Flournoy. Yes, the Department provides Congress a report 
on progress in Afghanistan on a semiannual basis titled: Progress 
toward Security and Stability in Afghanistan. Once defined, the 
measures of effectiveness will be an integral part of this report.

                       special operations forces
    13. Senator Byrd. Admiral Olson, you state that ``. . . the 
situation in this region is increasingly dire. Al Qaeda's surviving 
leaders have proven adept at hiding, communicating, and inspiring. The 
Taliban, although not militarily strong, is pervasive and brutal.'' To 
what extent is Special Operations Command (SOCOM) limited in 
accomplishing the strategic goal of disrupting, dismantling, and 
defeating al Qaeda and its extremist allies in the Swat Valley and 
Baluchistan in Pakistan as a result of the inability to commit special 
operations forces in this area?
    Admiral Olson. [Deleted.]

    14. Senator Byrd. Admiral Olson, part of your mission in 
Afghanistan involves increasing interaction with Pakistan's military 
and Frontier Corps forces. What is the nature of that mission?
    Admiral Olson. Our enemy is an enemy that knows no boundaries, 
borders, and conducts operations in both Afghanistan and Pakistan. In 
Pakistan, U.S. Special Operations Forces (SOF) conducts a variety of 
Foreign Internal Defense, Joint Combined Exchange Training events and 
counternarcotics training with Pakistan MIL and Pakistan SOF in support 
of counterinsurgency operations.
    U.S. SOF support is a component of the U.S./Pakistan Security 
Development Plan (SDP). SDP is a combined U.S. DOD/Pakistan MoD 
security plan coordinated with U.S. Government interagency efforts and 
programmed over 5 years. Its main effort is to enhance and expand the 
FC, Pakistan Army, and Special Service Group capabilities. U.S. SOF is 
the lead U.S. force in this effort.
    U.S. SOF overall efforts in Pakistan, especially those training 
opportunities with the FC, directly impact and support U.S./ISAF 
objectives in Afghanistan.

    15. Senator Byrd. Admiral Olson, please provide some examples of 
successes.
    Admiral Olson. [Deleted.]
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                              new strategy
    16. Senator Graham. Secretary Flournoy, the President announced, 
and you testified, that this new strategy is designed to defeat al 
Qaeda in Pakistan and Iraq. Given that definition, how does this 
strategy fit into the global strategy to defeat al Qaeda and who 
specifically is the lead for the global strategy to defeat al Qaeda?
    Secretary Flournoy. Due to our efforts in Afghanistan, al Qaeda 
senior leaders have moved their safe havens into the tribal areas of 
Pakistan. The new strategy for the region emphasizes a single theater 
construct for Afghanistan and Pakistan.
    In Afghanistan, our counterinsurgency campaign emphasizes 
protecting the population while developing the Afghan National Security 
forces and building Afghan governance and economic capacity. These 
efforts, in full partnership with the Afghans and our coalition 
partners, are designed to defeat the insurgency and to ensure al Qaeda 
leadership cannot re-establish a safe haven in that country.
    In Pakistan, we must assist the Pakistani Government and security 
forces in dealing with the existential threat from al Qaeda and the 
insurgents they support or inspire. Strengthening Pakistani will and 
capability are central parts of our diplomacy and military assistance. 
The Pakistani Counterinsurgency Capabilities Fund and initiatives such 
as the Kerry-Lugar legislation are designed to enable the Pakistanis to 
defeat al Qaeda in the tribal areas.
    Within DOD, U.S. SOCOM has been designated as the military 
supported command to plan and synchronize operations to implement the 
global strategy to defeat al Qaeda, and the geographic combatant 
commands execute the strategy within their respective areas of 
responsibility.
    At the interagency level, the National Counterterrorism Center 
(NCTC) is responsible for conducting strategic operational planning. 
The NCTC has developed the National Implementation Plan to combat 
terrorism, including plans to defeat al Qaeda.

                           civilian resources
    17. Senator Graham. Secretary Flournoy, you have been quoted in the 
press saying that the new Defense budget will include ``a substantial 
request for resources on the civilian side'' of the Federal Government. 
Can you elaborate on how you will resource Rule of Law efforts and to 
what extent that will be part of the civilian resources?
    Secretary Flournoy. Assisting foreign governments with 
establishing, re-establishing, or strengthening the Rule of Law in 
their sovereign territory is often a key component of U.S. Government 
stability operations. It is DOD policy, however, that this component of 
stability operations is best implemented by other Departments and 
Agencies with core competencies and expertise in Rule of Law concepts 
and issues. As a result, DOD prefers to support, rather than lead, 
whole-of-government approaches to Rule of Law issues, which are 
considered part of stability operations and utilize the entire 
interagency team. If other Departments and Agencies are unable to lead 
these types of efforts, DOD will use its available assets and broad 
experience to support U.S. Government national security goals and 
objectives. To make the need for DOD to take a leading role less 
likely, DOD will continue to advocate for significantly increasing the 
capacity of other Departments and Agencies to lead and conduct these 
types of operations in an expeditionary environment. The Civilian 
Stabilization Initiative (CSI) under development by the Department of 
State's Office of the Coordinator for Reconstruction and Stabilization 
shows promise to provide the whole-of-government stability operations 
capability that DOD supports. The CSI includes a Civilian Response 
Corps composed of personnel from eight different U.S. Government 
civilian departments and agencies and is designed to conduct stability 
operations in order to foster foreign nations' self-governance, social 
and economic development, and security before, during, or after 
conflict. DOD will continue to support the CSI and encourages Congress 
to fund the effort fully. Finally, DOD is teamed with the Department of 
State and the USAID on mutual policy for Security Sector Reform (SSR). 
Although DOD's SSR role is focused on supporting the reform, 
restructuring, or re-establishment of a foreign nation's defense 
sector, this work is done in coordination with USAID's role in 
supporting Rule of Law programs (along with other SSR programs) aimed 
at building civilian capacity to manage, oversee, and provide security 
and justice.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                               force size
    18. Senator Chambliss. Secretary Flournoy, please provide details 
regarding what requests were made by U.S. commanders in Afghanistan for 
U.S. forces (number and type of forces) from 2002 to the present.
    Secretary Flournoy. The decision to deploy U.S. military forces is 
a deliberative process, and internal to the DOD. The Department is 
unable to share such information in the level of detail requested.
    The Secretary of Defense carefully considers the advice and 
recommendations of his military commanders, the Joint Staff, and the 
Military Departments and Services before making a decision to order the 
deployment of U.S. forces.
    Most recently, the President and the Secretary approved the 
deployment of a Marine Expeditionary Brigade (MEB), a Stryker Brigade 
Combat Team (BCT), a training BCT, special operations forces, and 
various enablers that were requested by General David McKiernan. The 
approval of these requests was consistent with General McKiernan's 
timeline for when these forces were needed. Based on an assessment of 
progress in the coming months, the Department will review requirements 
for any additional military forces.

    19. Senator Chambliss. Secretary Flournoy, were these requests met? 
If not, why?
    Secretary Flournoy. As stated previously, the Department is unable 
to share the details of all requests for forces from 2002 onward. The 
President and the Secretary recently approved the deployment of an MEB, 
a BCT, a training BCT, Special Operations Forces, and various enablers 
that were requested by General David McKiernan. The approval of these 
requests was consistent with General McKiernan's timeline for when 
these forces were needed. Based on an assessment of progress in the 
coming months, the Department will review requirements for any 
additional military forces.

    20. Senator Chambliss. Secretary Flournoy, what requests currently 
exist from U.S. Commanders in Afghanistan for U.S. forces?
    Secretary Flournoy. General McKiernan has requested additional 
forces for the mission in Afghanistan, including maneuver forces and 
headquarters personnel. This request is not for immediate deployment. 
The decision on whether or not to meet these requests will be taken at 
a later time. When appropriate, the Secretary of Defense will consider 
these requests, in consultation with military commanders, the Chairman 
of the Joint Chiefs, and the Services.

    21. Senator Chambliss. Secretary Flournoy, have these requests been 
met? If not, why?
    Secretary Flournoy. As stated previously, the request for maneuver 
forces and headquarters staff is not for immediate deployment and the 
decision on whether or not to meet the requests will be taken at a 
later time.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
               afghanistan and pakistan economic strategy
    22. Senator Vitter. General Petraeus, I want to first thank you for 
your tremendous leadership and service, and the United States is 
fortunate to have you serve in our military. I agree with your 
assessment that a contributing factor to insecurity in Pakistan and 
Afghanistan was the uneven economic development and lack of employment 
opportunities that contribute to the population remaining 
``economically disenfranchised, uneducated, and without sufficient 
opportunity.'' With some success in Iraq in implanting economic 
development strategies to help quell the counter insurgency, how 
optimistic are you that an economic strategy in Pakistan and 
Afghanistan can be successful?
    General Petraeus. There is no question that a sole military 
solution does not exist for either Pakistan or Afghanistan; both 
require a comprehensive, whole-of-government approach.
    Pakistan is still recovering from a November 2008 balance of 
payments crisis. Its economy is showing signs of progress as a result 
of timely assistance from the International Monetary Fund (IMF). The 
IMF recently met with Pakistan officials and was pleased with their 
economic performance in meeting benchmarks. That effort won a vote of 
confidence from the World Bank. Even small increases of economic 
recovery can go a long way in offsetting the challenges that currently 
confront the Pakistani Government.
    Afghanistan is in the process of making the transition from an 
economy dominated by illegal poppy to a legal and more diversified 
economy. Frankly, our eradication efforts have not been wholly 
effective. In the past year, however, we have seen farmers voluntarily 
switch to wheat cultivation based on the increased value of wheat (and 
a decline in poppy prices) and on initial alternative livelihood 
programs. I think this alternative livelihood program shows some 
promise and with the help of the United States Department of 
Agriculture (USDA) we can begin to expand it. Taking action with the 
USDA while wheat is profitable is an opportunity that doesn't come 
around often. There is no doubt that Afghanistan's economic strategy 
needs improvement. We are working closely with the Afghan Government to 
increase its revenue collection. Our goal is for Afghanistan's 
operating budget to be more fiscally sustainable and I believe we are 
making progress. Another top economic issue is privatizing the State-
Owned Enterprises (SOEs). The good news is we have strong support from 
the Afghan Central Bank and Finance Ministry to improve revenue 
collection and privatize the SOEs. The challenge will be in the 
sustained execution.

                               narcotics
    23. Senator Vitter. General Petraeus, considering that Afghanistan 
is one of the biggest narcotic states in the world, is it reasonable to 
think that viable agricultural alternatives, improved infrastructure, 
and better Afghan law enforcement will be able to realistically move 
past their narcotics trade that has been imbedded in their history?
    General Petraeus. Prior to the nearly three decades of war and 
domestic turmoil, Afghanistan was widely known for its trade in fruits 
and nuts and for their rich mineral deposits. In the past 5 years, the 
resurgence of the Taliban has been accompanied by a fundamental 
increase in the scope of poppy cultivation and narcotics trafficking. 
Improving the quality of the Afghan people's lives through a return to 
viable, licit methods of earning a living coupled with access to better 
roads and new markets in a secure environment where the rule of law is 
uniformly enforced are essential elements for Afghanistan's success.
    The United States Government's five-pillar counternarcotics 
strategy incorporates all these concepts. The five pillars are a public 
information campaign to inform and educate the population about the 
dangers of poppy cultivation and narcotics trafficking; an alternative 
development effort to establish economic alternatives to poppy 
cultivation; an elimination and eradication program to provide credible 
disincentives to growing poppy; an interdiction arm to help the 
Government of Afghanistan build its capacity to disrupt and dismantle 
drug trafficking operations; and reform Afghan law enforcement and 
justice institutions. The United States Special Envoy to Pakistan and 
Afghanistan, Ambassador Richard Holbrooke, has initiated a review of 
the current strategy to build on lessons learned and rebalance our 
efforts in these five strategic areas.
    In those areas of Afghanistan where the Afghan Government provides 
security, rule of law, and has extended governance, this approach is 
working. In north and central Afghanistan where the Afghan Government 
is providing some level of security and governance, the United Nations 
Office on Drugs and Crime certified 18 poppy-free provinces in 2008. 
Their winter opium assessment report also indicates an additional four 
provinces in north and central Afghanistan could be poppy free in 2009.
    According to the United Nations Office on Drugs and Crime, there is 
a clear distinction in Afghanistan between those areas that do not grow 
poppy and those that do. Farmers have voluntarily given up poppy 
cultivation where effective governance and developmental assistance 
exists. Poppy cultivation in Afghanistan is almost exclusively confined 
to seven provinces in the south and southwest. The provinces of 
Helmand, Kandahar, Uruzgan, Daykundi, Zabul, Farah, and Nimruz account 
for 98 percent of all poppy grown in Afghanistan. Not coincidentally, 
this is the area where the insurgency is strongest.

    24. Senator Vitter. General Petraeus, what lessons from our efforts 
fighting FARC in Columbia do you feel will be useful in our shared 
interest of combating the drug trade in Afghanistan?
    General Petraeus. The foremost lesson learned from Columbia is that 
success will take time and patience. Active since the early 1960s, the 
FARC began as a Marxist-Leninist terrorist group which transformed into 
one of the largest narcoterrorist organizations in the world. United 
States Southern Command's recent counterinsurgency conference in 
Bogota, Colombia, discussed the Colombian experience and what elements 
made it successful. The three elements ascribed as most critical to 
success are: counterinsurgency approach containing the elements of 
``Clear, Hold, Build''; strategic communications; and a comprehensive, 
whole-of-government approach.
    A counterinsurgency strategy of ``Clear, Hold, Build'' was critical 
to Columbia gradually taking back territory and keeping it under 
government control. The U.S. and ISAF-Afghanistan forces employ this 
counterinsurgency strategy in Afghanistan. It is imperative that when 
we push the insurgents and drug traffickers out of an area, we also 
bring in those elements of the Afghan Government and other coalition 
support to provide some meaningful level of services, security and rule 
of law. If this is not done, insurgents and drug traffickers will 
return when we leave.
    Next, it is important to employ effective strategic communications 
to counter the lies and propaganda employed by the insurgents and drug 
trafficking organizations. Winning the contest of information and ideas 
is paramount to success while always maintaining our values and respect 
for the truth. The people must understand the objectives and activities 
of the Afghan Government, coalition, and U.S. and believe that these 
are in their best interests. The perceptions created by the insurgents 
and drug traffickers, if left unchecked, often become reality for the 
population. This is an area that must be proactive in and closely 
synchronized with ongoing activities as they relate to the U.S. 
Government's counternarcotics strategy.
    As was done in Columbia, taking a comprehensive government approach 
to all activity in Afghanistan requires the United States Government to 
leverage best practices to improve agriculture and trade, stimulate 
economic development, engender reliable law enforcement, establish rule 
of law, develop financial regulation and expand education. The current 
U.S. Government's counternarcotics strategy in Afghanistan is a 
comprehensive approach that leverages the best expertise from: 
Department of State for poppy elimination and strategic communications; 
USAID assistance with licit trade/livelihood alternatives for the 
Afghan people; Drug Enforcement Agency for illicit drug interdiction; 
Department of Justice to develop law enforcement and criminal justice 
systems; Department of Homeland Security for improved border security; 
and DOD assistance in the development of the Afghan security forces.

                            european allies
    25. Senator Vitter. General Petraeus, do you think that the 
European coalition will be more involved in Pakistan and Afghanistan 
both economically and militarily, and what specific, realistic European 
involvement should the United States expect from the Europeans?
    General Petraeus. European nations have been, and will continue to 
be, heavily involved in supporting operations in Pakistan and 
Afghanistan.
    In Afghanistan 32 European nations currently contribute troops, 
equipment and/or financial aid to the ISAF and 6 European nations are 
in direct support of Operation Enduring Freedom. Of the five Regional 
Commands in Afghanistan, four are led by European nations.
    Seven European nations committed assistance to Pakistan by pledging 
$618.4 million in fiscal donor aid at the recent Friends of Democratic 
Pakistan and Donors Conference held in Tokyo, Japan. Additionally, the 
European Commission pledged $320 million. The Donor's Conference 
pledged a total of $5.2 billion in aid over the next 2 years to 
Pakistan.
    In addition to NATO-led efforts to counter violent extremism and 
rebuild the Nation of Afghanistan, the Organization for Security and 
Cooperation in Europe initiated efforts last year to strengthen their 
support. European nations continue to make significant contributions to 
Afghanistan via ISAF and donor conferences. As of May 2009, 29 European 
nations had pledges of significant contributions for Afghanistan in 
many areas including personnel, aircraft, election funding, medical 
teams, construction teams and funding for the Afghanistan National 
Army. We fully expect these contributions to be fulfilled and/or 
maintained so Afghanistan's nation building may continue.
    European nations were instrumental in assisting the Government of 
the Islamic Republic of Afghanistan develop the Afghan National 
Development Strategy which encompasses long range economic, social, and 
governmental development as well as critical reforms in these 
disciplines. This strategy will require U.S., European and 
international support in the foreseeable future. Afghanistan aid 
requests, such as personnel for governance and development programs, 
information technology experts, special operations forces and police 
trainers are being socialized with the Governments of European nations 
via our Department of State. To date, 35 European nations and the 
European Union itself have been requested to fill specific economic and 
military needs in Afghanistan via the ``Asks List,'' with 29 European 
nations having pledged contributions.

                            israeli conflict
    26. Senator Vitter. General Petraeus, a longstanding battle cry for 
al Qaeda and other Islamic extremists is that the United States has not 
been a true neutral partner in the Arab and Israeli conflict. You 
mentioned during your testimony that the United States needs to be 
``credible'' in this conflict. Could you please provide your definition 
of what ``credible'' means for the United States in the conflict?
    General Petraeus. I would define credible as being perceived as a 
partner that can be trusted, a partner that is consistently fair and 
honest in all relationships with allies and partners. However, we will 
work with partners that have different views and function as a 
moderator or negotiator in brokering peace and stability in the region. 
A major obstacle is the perception of United States credibility in the 
region. A recent Saban Center survey of civilians in seven Middle East 
nations revealed that the United States is not perceived as a credible, 
neutral broker. The worst news out of this survey is that Hezbollah 
leadership is perceived more positively than any other leadership in 
the Middle East. The President's recent address in Cairo, Egypt has 
been well-received, but there is an anticipation in the Middle East 
that it be followed up with sustained and substantial actions.
    It should come as no surprise that Israel is a close friend and 
ally. The United States will remain committed to Israel's security and 
simultaneously honor United Nations resolutions to this end. We will 
continue to advance the cause of peace and stability in the Middle East 
and to move the Israeli-Palestinian parties in the direction of a two-
state solution. However, our adversaries in the region have 
successfully parried and marginalized the goodwill of the billions of 
dollars that Congress has authorized to support Palestinians needs and 
humanitarian requirements. The resulting perception has damaged our 
credibility within the Middle East communities. The bottom line is the 
United States remains committed to seeking a lasting peace between 
Israel and the Palestinians and between Israel and its Arab neighbors.

    [Whereupon, at 12:41 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
